<html>
<title> - PAYING TO PLAY: IMPLEMENTATION OF FEE AUTHORITY ON FEDERAL LANDS</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



 
                            PAYING TO PLAY:
                         IMPLEMENTATION OF FEE
                       AUTHORITY ON FEDERAL LANDS

=======================================================================

                        JOINT OVERSIGHT HEARING

                               before the

                    SUBCOMMITTEE ON NATIONAL PARKS,
                        FORESTS AND PUBLIC LANDS

                             joint with the

                    SUBCOMMITTEE ON WATER AND POWER

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                        Wednesday, June 18, 2008

                               __________

                           Serial No. 110-77

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov


                     U.S. GOVERNMENT PRINTING OFFICE
43-122 PDF                 WASHINGTON DC:  2009
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
              DON YOUNG, Alaska, Ranking Republican Member

Dale E. Kildee, Michigan             Jim Saxton, New Jersey
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Wayne T. Gilchrest, Maryland
Solomon P. Ortiz, Texas              Chris Cannon, Utah
Frank Pallone, Jr., New Jersey       Thomas G. Tancredo, Colorado
Donna M. Christensen, Virgin         Jeff Flake, Arizona
    Islands                          Stevan Pearce, New Mexico
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Luis G. Fortuno, Puerto Rico
Madeleine Z. Bordallo, Guam          Cathy McMorris Rodgers, Washington
Jim Costa, California                Louie Gohmert, Texas
Dan Boren, Oklahoma                  Tom Cole, Oklahoma
John P. Sarbanes, Maryland           Rob Bishop, Utah
George Miller, California            Bill Shuster, Pennsylvania
Edward J. Markey, Massachusetts      Bill Sali, Idaho
Peter A. DeFazio, Oregon             Doug Lamborn, Colorado
Maurice D. Hinchey, New York         Mary Fallin, Oklahoma
Patrick J. Kennedy, Rhode Island     Adrian Smith, Nebraska
Ron Kind, Wisconsin                  Robert J. Wittman, Virginia
Lois Capps, California               Steve Scalise, Louisiana
Jay Inslee, Washington
Mark Udall, Colorado
Joe Baca, California
Hilda L. Solis, California
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
            Christopher N. Fluhr, Republican Staff Director
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            John J. Duncan, Jr., Tennessee
Neil Abercrombie, Hawaii             Chris Cannon, Utah
Donna M. Christensen, Virgin         Thomas G. Tancredo, Colorado
    Islands                          Jeff Flake, Arizona
Rush D. Holt, New Jersey             Stevan Pearce, New Mexico
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
John P. Sarbanes, Maryland               Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Tom Cole, Oklahoma
Ron Kind, Wisconsin                  Bill Sali, Idaho
Lois Capps, California               Doug Lamborn, Colorado
Jay Inslee, Washington               Robert J. Wittman, Virginia
Mark Udall, Colorado                 Don Young, Alaska, ex officio
Stephanie Herseth Sandlin, South 
    Dakota
Heath Shuler, North Carolina
Nick J. Rahall, II, West Virginia, 
    ex officio
                                 ------                                

                    SUBCOMMITTEE ON WATER AND POWER

              GRACE F. NAPOLITANO, California, Chairwoman
     CATHY McMORRIS RODGERS, Washington, Ranking Republican Member

Jim Costa, California                Ken Calvert, California
George Miller, California            Doug Lamborn, Colorado
Mark Udall, Colorado                 Mary Fallin, Oklahoma
Joe Baca, California                 Adrian Smith, Nebraska
Nick J. Rahall II, West Virginia,    Don Young, Alaska, ex officio
    ex officio
Vacancy


                                 ------                                
                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, June 18, 2008.........................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     3
    McMorris Rodgers, Hon. Cathy a Representative in Congress 
      from the State of Washington...............................     5
    Napolitano, Hon. Grace F., a Representative in Congress from 
      the State of California....................................     4
        Prepared statement of....................................     5

Statement of Witnesses:
    Benzar, Kitty, President, Western Slope No-Fee Coalition.....    39
        Prepared statement of....................................    41
    Dolesh, Richard J., Senior Director of Public Policy, 
      National Recreation and Park Association...................    47
        Prepared statement of....................................    49
    Eskridge, Hon. George E., State Representative, District 1-B, 
      Idaho House of Representatives.............................    29
        Prepared statement of....................................    31
    Regula, Hon. Ralph, a Representative in Congress from the 
      State of Ohio..............................................     6
        Prepared statement of....................................     8
    Rey, Mark, Under Secretary, Natural Resources and 
      Environment, U.S. Department of Agriculture................    11
        Prepared statement of....................................    13
    Scarlett, P. Lynn, Deputy Secretary, U.S. Department of the 
      Interior...................................................    10
        Prepared statement of....................................    13
    Wade, J.W. ``Bill,'' Chair, Executive Council, Coalition of 
      National Park Service Retirees.............................    51
        Prepared statement of....................................    53
    Wiechers, Peter, Kernville, California.......................    59
        Prepared statement of....................................    61


OVERSIGHT HEARING ON ``PAYING TO PLAY: IMPLEMENTATION OF FEE AUTHORITY 
                           ON FEDERAL LANDS''

                              ----------                              


                        Wednesday, June 18, 2008

                     U.S. House of Representatives

       Subcommittee on National Parks, Forests and Public Lands,

             joint with the Subcommittee on Water and Power

                     Committee on Natural Resources

                            Washington, D.C.

                              ----------                              

    The Subcommittees met, pursuant to call, at 10:04 a.m. in 
Room 1324, Longworth House Office Building, Hon. Raul M. 
Grijalva [Chairman of the Subcommittee on National Parks] 
presiding.
    Present: Representatives Grijalva, Napolitano, DeFazio, 
Capps, Inslee, McMorris Rodgers, Bishop, and Sali.

 STATEMENT OF THE HONORABLE RAUL M. GRIJALVA, A REPRESENTATIVE 
             IN CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Let me call the Subcommittees to order. It is 
an oversight hearing on the implementation of fee authority on 
Federal lands.
    We all own our national parks, forests, wildlife refuges, 
historic sites, monuments, recreation areas, and conservation 
areas. We all own them, and they are all important to the 
American people and to the taxpayer. We pay for their care, 
upkeep, and management through our taxes.
    So let me say, first, that I firmly believe that the 
American public should not have to pay additional fees to have 
access to our world-class system of parks, forests, refuges, 
and public lands. Whether it be listening to a ranger program 
in a National Park, hiking the wilderness, or enjoying a picnic 
in the woods in a National Forest, these activities have 
traditionally been free to the public, and they are part of why 
we love to visit these special places.
    However, despite our congressional obligation to fully fund 
all of the needs of our public land management agencies, recent 
budgets have failed to prioritize the stewardship of these 
unique places, and years of underfunding have led to 
maintenance backlogs, lack of services, and shortages in 
project and operating funding.
    In light of these constant shortfalls, we have turned to 
recreation fees to supplement the funding of our Federal lands, 
and our land management agencies have come to rely on these fee 
revenues for the maintenance of the lands that they manage, yet 
this is an imperfect solution and one that has become 
increasingly controversial with critics on both sides of the 
political aisle.
    So it is my intent today to explore how the fee programs on 
Federal lands are being implemented, something that I believe 
is long overdue, and to examine why fees have become so 
controversial.
    When the Fee Demonstration program was enacted in 1996 as a 
rider to an appropriations bill, we were told that this was a 
trial program. ``Fee Demo,'' as it came to be known, would test 
the feasibility of permitting the National Park Service, the 
U.S. Fish and Wildlife Service, the Bureau of Land Management, 
and the U.S. Forest Service to charge fees for a wide variety 
of uses. These fees would then be kept at the collection site 
and go toward much needed repairs and services that had gone 
underfunded.
    While many responded favorably to the Fee Demo program, 
there were troubling problems with the implementation and the 
establishment of these fees. So when the Federal Lands 
Recreation Enhancement Act was passed in 2005 to replace Fee 
Demo, and, again, it was done without debate as an 
appropriations rider, we were assured that the agencies had 
learned their lessons. We were told that the act included the 
best practices learned over eight years of experiments, 
mistakes, and, ultimately, experience under the Fee Demo 
program.
    However, while there is little doubt that the $2 billion in 
fee revenue generated since 1997 has been enthusiastically 
received by the agencies and that fees have given hope to 
agencies which had watched their proposed budget gaps widen, 
these advances have come at a cost.
    Many contend these fees are not only a double tax on the 
recreating public, but they are also unfair, inconsistent, and 
confusing. Further, critics assert that fees discriminate 
against lower income people, rural residents, and low-impact 
recreational users.
    Of specific concern to me today as well is how fees are 
being managed on the Forest Service lands. Administrative 
difficulties, questions on where and why certain fees are 
charged, strong public resistance, and lawsuits seem to have 
plagued the Forest Service's implementations of the fee 
program.
    Today, we will hear from witnesses who will share their 
frustrations with the system and, specifically, with the act's 
lack of transparency in setting fee rates and in imposing new 
fees and their lack of physical accountability.
    We will also hear that, although there are names for the 
types of fees that have been charged, the act has not addressed 
the underlying problems with these fees, and this has simply 
compounded public confusion and frustration with the Forest 
Service Fee program.
    In fact, over the past two weeks, since the announcement of 
these hearings, we have been flooded each day with testimonials 
from citizens all over the West calling for repeal of this act. 
I thank all of those folks that took time to contact us, and I 
recognize their concerns.
    After 11 years of charging recreation fees, I would have 
hoped that we would be beyond these issues, yet it is obvious 
that we are not.
    I would also like to thank our witnesses for traveling from 
around the country to be here today to share their expertise. 
It is invaluable to this Committee and to its deliberation on 
this act.
    I would like to, at this point, recognize my friend and 
colleague, Chairwoman Napolitano of the Water and Power 
Subcommittee, for any opening statement she may have. 
Chairwoman?
    [The prepared statement of Mr. Grijalva follows:]

        Statement of The Honorable Raul M. Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    We all own our national parks, forests, wildlife refuges, historic 
sites, monuments, recreation areas and conservation areas. We pay for 
their care, upkeep and management through our taxes. So, let me say 
first, that I firmly believe that the American public should not have 
to pay additional fees to have access to our world class system of 
parks, forests, refuges and public lands--whether it be listening to a 
ranger program in a national park, hiking the wilderness, or enjoying a 
picnic in the woods in a national forest.
    These activities have traditionally been free to the public and 
they are part of why we love to visit these special places.
    However, despite our Congressional obligation to fully fund ALL of 
the needs of our public land management agencies, recent budgets have 
failed to prioritize the stewardship of these unique places. And years 
of underfunding have led to maintenance backlogs, lack of services, and 
shortages in project and operations funding
    In light of these constant shortfalls, we have turned to recreation 
fees to supplement the funding of our Federal lands--and our land 
management agencies have come to rely on these fee revenues. Yet, this 
is an imperfect solution, and one that has become increasingly 
controversial--with critics on both sides of the political aisle.
    So, it is my intent today to explore how the fee programs on 
federal lands are being implemented--something that is long overdue--
and to examine why fees have become so controversial.
    When the Fee Demonstration Program was enacted in 1996--as a rider 
to appropriations bills--we were told that this was a ``trial 
program.'' Fee Demo, as it came to be known, would test the feasibility 
of permitting the National Park Service, the U.S. Fish and Wildlife 
Service, the Bureau of Land Management and the U.S. Forest Service to 
charge fees for a wide variety of uses. These fees would then be kept 
at the collection site and would go towards much needed repairs and 
services that had gone unfunded.
    While many responded favorably to the Fee Demo Program, there were 
troubling problems with the implementation and establishment of these 
fees.
    So, when the Federal Lands Recreation Enhancement Act was passed in 
2005 to replace Fee Demo--and, again it was done without debate, as an 
appropriations rider--we were assured that the agencies had learned 
their lessons. We were told that FLREA (Fla-ree-uh) included the best 
practices learned from eight years of experiments, mistakes and 
ultimately, experience, under the Fee Demo Program.
    However, while there is little doubt that the $2 billion in fee 
revenue generated since 1997 has been enthusiastically received by the 
agencies, and that fees have given hope to agencies which had watched 
their proposed budget gaps widen, these advances have come at a cost.
    Many contend that these fees are not only a double tax on the 
recreating public, but that they are also unfair, inconsistent and 
confusing. Further, critics assert that fees discriminate against 
lower-income people, rural residents and low impact recreational users.
    Of specific concern to me today as well, is how fees are being 
managed on Forest Service lands. Administrative difficulties, questions 
on where and why certain fees are charged, strong public resistance and 
lawsuits seem to have plagued the Forest Service's implementation of 
the fee program.
    Today we will hear from witnesses who will share their frustrations 
with this system and specifically with the Forest Service's lack of 
transparency in setting fee rates and imposing new fees, and their lack 
of fiscal accountability. We will also hear that although the names of 
the types of fees have changed, FLREA has not addressed the underlying 
problems with those fees--and that this has simply compounded public 
confusion and frustration with the Forest Service Fee Program.
    In fact, in the past two weeks, since the announcement of this 
hearing, we have been inundated each day with testimonials from 
citizens all over the West calling for the repeal of FLREA. I thank all 
of the folks that took the time to contact us, and I recognize their 
concerns.
    After 11 years of charging recreation fees, I would have hoped that 
we would be beyond these issues. Yet it's obvious that we are not.
    I would also like to thank all of our witnesses for traveling from 
around the country to be here today to share their expertise. It's 
invaluable to this committee as well.
    I would now like to recognize my friend and colleague Chairwoman 
Napolitano of the Water and Power Subcommittee for any opening 
statement she may have.
                                 ______
                                 

       STATEMENT OF THE HONORABLE GRACE F. NAPOLITANO, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mrs. Napolitano. Thank you, Mr. Chairman. It is a pleasure 
being here, and thank you for the opportunity to be part of 
this hearing. I am very interested in what is happening in our 
parks as it relates to water also and, of course, the fees 
because for many years I was one of those who had a large 
family and would travel to some of the great recreation sites 
we offer, and they were free.
    I doubt that I may have been able to afford them, with five 
children and having to pay additional costs to be able to 
travel in those areas.
    My children now have their own families, and they still go 
out and recreate, and, as I speak, I have a daughter and her 
family out on the Colorado River enjoying boating and some 
other great recreation sites that are available to them.
    I trust that we will continue to be able to make affordable 
and accessible to people who do not have a large amount of 
income to spend, given what we are facing right now in the 
budget crisis, with the price of gasoline, not many people are 
traveling much.
    My concern is not only what is happening, in terms of the 
accountability or across-the-board fee charges for the use of 
our parks; as I have always mentioned, our taxes have paid for 
it. Now, if Congress has not appropriated enough funding to be 
able to pay for the infrastructure, for the personnel, for the 
renovation of roads, et cetera, then I think the system needs 
to be able to be funded on a permanent basis. I would hope that 
maybe we could look at that in the future.
    But as we move on, I have other concerns that I would like 
to bring out during this hearing, and I thank the Chairman for 
allowing me to be here. These concerns include climate change 
and how it is affecting dams, rivers, and waterways because 
these changes affect mammals and fish. There may not be enough 
food for them, partly because we are finding out that there is 
one invasive species that is eating a lot of the food chain, 
and that is the quagga mussel.
    How is it that you will be dealing with it if it is already 
rearing its ugly head in those areas where you have 
jurisdiction, and what if you do have to begin to clean up 
those areas, and what funds are you going to be able to have to 
use it? Are you going to charge more fees to be able to address 
the cleanup of your intake pumps, et cetera, et cetera? And how 
is that going to affect the ability to attract the tourism if 
you may not have a good, vibrant seafood chain that people can 
go in and enjoy?
    Those are some of the areas that I have in mind, and it is 
going to be a tough balance keeping our water supply safe and 
having families, much like mine, be able to enjoy the 
recreation areas.
    We need to continue to protect our sites. I know I was in 
Puerto Rico several years ago, and a Forest Service person 
there indicated to me that they were in bad need of funding to 
be able to do a lot of the infrastructure repair, and, of 
course, they were very, very strung out, in terms of personnel.
    So I do have some grave concerns, and I thank you, Mr. 
Chairman, for allowing me to be part of this because I do have 
a great interest in our parks.
    [The prepared statement of Mrs. Napolitano follows:]

       Statement of The Honorable Grace Napolitano, Chairwoman, 
                    Subcommittee on Water and Power

    Thank you Chairman Grijalva for hosting this hearing with the Water 
and Power subcommittee.
    Recreation has always been a part of my family's life and I can 
still remember my five grown children when they were just kids, wanting 
to water ski, kayak and swim in the Salton Sea. They have their own 
families now and have blessed me with 14 grandkids, but it was a 
highlight for my family to be on the water, in the summer, enjoying our 
public lands.
    There hasn't been any oversight on the Federal Lands Recreation 
Enhancement Act (FLREA) since its inception and our role today is to 
find our more National Park Service Sites that are next to Reclamation 
facilities. I want to learn more about interaction of recreation on 
water supply. And if we charge fees at those NPS sites, I would like to 
know where those fees go.
    It's a tough balance to in keeping our water supply safe while 
having families, like mine, all over the country enjoying our 
recreation areas. I also want to make sure that the fees don't prevent 
families from enjoying our public lands. Recreation at our lakes should 
never stop, but we must be aware of how we use tax payer dollars and 
site fees to protect and enhance recreation also protect our water 
supply.
                                 ______
                                 
    Mr. Grijalva. Thank you very much. Let me now ask the 
Ranking Member, our colleague of the Water and Power 
Subcommittee, Representative McMorris Rodgers, for any opening 
comments she may have.

     STATEMENT OF THE HONORABLE CATHY McMORRIS RODGERS, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mrs. McMorris Rodgers. Thank you, Mr. Chairman, and good 
morning, Madam Chairwoman.
    Today's hearing is about assessing the Federal Lands 
Recreation Enhancement Act, and important questions will be 
asked about whether this act is working to expand visitor use 
and who it is impacting.
    The fees covered in this act affect one out of 289 Bureau 
of Reclamation areas managed for developed recreation. The 
Bureau's core mission is to deliver water and power resources 
and protect the environment, and, in my opinion, it has, 
smartly, contracted much of its recreational duties to other 
Federal, state, and local entities.
    There are questions about how these partners manage the 
resource with these fees behind the Bureau of Reclamation's 
dams, particularly at Lake Mead National Recreation Area. I 
look forward to hearing some answers about fee implementation.
    This is an important parks-and-leisure hearing, but I would 
also like to raise the important issue of protecting our 
forests, water, and recreational facilities from catastrophic 
wildfires. The fire season has already started. Entire 
communities and regional water supplies are being put at risk 
because this Congress has not recognized that we must do 
something to proactively manage our forests.
    I sincerely hope we can have a joint hearing very soon on 
this matter. Our communities need to be assured that Congress 
is working on all of these issues. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, and let me welcome our colleague, 
Mr. Regula, the original sponsor of the FLREA Act. Thank you 
very much for taking the time to be with us, and I am looking 
forward to your comments, sir.

 STATEMENT OF THE HONORABLE RALPH REGULA, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF OHIO

    Mr. Regula. Thank you, Mr. Chairman, and I congratulate you 
for having his hearing. I think we do not do enough oversight 
in the Congress on not only this, but a lot of other programs 
to find out if they are working, and, if not, what can be done 
to make them work better.
    I was involved with this. I was Chairman of Interior 
Appropriations, and we were faced with the fact that there was 
an over $2 billion shortfall in maintenance, and I think 
probably this is brought home so clearly in the Washington Post 
today, the front page story, ``America's Unkempt Front Yard.'' 
If we cannot even take care of the maintenance on the Mall in 
our Nation's Capital, which is a showcase, if you will, with 
the monuments and so on, what are we doing on the lesser-known 
parks?
    They point out here that the Park Service said they need 
$350 million in deferred maintenance, and they will, hopefully, 
get out of the bill this year maybe $100 million.
    I think this is what certainly motivated me, when I was 
Chairman of the Committee, and I would hear these horror 
stories about maintenance and how they just did not have the 
money. We developed the fee program to address that. Now, we 
tried to put in conditions that the money had to pretty much 
stay in the park or the public land facility that generated the 
fee, and it had to be used for maintenance. You could not build 
visitor's centers or anything else. There needed to be 
maintenance: trails, campsites, some health and safety 
facilities.
    I remember so well, we were at Yellowstone, and my wife 
used the restroom, and when she came out, she said, ``That is 
awful. That place was badly in need of maintenance,'' and this 
is Yellowstone. This is a flagship park. But that is just one 
example, and there are a lot of others, and we established this 
program.
    Unanimous consent to submit my statement for the record, 
and I will not go into all of it.
    What we wanted to do was to address this problem, and I 
have to say that, as I traveled, as Chairman of Interior 
Appropriations, every place we would go the person who was in 
charge of maintenance would come up and say, ``Thank God for 
this program. I was letting things go that now I can take care 
of because I have a little bit of funding,'' and they were so 
happy to get this.
    I remember Muir Wood said, ``Our trails are in terrible 
condition.'' With the rec. fees, and they are not a lot--it is 
a very small amount, everything considered--we can do the 
maintenance, or, at least part of what we need to do. The 
importance of that, again, is illustrated by this story in the 
Post this morning, front page.
    I think maybe it needs some tweaking, but I think the 
program itself is essentially right, and it is necessary 
because we simply do not get the money in the Appropriations 
Committee, and it is not just this.
    I was on, for several years, the Smithsonian Board, and 
they had the same problem. At every meeting, the Secretary 
would say, ``We have over $2 billion of deferred maintenance in 
the Smithsonian, and what are we going to do to take care of 
it?'' You do not get major contributions from anybody to fix 
restrooms. You might get it to build buildings with their name 
on it, but not to fix up the facilities.
    Now, that is one dimension, and when we drafted this 
legislation, we wanted to make sure that the money went back 
into maintenance. That is part of the law. The surveys show 
that about 80 percent of the public are happy to do this.
    I used to tell the park superintendents, ``Put up a big 
sign that says, your fee, whichever it was, which is small, is 
being used, in this park, for maintaining the facilities that 
you are going to use.'' And I think that people understand 
that. That is why the surveys show that about 80 to 85 percent 
of the people are very supportive.
    I have to point out that we made sure this did not mandate 
a specific fee level because some parks have greater 
maintenance challenges than others, so we leave that to the 
land management agencies, and no requirement for anyone to 
purchase a national pass to visit a local National Park.
    Third, it does not privatize land management. It simply 
says, ``Here is some funding, a small amount that people pay on 
their way in, to help with maintaining the facilities that they 
hope to enjoy.''
    Now, we got an unintended benefit from this, which I was 
kind of surprised to learn of, and that is the park 
superintendents that I have talked to told me that their 
vandalism decreased once they put in a fee schedule, and the 
reason is that everybody that went through the gate, somebody 
knew they were in there, whereas when you just drive in, there 
was not that kind of supervision, if you will, or knowledge.
    It came home to me when I visited a forest facility just 
outside of Los Angeles, which really became the Los Angeles 
City Park, in effect, because there is such a huge population 
base there, and this was right on the edge of Los Angeles. I 
was out there to visit. They put in a beautiful area for 
people, with places to play for kids, and they put in the 
grills where people could have family picnics. It was really 
very well done.
    The night before we were there, somebody had come in with 
one of these pickups, if you want to call them that, with huge 
tires, obviously. I cannot understand the mind-set of people 
like that, but they came in, and this was before they were 
charging any fees there, they came in and just drove over and 
smashed all of this equipment that was put in for the people to 
enjoy out of Los Angeles.
    I thought, what a tragic waste, and how important this is 
to the people that live there. If there would have been just a 
modest fee, a couple of bucks, for them to go in there, then 
the people at the gate would have known who went in there with 
a vehicle with the huge tires, and it would not have happened. 
That is the bottom line.
    So I think the vandalism issue, where it is difficult to 
qualify, when I talked to park superintendents when I was the 
Chairman and visited them, they, without exception, said, ``We 
had a reduction in vandalism as a result of our fee program.''
    I think it has produced over $2 billion of money that has 
gone back into making the visitors' experience better and more 
satisfactory. I think it has worked well, and it is, I think, 
important for you to take a look at it, but I hope you do not 
propose to abandon it because, certainly, the evidence is very 
strong, and I think you will hear from the people in the 
Interior Department that have the jurisdiction of all of these 
agencies how important it is.
    I thank you for the opportunity to testify today.
    [The prepared statement of Mr. Regula follows:]

 Statement of The Honorable Ralph Regula, a Representative in Congress 
                         from the State of Ohio

    Thank you, Mr. Chairman, for the opportunity to submit testimony to 
this committee regarding the Recreation Fee Program.
    The Federal Lands Recreation Enhancement Act, FLREA, is a program 
that was established to address quickly degrading facilities and trails 
on public lands. Before this program was established, the high-quality 
experience that the American people had associated with some of our 
most treasured lands was eroding as quickly as the visitor facilities, 
trails, roads, rest areas, signs, and safety equipment that countless 
visitors came in contact with everyday. Maintaining and enhancing our 
national parks, forests and other federal recreation areas is not easy 
or inexpensive. As demands exceeded available funding, unfortunately, 
we in Congress too often deferred routine maintenance and postponed 
improvements which in turn degraded the recreation experience for our 
constituents. This act was established as a solution to the problem.
    In 1995, when I became Chairman of the House Appropriations 
Subcommittee on Interior, I decided to do something about the 
deteriorating conditions in our national parks, forests, wildlife 
refuges and BLM lands. As part of this effort, I established a 
demonstration program to charge nominal fees and use the revenue for 
maintenance and improvements at the site where they were collected. 
Specifically, no less than 80 percent of the revenue collected would 
stay at the site and would go towards needs identified by visitors. In 
2004, this demonstration program became law and today is known as the 
Federal Land Recreation Enhancement Act.
    Mr. Chairman and Members of the Committee, I am a strong supporter 
of FLREA, however I understand the need review the program and make 
improvements to it. If we expect Americans to spend money to take their 
families to our lands, the fees must be fair, equitable, consistent and 
convenient. As Representatives, we have the responsibility to maintain 
our public lands while at the same time ensuring Americans that when 
they visit the Federal recreation sites they will be receiving a 
service that is worth their hard earned money. However, we also must 
recognize the support that program receives as well. Recent agency led 
surveys have shown that this program enjoys a great deal of support. 
The Bureau of Land Management (BLM) has found that 80% of its visitors 
surveyed believed the fees charged were appropriate. Recently, the U.S. 
Forest Service found that 83% of its visitors felt the fee they were 
charged was reasonable. Within the National Park Service, 90% of the 
visitors surveyed were satisfied with the value of the entrance fee. I 
feel these impressive numbers show that this program is successful in 
balancing the needs of our lands, our citizens, and their experience on 
those lands.
    Next, I would like to take this time to clear up several 
misconceptions about this law:
    <bullet>  This program does not mandate a specific fee level. Each 
fee is determined by the land management agencies, based on a number of 
factors, including the value of the visitor experience and the level of 
federal investments. In fact, this program establishes a fee structure 
so that fees are more uniform from site to site.
    <bullet>  There is no requirement for anyone to purchase a national 
pass to visit a local national park or forest. While the program does 
give people the option of purchasing one pass to visit all sites, it 
also provides for an annual site-specific agency pass as well as 
regional passes. This is done to give the visitor more choices.
    <bullet>  This program does not privatize land management. On the 
contrary, this program empowers public land managers, giving them 
additional resources to do their jobs better.
    The funds generated from the program are critical to the land 
agencies ability to provide meaningful and efficient recreation 
experiences to the public. If services were cut back the aesthetic 
beauty and appeal of these lands would be lost. We have made 
significant strides in reducing the maintenance backlog, improving our 
public recreation lands and managing fees since the implementation of 
FLREA. We must continue on this path to ensure that decades from now 
Americans can continue to benefit from the natural beauty our nation's 
lands have to offer. Thank you for allowing me to share my thoughts 
with you today on this issue.
    Thank you for holding this oversight hearing. I hope that you will 
take away from it the value that Americans receive from the FLREA. They 
are both the landowners and users of these lands. The small fees they 
pay to use the resource is clearly invested back to further improve 
their experience on these lands. I appreciate the opportunity to share 
my thoughts with you on this issue.
                                 ______
                                 
    Mrs. Napolitano [presiding]. Thank you, Congressman Regula. 
It is a pleasure seeing you, and thank you for your testimony. 
I could not agree with you more, with the exception that if we 
start charging for everybody, even those families who might 
have young vandals might learn to appreciate what they have. At 
least, some of them might eventually, as they grow older, 
understand the value to their growing families for recreation 
since there is very little recreation left.
    Mr. Regula. Well, I would hope that, wherever they set up a 
schedule, they would make accommodation for students, for 
children, for senior citizens, and they can structure it any 
way they choose. I suspect a lot of them do, as a matter of 
fact, put those exceptions in their schedules.
    Mrs. Napolitano. Well, thank you very much for your 
testimony. The Chairman had to go vote. He will be right back. 
I appreciate your being here, and we will move on to our panel.
    As they move on to us, we have Lynn Scarlett, Deputy 
Secretary in the Department of the Interior, and Mr. Mark Rey, 
Under Secretary, Natural Resources and Environment, from the 
Department of Agriculture. As they are moving up, I have been 
asked to share that it is an honor to have both Under Secretary 
Ray and Deputy Secretary Scarlett here. You honor us with your 
presence, and we certainly appreciate your being here to talk 
to us about the issue that is being covered today.
    With that, we will ask Ms. Lynn Scarlett, Deputy Secretary, 
Department of the Interior, to begin her testimony.

       STATEMENT OF P. LYNN SCARLETT, DEPUTY SECRETARY, 
                U.S. DEPARTMENT OF THE INTERIOR

    Ms. Scarlett. Thank you very much, Chairman Grijalva, 
Chairwoman Napolitano, and Members of the entire Committee. 
Thank you for this opportunity to discuss the Federal Lands 
Recreation Enhancement Act.
    I would like also to spend a moment publicly thanking our 
Bureau Recreation Fee Team, some of whom are here today, for 
their absolutely outstanding work. These are truly dedicated 
professionals, with whom I have worked closely, and I just 
wanted to acknowledge them.
    Since it was instituted as a demonstration program, the 
Recreation Fee program has provided an immediate and flexible 
source of funding fundamental to providing outstanding visitor 
opportunities on public lands. Fees have been charged at many 
parks throughout their history, but the difference is that that 
fee money went directly to the Federal Treasury. Fee revenues 
now stay in our parks, on our refuges, and at our other public 
lands.
    The vast majority of public lands remain free to the public 
with no entrance or standard amenity fees. Specifically, there 
are no charges at 99.5 percent of Bureau of Land Management 
lands, 78 percent of Fish and Wildlife Service sites, and 62 
percent of National Park Service sites, and there are no fees 
anywhere for children under the age of 16.
    Since Congress established it as a demonstration program in 
1996, you heard Congressman Regula note that approximately $2 
billion has been collected by participating agencies. These 
revenues have funded over 10,000 projects that improve on-the-
ground facilities, conserve natural resources, enhance 
recreation opportunities, and expand educational opportunities.
    Fees have been used for a wide variety of improvements. For 
example, at Lake Havasu in Arizona, the Bureau of Land 
Management manages 87 designated campsites along 20 miles of 
shoreline. Most of these sites are over 30 years old. Fee 
revenues have helped us to upgrade and improve them.
    Museum improvements have been undertaken at the DeSoto 
National Wildlife Refuge in Iowa.
    The National Park Service is using fee funds to upgrade all 
audiovisual programs and assembly areas in all parks. 
Orientation films will now be captioned and upgraded with 
assisted-listening devices.
    These improvements will occur over the next two to three 
years for every National Park site. At Cape Romain National 
Wildlife Refuge, a fully accessible fishing pier was added to 
the extremely popular, Buckhall Recreation Area.
    We continue to improve our implementation of the program. A 
study conducted by the University of Idaho for the Bureau of 
Land Management last year found that 80 percent of visitors 
believe fees charged were appropriate. According to another 
comprehensive study completed by Northern Arizona University 
for the National Park Service, there is broad public support 
for reasonable fees on public lands. Current park data show 
over a 90-percent satisfaction rate for the value of interest 
fees paid.
    Under the new act, the public has a voice at the decision-
making table when fees are proposed. The law introduced public 
participation and civic engagement requirements for all 
agencies in the establishment of new fees, modifying fees, and 
designating new fee areas.
    Through the establishment of a single, interagency, 
``America the Beautiful--National Parks and Federal Recreation 
Lands Pass,'' last January 2007, visitors can how travel among 
sites managed by five separate agencies using a single pass. 
Since its introduction, we have sold over one million of these 
passes. We believe that the fee program has a strong record of 
enhancing our ability to serve as effective stewards of our 
magnificent public lands, and I would be happy to answer any 
questions you might have. Thank you very much.
    Mrs. Napolitano. Thank you very much. Thank you, Ms. 
Secretary. Mr. Mark Ray.

 STATEMENT OF MARK REY, UNDER SECRETARY, NATURAL RESOURCES AND 
          ENVIRONMENT, U.S. DEPARTMENT OF AGRICULTURE

    Mr. Rey. Thank you, Madam Chairman. Our experience with the 
fee program is very similar to the Department of the 
Interior's. For instance, in Sabino Canyon, in the Coronado 
National Forest, in Chairman Grijalva's district, funds are 
being used to repair the heavily used picnic areas and visitor 
centers.
    In order to help combat the mountain pine beetle epidemic, 
funds paid for 2,500 pheromone pouches which were distributed 
by volunteers throughout the campgrounds on the Wasatch-Cache 
National Forest in Congressman Bishop's district. Wheelchair-
accessible tables and accessible trails are being built on the 
Coleville National Forest in Congresswoman McMorris's district.
    We are continually working to improve this program. One 
aspect that has received increased scrutiny within the Forest 
Service is the management of areas which receive high 
concentrations of visitor use, termed ``High Impact Recreation 
Areas.'' Examples include the heavily used canyons surrounding 
Los Angeles and San Diego on the Angeles and Cleveland National 
Forests in your district, Madam Chairman, in Southern 
California.
    The revenues from the fees collected allowed the Forest 
Service to provide security, clean restrooms, pick up trash, 
remove litter and graffiti, provide visitor information and 
services, and to increase visitor use in the face of those 
improvements, with those fees being charged.
    Without responsible management, these areas would be 
degraded by excessive traffic and trash. Nevertheless, we are 
continuing to assess these operations, from the visitor's 
perspective, in order to ensure that the public is not paying 
fees where appropriate services are not present.
    Retention of fee authority is paramount to our ability to 
maintain and manage our Federal lands and effectively address 
the deferred-maintenance backlog on our National Forests and 
other Federal lands. As visitor demand increases, these efforts 
require a reliable and ready source of funding that allows us 
to respond quickly. Recreation fee revenues are a critical 
source of such supplemental funding.
    Visitors to our Federal lands are telling us they 
understand that they benefit directly from the recreation fees 
program and are supportive. Deputy Secretary Scarlett gave you 
some of the survey data to that end.
    Under the legislation, the public has a voice at the 
decision-making table when fees are proposed. For example, 
there is the engagement of the Forest Service and the Bureau of 
Land Management Advisory Committees, collectively known as 
``Recreation Resource Advisory Committees.''
    These committees are composed of a diverse group of 
stakeholders who represent a wide range of interests, including 
recreation, environmental tourism, and tribal and local 
government interests. They are a forum for the public to work 
with the Forest Service and BLM to review and provide feedback 
on agency proposals to establish new recreation fees and make 
changes to existing fees.
    These committees are a model of productive partnerships. As 
partners in the process, these committees are examining each 
agency proposal thoroughly, offering input, and helping to 
ensure the agencies carefully consider public concerns, issues, 
and questions when developing fee proposals.
    Further promoting increased public engagement, the act 
provides opportunities for local entities to partner with 
Federal agencies to develop and manage projects. At the South 
Fork of the Snake River in Idaho, in Congressman Sali's 
district--I understand he will be here shortly--an interagency 
working group was formed with local, state, and Federal 
representatives to develop a fee for 10 sites spread along a 
62-mile stretch of the river, and that effort has proceeded 
successfully.
    Madam Chairman, we welcome your oversight of this program. 
It is overdue and something that involves a dialogue that is 
beginning and should continue.
    I would like to respond directly to three concerns that I 
heard among your opening statements, first, that these areas 
used to be free, historically, and now fees are being charged.
    The Park Service first started charge fees in 1908 at Mount 
Rainier National Park, eight years before there was a Park 
Service. Those fees were authorized in the Roosevelt 
administration. The Forest Service charged campground fees, 
beginning in 1949, in the Truman administration. The Bureau of 
Land Management has had authority to charge recreation fees on 
public lands since 1965, in the Johnson administration, and we 
have been operating variations of this program since 1996, when 
Congressman Regula started the Rec. Fee Demo program.
    Today, the average daily use fee, the average overnight 
camping fee, and the average annual pass are lower for the 
Federal agencies than for most of the state park systems in the 
states that you represent, particularly the Arizona State Park 
System.
    The second concern I heard is the broad public rejects 
these fees. As you heard from the survey research provided by 
Secretary Scarlett, the majority of the public, a supermajority 
of the public, supports these fees as long as they can see the 
benefits that the fees generate on the ground, on the sites 
they use.
    It is unfortunate that, after 12 years, there is still 
controversy over this. But I have also looked at survey 
research involving the Panama Canal. Today, 30 years after the 
transfer of the Panama Canal, more people still oppose that 
than oppose recreation fees on the National Forests. I dare 
say, you are going to hear from some of that majority in the 
testimony today.
    The third concern I heard was that there was no public 
debate, no congressional debate, before this was enacted. True, 
this legislation was enacted as an appropriations rider. It is 
also true that the Forest Service's Organic Statute was part of 
an appropriations rider in 1897. Without that rider, we would 
not have National Forests to be arguing over today.
    The fact is, though, from 1996 to present, there were 
numerous congressional hearings and almost annual floor debates 
in the House of Representatives, led by Congressman DeFazio, 
debating whether there should be a fee program. So this issue 
has not been sort of snuck out there without a lot of 
congressional involvement, and I welcome the continued 
involvement represented by this hearing today. Thank you.
    [The joint prepared statement of Ms. Scarlett and Mr. Rey 
follows:]

Joint Statement of P. Lynn Scarlett, Deputy Secretary, U.S. Department 
 of the Interior, and Mark Rey, Under Secretary for Natural Resources 
            and Environment, U.S. Department of Agriculture

    Chairman Grijalva, Chairwoman Napolitano and Members of the 
subcommittees, thank you for inviting the Department of the Interior 
(DOI) and the U.S. Department of Agriculture (USDA) to appear before 
you today to discuss the Federal Lands Recreation Enhancement Act 
(FLREA). Through our collective mission, we provide the American public 
and visitors from around the world with outstanding recreational 
opportunities on our federal lands. Since the enactment of FLREA in 
2004, we have made tremendous progress in accomplishing this goal. 
While we acknowledge ongoing challenges associated with implementing 
this program, we continue to address these concerns as we move to fully 
implement the statute.
    We are continuously striving to enhance the experience of visitors 
to our federal lands by maintaining high-quality recreation facilities 
and programs. To achieve this, we rely on four principle sources of 
support: 1) appropriated funding, 2) recreation fees authorized under 
FLREA, 3) private businesses and 4) partnerships and volunteers. Since 
it was instituted as a demonstration program, the Recreation Fee 
Program has provided an immediate and flexible source of funding that 
is and has been a fundamental component of this sustainable funding 
model. In fact, FLREA funds can have a positive impact on the other 
sources of funding, such as providing the federal money necessary to 
leverage partnership dollars and facilitating volunteer work that 
results in on-the-ground benefits Even with the fee program in place, 
fees are only charged where amenities or services go beyond what is 
normally expected on non-fee federal lands. Moreover, the vast majority 
of federal lands remain free to the public with no entrance or standard 
amenity fees. Specifically, the locations that remain accessible to the 
public at no charge include:
    <bullet>  99.5% of Bureau of Land Management (BLM) lands
    <bullet>  78% of U.S. Fish and Wildlife Service (FWS) sites
    <bullet>  62% of National Park Service (NPS) sites
    <bullet>  98% of USDA Forest Service lands; 65% of USDA Forest 
Service developed sites
    Every year, over 400 million Americans and visitors from around the 
world visit our national parks, national forests, wildlife refuges and 
BLM-managed public lands to hike, bike, fish, camp and otherwise enjoy 
the abundant recreation opportunities offered on our federal lands.
    Since Congress established it as a demonstration program in 1996, 
the Recreation Fee Program has helped us to enhance the experience of 
visitors to our federal lands. Approximately $2 billion has been 
collected by participating agencies since 1996. These dollars are 
translating into tangible improvements in visitor services and 
infrastructure. They include: visitor center rehabilitation, restroom 
upgrades, road and trail repairs, campground improvements, historic 
structure enhancements, education and visitor interpretation programs, 
Americans with Disabilities Act (ADA) improvements and technology 
upgrades to improve customer services and implement state of the art 
reservation and trip planning services for visitors. Over the years, 
fee revenue has made possible over 10,000 projects to improve on-the-
ground facilities, conserve natural resources, enhance recreation, 
expand educational opportunities and preserve our heritage.
    Fees have been used for a wide variety of improvements. In Lake 
Havasu, Arizona, BLM manages 87 designated camp sites along 20 miles of 
shoreline. Most of these sites are over 30 years old and, until 
recently, had been poorly maintained. With the contribution of FLREA 
funds, old restrooms at all sites were removed and reconstructed; a 
free-use, two-lane watercraft launch ramp was added with new parking 
areas, fishing piers and picnic areas for visitors to enjoy. Additional 
new amenities include: cooking grills, picnic tables, shade awnings, 
and litter and trash pickup services. Lake Havasu has since become a 
very popular lake destination. Surveys and public contacts tell us 
visitors appreciate the significant improvements made to these sites 
and recognize that the fees they pay are being reinvested into the 
sites and facilities they use.
    Fee funds are being used to rehabilitate visitor centers and for 
creating new exhibits at Yellowstone, Carlsbad and Mammoth Cave 
National Parks. In Sabino Canyon, on the Coronado National Forest, 
funds are being used to repair the heavily used picnic areas and 
visitor center. In order to help combat the mountain pine beetle 
epidemic, funds paid for 2500 pheromone pouches which were distributed 
by volunteers throughout campgrounds on the Wasatch-Cache National 
Forest. Wheelchair accessible tables and accessible trails are being 
built on the Coleville National Forest. Museum improvements at DeSoto 
National Wildlife Refuge in Iowa are being supported by recreation 
fees.
    The National Park Service is using fee funds for a service wide 
initiative to upgrade all audio visual programs and assembly areas. 
Auditoriums will be retrofitted to comply with ADA standards. 
Orientation films will be captioned with assistive listening devices 
provided. These improvements will be made over the next two to three 
yeas for all NPS sites. At Cape Romain National Wildlife Refuge a fully 
accessible fishing pier was added to the extremely popular Buckhall 
Recreation Area. The 94 foot pier now allows all visitors to fish and 
crab while enjoying views from the refuge.
    We are continually working to improve our program. One aspect that 
has received increased scrutiny within the Forest Service is management 
of areas which receive high concentrations of visitors, termed High 
Impact Recreation Areas (HIRAs). Examples include the heavily used 
canyons surrounding Los Angeles and San Diego on the Angeles and 
Cleveland National Forests in Southern California. The revenues from 
the fees allow the Forest Service to provide security, clean restrooms, 
pick up trash, remove litter and graffiti, and provide visitor 
information and other services. Without responsible management, these 
areas would be degraded by excessive traffic and trash. Nevertheless, 
we are continuing to assess these operations from the visitors' 
perspective in order to ensure that the public is not paying fees where 
appropriate services are not present.
    NPS has set aside $4 million of fee funds per year to fund the 
Public Land Corp Program since 1998. This program brings students and 
inner city youth to the parks to work on a variety of trail and natural 
habitat restoration projects. At the Indiana Dunes National Lakeshore 
students participating in this program have helped preserve the Karner 
Blue Butterfly habitat and restore the Mnoke Prairie and Great Marsh. 
Their work has included: propagation of native plants, construction of 
a park greenhouse, and construction of water retention structures. A 
trail project at Sitka National Historical Park will provide employment 
and education opportunities for Alaskan native youth and benefit park 
visitors, heritage resources and the local tribal government. The 
project will act as a catalyst for future related partnership 
agreements between the Tribe and the park, benefitting both entities.
    Retention of fee authority is paramount to our ability to maintain 
and manage our federal lands and effectively address the deferred 
maintenance backlog at our National Parks, Forests and other federal 
lands. As visitor demand increases these efforts require a reliable and 
ready source of funding that allows us to respond quickly. Recreation 
fee revenues are a critical source of such supplemental funding.
    Visitors to our federal lands are telling us that they understand 
that they benefit directly from the recreation fee program and are 
supportive. A study conducted by the University of Idaho for BLM in 
2007 found that 80% of visitors believed that the fees charged were 
appropriate. Additionally, 84% of visitors surveyed in this study 
agreed or strongly agreed that the value of the recreation opportunity 
was at least equal to the fee charged. Survey data collected by the 
Forest Service in 2006 show that 83% of visitors were satisfied with 
the value received for the amount paid. According to a comprehensive 
study completed by Northern Arizona University for the National Park 
Service in 2000, there is broad public support for reasonable fees on 
public lands. Current NPS annual survey data show over a 90% 
satisfaction rate for the value of entrance fee paid.
    Visitors consistently comment that they are willing to pay 
reasonable recreation fees if they know the money will be used to 
improve the site they are visiting. The FLREA program provides that 80-
100% of the fee revenue generated remains at the site where it was 
collected for maintenance and improvements. People living in New Jersey 
are not being asked to maintain boat ramps in Arizona that they may 
never visit.
    Under FLREA, the public has a voice at the decision making table 
when fees are proposed. The law introduced public participation and 
civic engagement requirements for all agencies in the establishment of 
new fees, modifying fees and designating new fee areas.
    In addition to site specific public involvement, there is the 
engagement of Forest Service and BLM advisory committees, collectively 
known as Recreation Resource Advisory Committees (R/RACs). R/RACs are 
composed of a diverse group of stakeholders who represent a wide range 
of interests, including recreation, environmental, tourism, and tribal 
and local government interests. They are a forum for the public to work 
with the Forest Service and BLM to review and provide feedback on 
agency proposals to establish new recreation fees or make changes to 
existing fees. These committees are a model of productive partnerships.
    As partners in the process, R/RACS are examining each agency fee 
proposal thoroughly, offering input, and helping to ensure the agencies 
carefully consider public concerns, issues and questions when 
developing proposals. To date, Forest Service and BLM agency officials 
have presented to the R/RACs some 410 fee proposals--representing about 
6% of the 6,300 total fee sites of the two agencies. More than two-
thirds of these proposals have been for modest fee increases at 
campgrounds managed by the two agencies.
    The committees are providing a critical public perspective to the 
Forest Service and BLM. Their value extends beyond specific fee 
proposal analysis to a broader understanding of economic, social and 
environmental concerns. A site-specific fee proposal cannot be 
understood without this broader context, which leads to valuable 
discussions on the role of national public lands and the challenges 
encountered in providing outdoor recreation opportunities now and into 
the future. As a result of these deliberative processes, the fee 
proposals have ultimately received positive recommendations from the R/
RACs with nine receiving recommendations for slight modifications.
    The NPS, FWS and BOR also have developed extensive public 
involvement and civic engagement requirements as mandated by FLREA. 
Each agency has specific requirements for conducting outreach to the 
public, key constituency groups, local government and civic 
organizations and Congressional representatives. This information is 
then used to either validate a proposed change or modified fee or to 
receive feedback that recommends against it. Once the vetting process 
is complete, new fees and rate changes must be approved at multiple 
levels of the agency to ensure that fees are reasonable and made 
according to agency policy. This public participation process is 
working. The NPS, for example, has been able to use public input to 
increase fees or keep fee rates at current levels. The NPS has ceased 
collecting fees at approximately fives sites since FLREA was enacted.
    Participating agencies make every effort to ensure that fees do not 
become a barrier for potential visitors. Children under the age of 16 
are exempt from paying entrance and/or standard amenity fees and fee 
waivers are available for educational groups. Annual interagency and 
area specific passes offer frequent visitors an economical way to visit 
federal lands. Lifetime passes are available to seniors and to U.S. 
citizens who are permanent residents with permanent disabilities. These 
passes also provide the additional benefit of discounted camping.
    Further promoting increased public engagement, the FLREA program 
provides opportunities for local entities to partner with federal 
agencies to develop and manage projects. At the South Fork of the Snake 
River in Idaho, an interagency working group was formed with local, 
state and federal representatives to develop a fee for 10 sites spread 
along a 62 mile stretch of the River. Regardless of where fees are 
collected, the working group decides together where the money will be 
spent within the corridor to benefit their shared visitors. This 
effective partnership gives local stakeholders a voice in the 
development and management of federal recreation facilities.
    One other ongoing effort by the Forest Service is the Recreation 
Facility Analysis Program. Under this program and with public 
participation, each National Forest is undertaking a comprehensive 
analysis of its facilities and the resources required to manage them.
    To date, these analyses have identified many sites for improvement 
as well as a small percentage of lesser used facilities for possible 
decommissioning or reductions of service. Recreation Facility Analysis 
identifies options for management including, but not limited to fees. 
This process has greatly improved the ability of the agency to 
prioritize projects based on the needs of our visitors.
    The FLREA program has contributed to seamless government and in 
turn, enhanced visitor service and satisfaction. Through the 
establishment of a single interagency ``America the Beautiful--National 
Parks and Federal Recreational Lands Pass'' in January 2007, 
vacationing families can now travel between sites managed by five 
separate agencies using a single pass. Since the introduction of the 
interagency pass program, over 1 million passes have been issued to the 
public affording millions of visitors, their family and friends an 
economical way to see and experience America's public lands.
    A sightseer in Utah and Nevada can view the majestic rock 
formations of Bryce and Zion National Parks, explore Flaming Gorge 
National Recreation Area on the Ashley National Forest and hike through 
the BLM-managed Red Rock Canyon National Conservation Area using a 
single pass. As access to most public lands remains free, the pass 
applies to those locations that currently have entrance or standard 
amenity fees.
    The program is managed by NPS on behalf of the other participating 
agencies. It includes four types of passes: Annual, Senior, Access and 
Volunteer. The new passes cover all entrance and standard amenity fees 
for the pass holder and three accompanying adults at per person entry 
sites or all occupants in a personal vehicle at vehicle entry units. 
This represents a particularly cost-effective opportunity for families 
traveling to federal recreation sites. The $80 Annual Pass is available 
to everyone and provides unlimited access to Federal recreation sites 
that charge entrance or standard amenity fees. The comparable pass 
offered by Parks Canada is about $140. The $10 Senior Pass is available 
to U.S. residents who are 62 years old and older and the Access Pass is 
available free of charge to U.S. residents with permanent disabilities. 
Both are lifetime passes and offer the pass holder additional discounts 
for some expanded amenity fees, such as camping. As a ``thank you'' to 
the volunteers who contribute thousands of hours to help take care of 
our public lands, FLREA authorized the creation of a free version of 
the Annual Pass available to volunteers who dedicate 500 or more 
service hours to improving their public lands. Interagency annual 
passes are now available through the internet, a toll free phone number 
and select third party partners. The image for the annual passes 
changes every year and is picked from winning entries from the ``Share 
the Experience'' official Federal Lands Photo Contest.
    The FLREA program has also been used to help meet the public's 
demand for ``one-stop-shopping'' as they set out to explore and 
experience America's public lands. In February, 2007, the E-Government 
initiative, Recreation One-Stop, which includes the National Recreation 
Reservation Service, launched its new RECREATION.gov website. The site 
offers the public the convenience of making reservations for more than 
2,500 Federal campgrounds, day use areas, cabins and tour information 
facilities directly through the site or one toll-free number. 
RECREATION.gov also provides visitors with instant, one-stop access to 
maps, recreation activities, and other useful federal lands 
information.
    Our Departments have a shared responsibility to ensure that federal 
lands continue to play a central role in providing recreational 
opportunities for the American people and visitors alike. Fulfilling 
this mission requires that we maintain visitor facilities and services, 
preserve natural and historic resources, and enhance visitor 
opportunities with an adequate and steady source of funding. We 
continue to strive to keep fees reasonable and to use the money 
collected to directly benefit visitor experience. The Recreation Fee 
Program has demonstrated a clear record of success as we strive to 
accomplish our mission. Recreation fee authority has been a vital 
component of our Departments' ability to serve as effective stewards of 
the public lands we treasure. We would be happy to answer any 
questions.
                                 ______
                                 
    Mrs. Napolitano. Thank you for your testimony. I am sure 
our Chairman was not specifically talking about some of the 
agencies. I think he was more concerned with the Forest 
Service.
    I would like to allow Mr. DeFazio to have an opening 
statement. I believe he does have some comments.
    Mr. DeFazio. Thank you, Madam Chair. I am sorry that I was 
late. I will be in and out. I have other obligations at the 
moment. I appreciate Secretary Rey raising concerns I have had 
about this program.
    It was never considered by, nor authorized through, this 
Committee, and I did engage in numerous floor debates. I will 
admit that the program is better than when it started. When it 
started in Oregon, there were some forest and forest recreation 
areas within forests which required three different passes, and 
to go just throughout the Northwest, you could need as many as 
12 different passes.
    So it has been somewhat rationalized, and they have also 
now limited it, to some extent, where the fee is required. It 
is no longer charging people just to park by the side of a 
road, in most cases, in the forest, and recreate or hunt, but 
more developed areas. I still have concerns about where and how 
it is applied.
    Now, I have a particular concern, which I hope we can get 
to in questions, on the accounting, this money: where it is 
going, how it is being spent, how it is collected, and how it 
is distributed. I keep asking my people in the region, ``Gee, I 
live in Eugene or Springfield. I go to the Malamute, I buy my 
pass, but I recreate on the Deschutes.'' The Deschutes does not 
get any of the money, as far as I know. So that is one 
question. They say, ``We are working on that.'' Well, I have 
never heard any progress on that.
    I would assume that most of the passes in Oregon are bought 
in the urban areas, in Portland or in the Eugene-Springfield 
area, but people recreate on a vast number of other areas. How 
could those forests share?
    But then, beyond that, I understand that, despite the 
initial assertions that most of this money would go back to the 
local forests and be spent on the local forests, it is not; it 
is disappearing into the mud of the bureaucracy. So I would 
also like to see, and have asked for and have not received, any 
substantial accounting there.
    So those are a few of the questions I will be asking later. 
Thank you, Madam Chair.
    Mrs. Napolitano. Thank you, Mr. DeFazio.
    I would like to ask Mr. Inslee if he has an opening 
statement.
    Mr. Inslee. [Off mike.]
    Mrs. Napolitano. You will warm up a little. Fine. Thank 
you.
    Mrs. Capps, do you have a statement or a comment?
    Mrs. Capps. [Off mike.]
    Mrs. Napolitano. OK. Fine. Thank you very much.
    I will start off with some of the questions that had been 
proposed by the Chairman.
    To both Ms. Scarlett and Mr. Rey, before the implementation 
of the FLREA, the agencies had eight years' experience, 
collecting fees under the Fee Demo program. What are two or 
three of the most important lessons that the agencies learned 
from the fee demo?
    Ms. Scarlett. Thank you very much. Let me respond, and then 
Marc will also.
    One of the key lessons learned was that people really 
objected if fees were charged where there were no special 
amenities or special, extra recreational services or facilities 
provided. So, in the Federal Lands Recreation Enhancement Act, 
one of the requirements is that fees be charged only where 
there are, for example, developed parking sites, restroom 
facilities, other provisions for those visitors.
    As a consequence of that, we inventoried all of our sites 
and actually removed some from the fee program. I know that the 
Forest Service removed a great deal more.
    A second issue that was raised was concern about public 
participation when there were any proposed new fee sites and/or 
increases in fees, and, again, the act included provisions to 
require enhanced public participation. We have created a series 
of Recreation Advisory Councils with a recreation component to 
them, and so now new fee sites and new fee levels are all 
discussed through those public engagement processes.
    Our Park Service and our Wildlife Refuge System also have 
even additional layers of public participation, so those would 
be two of the things I would mention.
    Mr. Rey. I could add to a couple that we learned. We 
reduced the fee sites by about 437 sites from the demo program 
because they did not offer sufficient, developed recreation 
opportunities that a fee was justified.
    We also deleted any fees that we thought could be construed 
as entrance fees for the National Forests because it was clear 
to us, in the discussion that led to into the passage of the 
permanent legislation, that that was an anathema to many 
people. Secretary Scarlett mentioned the Recreation Resource 
Advisory Committees.
    I think the fourth thing we learned, in the development of 
the Unified National Pass, is the situation that Congressman 
DeFazio described was also anathema to the public and needed to 
be corrected and that we could not be charging people fees 
going from one site to another in what appeared to be an 
arbitrary fashion.
    Mrs. Napolitano. Thank you. Actually, I would like to go 
back to the first explanation to the three items that you 
picked up on, and, just for clarification, we were in the Grand 
Canyon back in the sixties, and there were not any fees that I 
can remember. When my family was there, we are looking at 
probably more like almost 50 years ago. That is how far back I 
was talking about, not current, not in the nineties or the 
eighties, even.
    But, at any rate, thank you very much for your testimony. I 
would like to ask one more question.
    One of the goals of the REA was to provide fee collection 
predictability across jurisdictions so that visitors would know 
when and for what activities a fee would be required, where to 
pay it, and how much it would cost. If I were to visit 
campgrounds or boat launches in the same amenities managed by 
the Forest Service, the Park Service, and the BLM, would I pay 
the same to camp or launch or a boat at each one?
    Ms. Scarlett. Since the passage of the act, we have 
significantly simplified our fee structure. Prior to the act, 
the Park Service, for example, had many, many fees at the 
different park units, and they varied all over the map in terms 
of what the fee was paid for the particular kind of activity. 
We now have four different categories of park types, and we 
have the fees uniform in each of those tiers or park types, 
again, to create some simplicity, as well as some common 
expectations.
    Through the Recreation Advisory Councils and the other 
public-participation processes, we have also strived to bring 
some uniformity so that when you go to a particular location 
for a particular activity, you are paying a fee that is similar 
from one place to another.
    There still is some variation, but it really is pegged to 
the level of facilities and the level of activity that you are 
getting at that particular site.
    Mr. Rey. I think the types of areas for day use and camping 
are very comparable across all agencies. Probably the biggest 
difference is that, for some National Wildlife Refuges and most 
National Parks, you will pay an entrance fee, and you will not 
pay an entrance fee on either the Forest Service or the Bureau 
of Land Management.
    To the extent there are any differences, they are a 
reflection of what the Local Recreation Resource Advisory 
Committee has approved, and you can go on a Web site, 
recreation.gov, which we produced as part of the implementation 
of this program, and see the fees applicable to whatever site 
that you want to visit ahead of time so that you can decide 
whether you want to go there.
    Mrs. Napolitano. Two questions. The LRAC; is it comprised 
of citizens within the area?
    Mr. Rey. Yes, within the geographical area served by their 
committee. The cities are all residents.
    Mrs. Napolitano. When was the site established?
    Mr. Rey. Recreation.gov was established in 2006.
    Mrs. Napolitano. So it is fairly recent.
    Mr. Rey. It is fairly recent.
    Mrs. Napolitano. Thank you. Mr. Bishop?
    Mr. Bishop. Before I ask questions, I would just like to 
ask Mrs. Napolitano, if you were in Grand Canyon 50 years ago, 
how were you able to visit there, before you were born, 
obviously?
    Mrs. Napolitano. You are so very kind, sir. I am going to 
be 72.
    Mr. Bishop. No. Mr. Rey, I am appreciative of finding out 
that the Forest Service was able to charge fees dating back to 
1908.
    Mr. Rey. That was the Park Service.
    Mr. Bishop. The Park Service?
    Mr. Rey. Forty-nine, '48.
    Mr. Bishop. Before they were established.
    Mr. Rey. The Park Service was established in 1916.
    Mr. DeFazio. No, a clarification. The National Park System 
was established in 1916. There are a number of parks, including 
Yellowstone, that actually date back to the 1800s; 1872, I 
believe, was its establishment.
    Mr. Bishop. It is just comforting to know that we are able 
to charge fees by an agency before the agency existed. It seems 
to be a metaphor for government around here, does not it?
    Ms. Scarlett, let me ask you a couple of questions. If the 
fee authority was revoked, what effect would that have on 
recreational opportunities, any kind of certain amenities, 
structures, improvements, stuff that would be provided?
    Ms. Scarlett. I believe the impact would be significant. 
Since we have been charging these fees, we have collected some 
$2 billion in revenues and have spent well over $1 billion of 
those and have undertaken about 10,000 projects. Some specific 
kinds of things that would be, I think, adversely affected 
would be, for example, the creation of new boat launch sites 
and new boat ramp facilities along Bureau of Land Management 
water recreation areas.
    We have recently done some significant upgrades of all of 
our auditoriums and our interpretive efforts in National Parks 
to make them accessible for the visual and hearing impaired, 
and we are doing that throughout every single park in the 
Nation using fees.
    So those are the sorts of things that go kind of above and 
beyond the routine provision of recreation opportunities to 
that extra level of enhanced service.
    Mr. Bishop. Those are two good examples. Mr. Rey, let me 
get you. Under the current system, 80 to 85 percent of the fees 
go back to the forest unit from which they were collected to 
improve recreational activities.
    Senator Baucus has a bill over in the Senate, 2438, ``The 
Fee Repeal and Access Act.'' How would that legislation 
specifically change all of this?
    Mr. Rey. The Forest Service manages 17,000 recreation sites 
with both appropriated and fee dollars. The enactment of 
Senator Baucus's legislation would call into question our 
ability to operate 7,300, or 43 percent, of those sites. It is 
possible we could take about 2,000, or thereabouts, of those 
sites and offer them to concessionaires, who, of course, will 
also charge fees, probably at a higher rate than we are 
presently charging, but about 5,200 of the sites are not sites 
that concessionaires would be willing to take. So, roughly, a 
third of the sites in the National Forests would be called into 
jeopardy.
    Mr. Bishop. I appreciate that. Can I also ask you, Mr. Rey, 
what is the basis for the High Impact Recreation Area concept?
    Mr. Rey. The basis for the High Impact Recreation Area 
concept is that you have a cluster of amenities that are 
offered in a discrete area that has a high level of recreation 
use. The classic examples are the canyons on the Angelos and 
Cleveland National Forests.
    What we have done with this is to basically say, if you are 
using the six amenities that are provided in these areas, and 
that includes picnic facilities, a hardened parking lot, a 
developed parking lot, interpretative signs, trash pickup, 
protection from law enforcement, and bathroom facilities, as 
well as trailheads; if you are using all of that, then that is 
basically the kind of area where we think a fee is justified. 
That is one of the areas where we are still looking at that 
with the Recreation Resource Advisory committees, to solicit 
their input on specific areas because they are not all 
identical.
    What we found, as I said in my prepared statement, in the 
Southern California illustration, is that use of those areas 
has actually gone up now, with a heavy component of Hispanic 
population use, as we have moved in and improved those areas, 
removed the graffiti, made the parking lots hardened so that 
they are not just dirt parking lots but paved, and provided 
better facilities all around.
    Mr. Bishop. Thank you. I have less than 30 seconds to go. 
As Mr. Regula was talking, he was talking about the long 
history of backlog of maintenance and the inability, even as 
one of the dark forces of the appropriations side, of being 
able to come up with the adequate amount of money for those. I 
am assuming that this maintenance-backlog problem has been 
going on for 20, 30, maybe even longer, years.
    Mr. Rey. As far as we are able to discern, within the 
Department of the Interior and the Bureaus that we manage, the 
backlogged maintenance dates back many, many, many decades, 
cumulatively, over time, yes. That is correct.
    Mr. Bishop. My time is up, so let me just make this into a 
rhetorical question.
    It would see that if we have, going back decades, 
maintenance problems and maintenance backlogs, why, for heaven 
sakes, do we keep adding to our inventory right now, when we 
cannot maintain that which we already have?
    It seems as if we are going hog wild, especially recently, 
in trying to expand parks, create new parks, expand 
opportunities, create new opportunities, and, at the same time, 
we cannot maintain what we already have. It would seem that one 
of the wise strategies that we would have is to start 
emphasizing to do what we do well before we start expanding the 
opportunities when we do not have enough money to do what we 
already have, and, as I said, that is a rhetorical question.
    I yield back, obviously. I am over by 44 seconds.
    Mr. Grijalva [presiding]. Thank you, Mr. Bishop.
    Our colleague, Mrs. Capps?
    Mrs. Capps. Thank you, Mr. Chairman. Thank you, both of 
you, for testifying today and, in particular, welcome to my 
constituent. It is always a pleasure to have you here, Lynn 
Scarlett, the Deputy Secretary of the Department of the 
Interior.
    I want to ask Mr. Rey, because of concerns about the 
unlimited fee authority that was given to the agencies under 
the Fee Demo, Congress specified, in FLREA, some very specific 
prohibitions on fees for certain things. Despite these 
increased restrictions on where fees can be charged, there are 
now more fee sites than there were under the Fee Demo. Why is 
that?
    Mr. Rey. There are actually less fee sites now than there 
are under the Fee Demo program. We have removed more than we 
have added in the years since Fee Demo.
    Mrs. Capps. So there are fewer fee sites today.
    Mr. Rey. That is correct.
    Mrs. Capps. Well, according to the GAO, the land-management 
agencies are carrying a balance of almost $300 million in 
unobligated fee revenue. In the Forest Service, 107 units had 
an unobligated balance, and 63 of those, or 58 percent, had 
more than a year's worth of fee revenue in their unobligated 
fund.
    It looks like you are bringing in revenue in excess of your 
actual needs, and yet you are closing sites and reducing 
services, including about 60 percent of Los Padres National 
Forest, part of which is in my district. Why is this?
    Mr. Rey. The word ``unobligated'' is inaccurate. It should 
be ``unexpended.'' Many of these fees are being put to capital 
projects that extend out over a couple of years' time, so the 
money cannot all be spent in one year. So it is unexpended, but 
it is not unobligated. It is attached to specific projects 
where there will be out-year payouts to build capital 
improvements in these sites.
    Mrs. Capps. Don't you expect to increase fees along the way 
as well? Don't you have a pay-as-you-go kind of plan?
    Mr. Rey. Well, we do have a pay as you go. We do not let a 
contract, multiple-year contract, until we have all of the 
money to pay for the completion of the contract.
    Mrs. Capps. I want to follow up. In testimony to the Senate 
in 2005, and I have a copy of your testimony here, you stated 
that ``High Impact Recreation Areas would be submitted to the 
Recreation Resource Advisory Committees once these were 
chartered.''
    Now that the RRACs are chartered and operating, have any 
HIRAs been submitted to them for review, and, if so, what was 
their recommendation?
    Mr. Rey. There have been High Impact Recreation Areas 
submitted to them for their review, and they have, so far, 
approved the ones that have been submitted.
    Mrs. Capps. Are there quite a few of them?
    Mr. Rey. I do not know the exact number, but I can get that 
for the record.
    Mrs. Capps. I think that would be important for us to have 
as follow-up to the record. I would appreciate that.
    Three years ago, you told the Senate you would be 
submitting the HIRAs to the RRACs, so I guess you did not at 
that time.
    Mr. Rey. Well, we had some that were preexisting. Those are 
being submitted to the RRACs as we work on the program. So far, 
all of the ones that have been submitted have been approved. We 
have chosen not to submit a few areas that would probably 
qualify as HIRAs, and those, we have just deleted the fees on.
    Mrs. Capps. Well, I wonder if you are aware of the fact 
that 75 percent of the sites within HIRAs do not have the 
standard six amenities. It seems to me that, with these HIRAs, 
the Forest Service is simply using them to get around the 
letter of the law.
    Mr. Rey. I have heard that statistic, and I think that is 
inaccurate as well, and let me describe why.
    A HIRA is an area of high-impact recreation. It may include 
several sites within that confined area, like a narrow canyon 
in the Cleveland National Forest.
    So all six amenities have to be within the HIRA. They might 
not be at every individual site that occurs within that HIRA.
    Mrs. Capps. Let me ask you, because my time is almost up, 
what would you answer to the constituent--many of my 
constituents who tell me they are in a HIRA, in a high-impact 
area, and that they are being told the bathroom is a mile away?
    Mr. Rey. A mile is probably a fairly standard radius for a 
HIRA. You might have bathroom facilities at one point in a 
canyon where it was possible to build them. Canyons are fairly 
narrow and linear. You might have a picnic facility several 
hundred yards away. You might have a trailhead 50 yards from 
that. But, typically, what we experience is the people come to 
that area to recreate in it as a whole.
    As I indicated in my prepared statement, one of the issues 
that we are putting before the RRACs is to make sure that they 
concur with us that this really is a legitimate HIRA, and, as I 
said just a minute ago, we have pulled fees out of some of 
those that we thought probably were not legitimate because the 
six amenities were too dispersed to really legitimately call a 
single area that people are using, as a whole, for recreation.
    Mrs. Capps. Thank you very much.
    Mr. Grijalva. Mr. Inslee, any questions?
    Mr. Inslee. Thank you. Can you, either of you, give a 
general concept of the rates during the period these permits 
have been in place, the rate or rate increases, as it compares 
to inflation or you budgets? In other words, as a percentage of 
your budgets from Day 1, have they gone up compared to 
inflation? How much have they gone up? Can you give us any 
sense of that, if you look at them sort of overall?
    Mr. Rey. When we set these fees for the Forest Service, it 
is generally done with the Recreation Resource Advisory 
Committees, and it is targeted to local costs, and we also look 
at what other vendors of a similar product, most notably, the 
state parks, are charging.
    What I can tell you is that for day-use fees, for camping 
overnight, and for annual passes, we are typically below the 
state park levels. So, for instance, if you went to your state 
park in Washington, they would charge you a $7-a-day use fee. 
Our average, across the National Forest System, is $5.85, less 
than going to a Washington State park, substantially less than 
taking your family to a movie that day.
    If you were going to camp overnight, the average Forest 
Service overnight fee is $10.50. The average State of 
Washington fee is about $27. So we are substantially below 
that.
    Your annual pass is lower than our annual pass, but then 
our annual pass gets you to all of the National Parks, National 
Forests, National Wildlife Refuges, and BLM facilities 
nationwide. Your Park System annual pass just gets you to the 
Washington State Park System. So we tag it to that.
    Right now, the fees are generating about 13 percent of the 
Forest Service's overall recreation budget, as a proportion of 
the whole.
    Ms. Scarlett. With respect to the Department of the 
Interior lands, many of our fees do not change at all year 
after year and then only periodically get a change. The Park 
Service has recently gone through a reexamination of park fees 
and has made some adjustments there, again, using some of the 
criteria that Marc stated; that is, in the time since they were 
last changed, what has been the cost-of-living increase, and 
various other criteria like that.
    I would be happy to get you that information with the 
precise details, but many of our fees remain stable, and to the 
degree that we put in place changes, we now go through the 
Recreation RACs for review of those proposed fee changes.
    Mr. Inslee. Mr. Rey, let me ask you a general question. The 
forests that I grew up with in the State of Washington are just 
falling apart. They are disaster areas. The beetle kills is 
disastrous, the trails are falling apart, the roads are washed 
out. I have, you know, gotten to enjoy some wonderful areas 
throughout my family's history that are now gone with no, as 
far as I can tell, planning or proposals to replace them due to 
some of the terrible flooding we have had out there.
    What is the answer to this? I mean, it is a disaster out in 
our forest land, from a recreational standpoint. I recognize 
that there has been some amenities work, but the backcountry is 
a disaster, either getting access to it or using it.
    Mr. Rey. Well, I think there are several answers because 
you have identified several problems, but, looking at the one 
that you focused on the most, which is backcountry access, we 
made an express decision not to charge fees for backcountry 
access in this legislation, so that work is going to be done 
primarily by appropriated dollars and by partnerships with 
volunteers.
    We generate a lot of trail-improvement work, particularly 
in your state, because there are clubs that are very active in 
working with us to do trail-improvement work, but a lot of that 
work is done by volunteers or by cost share between 
appropriated dollars and donated dollars.
    I do not think there is a single answer; I think there are 
several answers. Fees, in the appropriate places where people 
can see a return on their fee is one answer. Partnerships with 
nonprofits, maybe increasingly with private entities would be 
another answer, and appropriations are a third.
    Mr. Inslee. Would you generally agree with me that the 
current funding from all sources does not come close to 
retaining some basic structure of our backcountry?
    Mr. Rey. I think the proposition that I would agree with is 
that the backlog of maintenance is one that has been decades in 
the making. That is number one.
    Number two, that backlog is not going to be addressed or 
resolved exclusively through appropriated dollars in this 
budget environment.
    And, number three, together, we are going to have to think 
of as many different ways to address that backlog as possible, 
and part of that includes analyzing what current and future, as 
opposed to past, use is going to be and then designing the 
system so that it is more responsive to current use.
    The answer for some of these facilities that are not used 
very much because population demographics and settlement 
patterns change are probably to closing, but that, I think, is 
going to be a fairly small number, probably less than five 
percent, over time.
    Mr. Inslee. Well, I hope you can use what time you have 
left in this position to identify how to tackle this because it 
is very sad to see these family heirlooms becoming 
inaccessible, and I am not just talking about the trails; I am 
talking about roads as well. When you lose 15 miles of access 
that people have been enjoying for decades, it is a sad thing. 
Thank you.
    Mr. Grijalva. Thank you. Mr. DeFazio?
    Mr. DeFazio. Thank you, Mr. Chairman. I only wish you had 
been Chair back years ago when the Republicans instituted this 
program without going through the proper process and 
authorizing. It has been sort of a work in progress, shall we 
say?
    Secretary Rey, I guess one of my overall concerns is, of 
the $350 million generated on Forest Service lands, I am not 
able to, and perhaps staff just has not asked the right person, 
get a meaningful accounting of a list of all of the forests, 
how much money was collected on that forest, and where that 
money went.
    There is a lot of random testimony that is going to come up 
later which raises disturbing questions on various and sundry 
forests scattered around the western U.S. where individuals who 
are localized enough are tracking fee collection from guides 
and outfitters and others, and the numbers simply just do not 
add up properly, and we know a number of special funds have had 
problems over the years in the Forest Service.
    So is there a place where I can go and track where the 
money was collected and where and how it was spent?
    Mr. Rey. We can track that for you through a database 
called ``INFRA'' to the forest level. Within a forest, we do 
not keep the records of----
    Mr. DeFazio. Right. So if a forest collected X million, you 
can say that this much went back to that forest, and then you 
would have to contact the forest to find out what they spent 
the money on.
    Mr. Rey. Well, I think we have that database, so the person 
who can help you is Martha Catell, who is just over my left 
shoulder. If your staff can get with her, we will do an INFRA 
run for the National Forests in Oregon or whatever other 
National Forests you want to look at.
    Mr. DeFazio. OK. I probably just would start with Oregon 
just because I am more familiar with it, and then, if I get 
some level of confidence out of that.
    How about the issue I raised about people purchasing passes 
in our major urban areas where there is an outlet, either 
private or public, Forest Service, but principally recreating 
somewhere else? Where do those revenues flow, just back to, 
say, in my case, the Willamette Forest, where the fee was 
purchased?
    Mr. Rey. If the point of purchase is a National Forest 
unit, as opposed to a private partner, then the money goes back 
to the National Forest where you purchased it.
    Mr. DeFazio. OK. Again, if you raise issues of equity, I 
would say that, in the case of the Willamette, you may find a 
large number of people recreating other than on the Willamette 
purchasing passes there. I would suggest that, years ago, maybe 
you would just indicate what forest, if you want to, that you 
would use that on.
    Second, how about a private vendor, then? How do those get 
disbursed?
    Mr. Rey. If they are not associated with a specific 
National Forest, then they are allocated within the region, and 
I think the Park Service does their distribution a little 
differently.
    Ms. Scarlett. Congressman, if 80 percent of the funds 
gathered at a particular site go to that site, then there is 20 
percent that we, through a central process, allocate to those 
locations that might either not have fees and/or not have the 
visitation level to generate the funds to invest in some of the 
facilities' needs. So we have a mechanism to distribute some of 
those, for fairness purpose, across the system.
    For those passes that are sold centrally, whether it is by 
a private vendor or in a central location, we have actually a 
working group, a team, and they set the criteria for the 
allocation of those revenues across the Park System, the 
wildlife refuges, the Bureau of Land Management, and, again, 
with criteria that are pegged to need and related kinds of 
criteria.
    Mr. DeFazio. What is the overall administrative burden on 
the fees you collect?
    Ms. Scarlett. By law, we are required to keep that 
administrative overhead at 15 percent or less. For the Bureau 
of Land Management, it is actually about 10 percent, so they 
are actually under the requirement, and then, for the rest of 
our services, it is under that 15 percent overhead.
    Mr. DeFazio. OK. How about the Forest Service, Secretary 
Rey?
    Mr. Rey. Ours is just under 15.
    Mr. DeFazio. OK. All right. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you, and please excuse my absence for a 
while.
    If I may, Mr. Secretary, two quick questions, and then we 
can move on to the next panel, unless there are other questions 
by Members.
    There is anecdotal evidence that the Forest Service does, 
in fact, charge fees that look very, very much like entrance 
fees at some of the sites. The picture on the monitor appears 
to be one of those sites. What assurance can you give the 
Committee that there is compliance with the prohibition of 
entrance fees, given this kind of anecdotal evidence?
    Mr. Rey. Well, I am always careful when I look at a picture 
because sometimes the picture does not provide a thousand 
words. All I see is that there is a sign that says, ``Fee due 
on entry.'' I do not have a picture of what is being entered. 
For all I know, Mr. Chairman, that could be a campground.
    But let us assume it is not a campground. Let us assume it 
is one of the High Impact Recreation Areas, which is the kind 
of area that we have talked about in our testimony for the 
record and that Congresswoman Capps and I spoke about just 
before you came in.
    A High Impact Recreation Area is an area where recreation 
is concentrated, and, within that area, all six of the 
necessary amenities that we think are required to justify a fee 
exist. That is a picnic facility, a hardened parking lot, 
interpretive signs or activities, trash pickup, law enforcement 
protection, and bathroom facilities.
    If you were entering into one of those areas and using it--
having a picnic, going to the bathroom, accessing a trailhead 
from that area--that is one of the areas where we charge fees. 
Now, what we have also said----
    Mr. Grijalva. Let me just, if I may----
    Mr. Rey. Sure.
    Mr. Grijalva. Under what authority, though, can we create 
and continue to manage these HIRAs that you are talking about, 
high-impact areas?
    Mr. Rey. That would be under the authority to charge basic 
amenity fees, and the HIRAs are being submitted to the 
Recreation RACs.
    In the dialogue we had with Congresswoman Napolitano and 
Congresswoman Capps, we talked about the HIRAs in the four 
National Forests in Southern California. Those, I am now told, 
have all been submitted to the Recreation RACs and have been 
approved by the Recreation RACs, and all of our other HIRAs 
will go through that process, except for the ones, as I 
indicated earlier, that we have decided we do not think meet 
the definition and for which we have eliminated the fees that 
were charged during the Fee Demo program, and there are 437 of 
those where fees have been eliminated.
    Mr. Grijalva. OK. I think, just for the purpose of 
identification, I think that it is the Prescott National Forest 
in Arizona at the entry point.
    I understand that, finally, this year, the Forest Service 
will be coming out with some new policy recommendations on 
HIRAs. It has taken what, about three years, to get to that 
point? The question of compliance with REA; the outcome of 
these three years of waiting is to address that problem of 
compliance or----
    Mr. Rey. It is our view that HIRAs are compliant with 
FLREA. The word ``area'' appears in the legislation. We have 
not been sitting around for three years. We have been 
evaluating these sites, which were created under the Fee Demo 
program, eliminating some of them from fees, 437, to be 
precise; putting others in front of the Recreation Resource 
Advisory Committees, and securing their approval with those, 
and many of them have been approved, particularly in Southern 
California, where, on those four National Forests, they have 
actually resulted in an increase in recreation use.
    Mr. Grijalva. One final point or question: Also the Forest 
Service is undertaking the Recreational Facility Analysis, I 
believe----
    Mr. Rey. That is right.
    Mr. Grijalva.--that is a prelude to closing recreational 
sites. Could you tell the Committee, how many of the sites that 
will be closed do you expect to be fee sites, and, for the 
nonfee-site study for closure, how many, would you say, are 
being closed because a fee cannot be charged?
    Mr. Rey. I do not think any of them are being closed 
because a fee cannot be charged. The ones that are being closed 
are being closed because they are no longer enjoying a high 
level of public use. Let me step back.
    The Recreation Facility Analysis is not a fee-charging 
exercise. It is an exercise of looking forward into the future, 
anticipating, with the public, what future recreation trends 
are going to be, as compared to past recreation trends, and 
deciding, based on projected future use, which sites need to be 
expanded, where sites need to be added, and where sites, 
because of a lack of use, perhaps should be closed. That is a 
public process on each National Forest where the public is 
involved in making those determinations.
    Now, in the states that all three of you represent, the 
population is growing, and so recreation use is growing, but 
there are other states--we have two National Forests in the 
Upper Peninsula of Michigan, other National Forests in states 
where population is shrinking--in which sites that were popular 
20 years ago are enjoying very little use, and what we are 
trying to evaluate is, does it make sense to keep those sites, 
or does the lack of use, in part, caused by a reduction in 
population, make it more sensible to start concentrating use in 
more popular sites?
    Mr. Grijalva. Thank you. If I may, Secretary Scarlett, two 
questions.
    One is having to do with the Grand Canyon, and I think the 
inherent, flawed fee structure, and let me give you an example. 
A whole group in a car, when you go in there, you pay 25 bucks 
to get in. If you walk in individually, the same group, it is 
$12 a person. So you are talking a difference of between 25 and 
48 dollars.
    There is a real effort around the Grand Canyon to deal with 
air pollution, noise pollution, and congestion. How do you 
reconcile the fact that you have this contradictory policy, and 
not only contradictory in the intent of reducing some of the 
negative effects around the canyon, but also the contradiction 
in terms of cost?
    Ms. Scarlett. Congressman, I was not aware of that 
particular fee structure at the Grand Canyon and will have to 
look at what its justification is. I know, park-wide, in many 
locations, while you pay a fee to enter in your vehicle, you do 
not pay a fee if you enter, for example, on foot or on a 
bicycle. So why, at the Grand Canyon, there is that particular 
structure, I would have to get back to you with that answer.
    Mr. Grijalva. And I think one just to submit for the 
record, the Department of the Interior has been collecting fees 
for 11 years to remedy the deferred-maintenance issues that are 
on Department of the Interior lands. How much has been used to 
build new facilities that now also have to be maintained, and 
how much has been used to build new facilities that now also 
have to be maintained, and how much have been used for the 
upkeep and the general maintenance of existing facilities? Is 
that something that you could provide to the Committee in 
writing?
    Ms. Scarlett. Yes. We can certainly do that. I will tell 
you that, to address the maintenance backlog, we actually have 
several sources of funds. We have actually expended well over 
$5 billion since 2001, in appropriated dollars, to address 
maintenance issues, and a lot of that, or, at least, some of 
that, is new construction, and then, in addition to that, 
upwards of $2 billion through fee monies. Not quite $2 billion, 
but we can give you the breakdown on new versus ongoing.
    Mr. Grijalva. And, in your response, to look into the 
situation, the dual fee structure at Grand Canyon, that applies 
to Yellowstone as well and Yosemite.
    Ms. Scarlett. OK. I will get that information for you.
    Mr. Grijalva. Thank you. Mr. Bishop?
    Mr. Bishop. I just have a couple of quick questions, Mr. 
Rey.
    First of all, in the picture up there, that looks like it 
is a campground with amenities in the background. I am assuming 
that is a campground. Would that be something where voluntary 
payments would be made? There would not be a ranger or somebody 
there, staff, collecting the fee, but there would be a place 
for voluntary payments to be made.
    Mr. Rey. Well, we would not call them ``voluntary,'' but 
they would be self-honor system. Right.
    Mr. Bishop. Your efforts to try and evaluate the use of 
parks based on the number or use of forest areas, whatever your 
areas, based on the volume of usage; we have 30 Members on this 
Committee. There are three who are here. Could we be closed 
down for lack of usage?
    Mr. Rey. No.
    Mr. Bishop. That is the wrong answer. That was the wrong 
answer, sir. All right.
    Mr. Rey. Sorry.
    Mr. Bishop. Let me do one last one and see if you get this 
one right.
    Mr. Rey, do you have any information on new fee schedules 
for different--between the states, for example, and maybe how 
the Forest Service schedule compares to the National Park 
schedule, if I made that question clear?
    Mr. Rey. Sure. We can get you the comparison of schedules 
among the different units, and what we will do is work with 
your staff, and maybe you could just access it through the 
reservation system, recreation.gov.
    Mr. Bishop. If we could get that on the record, it would be 
helpful, I think. I yield back.
    Mr. Grijalva. Any additional questions, Mrs. Capps?
    Mrs. Capps. No, Mr. Chairman.
    Mr. Grijalva. Well, let me thank our witnesses. We are 
honored to have the Deputy Secretary and Under Secretary with 
us today. Thank you for your testimony. We very much appreciate 
it. Thank you.
    Mr. Rey. One thing I said when you were voting, Mr. 
Chairman, is we welcome this oversight, and we hope that it 
will be the beginning of a continuing dialogue on this program. 
I know you are hearing from people who oppose it. As I said, 
after 10 years, we would hope that that would be less, but, as 
I also said, looking at the survey research, the vast majority 
of American people support this program, as long as they can 
see the benefits.
    And I have also looked at survey research on the Panama 
Canal, and, after 30 years, there are more people who oppose 
giving the Panama Canal to the Panamanians than oppose the rec. 
fee program.
    Mr. Grijalva. Thank you, and, with that insight, we will 
call the next panel up. Thank you.
    [Pause.]
    Mr. Grijalva. The next panel, please?
    [Pause.]
    Mr. Grijalva. Thank you very much. We welcome all of you. 
Five minutes of oral testimony, and your full statements will 
be made part of the record in their entirety, and any other 
extraneous material that you feel is important to your 
testimony will also be included.
    Let me, first, welcome you and begin with Representative 
George Eskridge, Idaho House of Representatives, for your 
comments and welcome, sir.

       STATEMENT OF THE HONORABLE GEORGE ESKRIDGE, STATE 
         REPRESENTATIVE, IDAHO HOUSE OF REPRESENTATIVES

    Mr. Eskridge. Thank you, Mr. Chairman. Mr. Chairman and 
distinguished Members of the Subcommittee, thank you for the 
privilege of appearing before you today and testifying on the 
Federal Lands Recreation Enhancement Act. It is an act that has 
created great concern among my constituents and also my 
colleagues in the Idaho House and Senate, and I am asking you 
today to look at the current implementation of the act and to 
consider strongly repeal of the act.
    I believe the agencies have gone far beyond Congress's 
intent and their own published guidelines in implementing the 
act and applying the fees authorized by the act. They state, 
for instance, that the fees should have wide public support. 
However, the wide public has not supported implementation of 
many of the fees and has not been involved in the design of the 
fees, as required in the agency guidelines.
    Additionally, information provided to the public on 
recreation fee implementation has been sporadic and 
ineffective. There are too many documented instances of the 
public being issued tickets resulting in misdemeanor charges 
and large fines because those using the recreational facilities 
were not aware of the requirement to pay a fee.
    Additionally, under the legislation, fees are to be charged 
only where there are certain amenities, specifically, developed 
parking, permanent toilet facilities, trash receptacles, sign 
exhibits, picnic tables, and security services. Actual 
implementation fees are being assessed where these amenities 
are not available, for instance, at trailheads, undeveloped 
campgrounds, visual turnouts, and other recreational 
opportunities.
    The agency guidelines also require that a variety of 
outdoor recreation opportunities continue to be made available 
at no charge. However, under the legislation, there is no 
incentive for the agencies to keep nonfee facilities open 
because they do, in fact, not generate revenue for the 
agencies.
    Because of this, it is my concern, supported by information 
provided by my constituents and various news articles on this 
issue, that a significant number of facilities have actually 
been taken out of service or scheduled to be closed and 
replaced because the required amenities are not available, and 
the agency, then cannot assess fees for their use.
    In addition, Mr. Chairman and Members of the Committee, I 
believe that, counter to the intent of the legislation, the 
agencies are imposing fees to replace the use of Federally 
appropriated dollars used in other areas, such as firefighting, 
instead of using those appropriated dollars for development and 
maintenance of recreational facilities.
    Members of the Committee, 63 percent of the land area in 
Idaho is under Federal ownership, much of it in timberland. As 
a result, the forest products industry has been a major 
component in the economic health of my state. However, as 
Federal land management has changed, resulting in a significant 
reduction in allowable timber harvests, this industry has 
suffered, resulting in mill closures and loss of employment in 
the industry, resulting in a significant economic loss to the 
state and our citizens.
    We have attempted to adjust to this loss of a major 
industry by developing our tourism industry that, in part, 
relies on the public taking advantage of the recreational 
opportunities on the Federal lands in our state. The improper 
implementation of fees for use of these facilities, I believe, 
has resulted, and will continue resulting, in a decrease in use 
of these facilities by the general public and will result in a 
significant impact on the tourist industry in my state and 
probably other states as well.
    Mr. Chairman, it is especially harmful to those of lower 
incomes to take advantage of use of our public recreational 
facilities perhaps more than any other segment of our 
population. However, it also impacts others of the public as 
well who are facing higher costs of fuel, food, and other 
necessities and, as a result, are looking to public land 
recreational opportunities as an alternative to other leisure 
time activities.
    Mr. Chairman and Members, as I stated in the beginning of 
my remarks, I ask you to look at the current implementation of 
the Federal Lands Recreation Enhancement Act and the 
ramifications of continuing assessing fees beyond the intent of 
the act and to consider strongly repeal of this act.
    Mr. Chairman, I have also submitted written testimony that 
includes attachments to emphasize the opposition and concern 
being expressed by our citizens in response to the agency's 
implementation, as well as a copy of the Idaho legislature's 
Joint Memorial No. 14 sent to Congress in 2006 asking that the 
Federal Lands Recreation Enhancement Act be repealed. This 
joint memorial, Mr. Chairman, was passed by the Idaho 
legislature by a full majority, no dissenting votes, in our 
Senate or our House; a fully bipartisan effort in support of 
our resolution. Thank you, Mr. Chairman, and I would be glad to 
answer questions.
    [The prepared statement of Mr. Eskridge follows:]

            Statement of The Honorable George E. Eskridge, 
                Idaho State Representative, District 1-B

    Mr. Chairman and distinguished members of the Subcommittee;
    Thank you for the privilege of appearing before you today and 
testifying on the Federal Lands Recreation Enhancement Act. It is an 
act that has created great concern among my constituents and my 
colleagues in the Idaho House and Senate.
    The Federal Lands Recreation Enhancement Act of 2005 (REA) 
authorizes the U.S. Forest Service, Bureau of Land Management, Bureau 
of Reclamation, National Park Service and Fish and Wildlife Service to 
assess fees to increase revenues in order to supplement appropriations 
and other funding sources for the benefit of recreational facilities 
and services on public lands.
    At the same time it was recognized by Congress in passage of the 
act that the overreaching philosophy of the recreation program on 
public lands is to provide the public with public land recreation 
opportunities funded primarily with Federal tax dollars and to a lesser 
degree from fees, grants and other non-appropriated sources.
    Admittedly confusion in the past on what services should be funded 
by appropriations and what services should be funded by fees and other 
services has been a problem. The lack of clarity resulted in 
inconsistency in the implementation of fees. As a result Congress 
sought to provide direction on where/when fees should be charged by 
passage of the Recreation Enhancement Act.
    In doing so, Congress also mandated that the public have ``free 
access to a variety of recreation opportunities and undeveloped public 
lands.'' The Act ``also requires agencies to `establish the minimum 
number of recreation fees and shall avoid the collection of multiple or 
layered recreation fees for similar uses, activities, or programs'.''
    Unfortunately the implementing agencies have gone far beyond the 
intent of the Act in assessing fees for recreational use. The Forest 
Service as an example set up guidelines that look good on paper, but in 
actual practice are not being followed and in fact one could assume the 
guidelines are purposely being ignored by actual practice.
    To exemplify this the following are three of the five guidelines as 
published in the Forest Service Interim Implementation Guidelines 
accompanied by my comments illustrating abuse of the guidelines:
    1.  An enduring program is only possible with wide public and 
Congressional support. Involve communities of place and interest in 
decisions about fee project design and where the fee money is invested. 
Use a variety of methods to report to the public about the Recreation 
Enhancement Program.
    Comment: The public agencies have not abided by this implementation 
guideline. First, the ``wide public'' has not supported implementation 
of many of the fees and have not been involved in the design of the 
fees nor involved in decisions on where the fee revenue is to be 
applied.
    Additionally, information provided to the public on recreation fee 
implementation has been sporadic and ineffective. There are too many 
documented instances of the public being issued tickets resulting in 
misdemeanor charges and large fines because those visiting/using the 
recreation services/areas were not aware of the requirement to pay a 
fee or thought they were ok because they had a Golden Eagle Pass or 
other instrument covering their use or visit. As a result antagonism 
and opposition to the fees is significant!
    2.  Fees are acceptable if they have a direct connection to a 
perceived benefit such as at developed areas and where expanded or 
specialized services are provided.
    Comment: This is the real crux of the problem. According to the 
guidelines a fee is to be charged only if substantial Federal 
investment has occurred as evidenced by at least six amenities being 
available. These six amenities are:
    <bullet>  Designated developed parking
    <bullet>  Permanent toilet facility
    <bullet>  Permanent trash receptacle
    <bullet>  Interpretation sign exhibit or ``kiosk
    <bullet>  Picnic tables
    <bullet>  Security services
    Fees are being charged where not all or any of these amenities are 
available, for instance at trailheads, undeveloped camping areas, 
visual turnouts and other recreational opportunities.
    In addition the Forest Service specifically states in their 
implementation guidelines prohibitions against charging fees A) for 
general Forest/unit access, including charging solely for parking or 
picnicking along roads or trailsides, B) charging fees for overlooks or 
scenic pullouts, C) for camping at undeveloped sites that do not 
provide the minimum number of required facilities ( as outlined under 
Expanded Amenity Fee Developed Camping)
    Abuse of these prohibitions is prevalent and exemplified by the 
high number of the public having to pay fees or assessed fines and 
misdemeanor charges for parking at undeveloped trail heads, utilization 
of scenic overlooks and pull-outs, and other recreation uses not 
subject to fees.
    3.  Each National Forest and Grassland provides a variety of 
outdoor recreation opportunities that are free of charge.
    Comment: There are indications that a significant number of 
facilities that have been taken out of service or scheduled to be 
closed and replaced are because the required amenities aren't available 
thus the agency cannot assess fees for use. An article in the April 2, 
2008 Colorado Springs Gazette states the following: ``CHANGES PLANNED 
IN COLORADO The U.S. Forest Service has identified dozens of sites in 
the Pike and San Isabel national forests, and the Cimarron and Comanche 
national grasslands, where it may begin charging fees or increasing 
fees; some areas are also targeted for closure.'' (one can assume the 
closures are because no fees can be assessed those no desire to keep 
these facilities in use)
    The Federal Lands Enhancement Act was passed into law to ``retain 
fee revenues to supplement appropriations and other funding sources to 
repair, improve, operate, and maintain recreation sites and areas to 
quality standards....'' Section 3(b)(1) of the act states ``The amount 
of the recreation fee shall be commensurate with the benefits and 
services provided to the visitor''.
    There is a feeling among the public that the fees are not only 
excessive, unwarranted in many cases but are being used for other 
purposes not directly related to improvements in specific recreation 
facilities where the fees are imposed. A March 7, 2008 article in the 
New York Times titled ``Recreation Fees Rising in Wake of Fire's Costs 
relates the following: HAMILTON, Mont.-Reeling from the high cost of 
fighting wildfires, federal land agencies have been imposing new fees 
and increasing existing ones at recreation sites across the West in an 
effort to raise tens of millions of dollars.
    Additionally, hundreds of marginally profitable campsites and other 
public facilities on federal lands have been closed, and thousands more 
like overlooks and picnic tables are being considered for removal.'' (a 
copy of this article is attached as attachment #1)
    I believe this charge by the New York Times writer has merit. The 
U.S. Forest Service has revised its land management practice in a 
direction that reduces the amount of harvest on public forestlands and 
as a result has increased the fuel load and occurrence of devastating 
wild fires. The cost of firefighting as a result of this condition has 
increased dramatically consuming more of the agency's budget and the 
need to look for additional revenues. Increasing fees to the public for 
recreational use is one way to increase these revenues. I believe we 
will continue to see attempts to justify increases in fees to help meet 
this need even though this action is against the intent of the 
Recreation Enhancement Act.
    Members of the Committee, 63% the land area in Idaho is under 
federal ownership, much of it in timber land. As a result the forest 
products industry has been a major component in the economic health of 
the state. However as federal land management has changed, resulting in 
a significant reduction in allowable timber harvest, this industry has 
suffered creating mill closures and loss of employment in the industry 
resulting in an economic loss to the state and its citizens. We have 
attempted to adjust to this loss of a major industry by promoting a 
more robust tourist industry that in part relies on the public taking 
advantage of the recreational opportunities on the federal lands in our 
state. The improper implementation of fees for use of these facilities 
not only is resulting in opposition and dissatisfaction from our Idaho 
citizens but I believe will result in a decrease in use of these 
facilities by the general public and will result in a significant 
negative impact in the tourist industry in Idaho, not to other states 
as well.
    I ask you to look at the current implementation of the Recreational 
Enhancement Act and the ramifications of continuing assessing fees 
beyond the intent of the act and to consider repeal of the act.
    I have attached with my testimony several copies of articles and 
other information that I have referred to in preparing my testimony. I 
hope that the attachments will be helpful in emphasizing the opposition 
and concern being expressed by our citizens in response to the 
agencies' implementation of fees as a result of the Act. I have also 
attached a copy of Joint Memorial No.14 sent to Congress in 2006 asking 
that the Federal Lands Recreation Enhancement Act enacted December 8, 
2004 be repealed. The Joint Memorial was passed by the Idaho 
Legislature with no dissenting votes in the Senate or House.
    Mr. Chairman I request that both my written and oral testimony be 
included as a part of this hearing and again I thank you and the other 
Committee members for the opportunity to testify on behalf of Idaho 
citizens concerned with the current implementation and use of fees for 
recreational benefits on federal lands.


                                 ______
                                 
                             ATTACHMENT #1
The New York Times
Front Page March 7, 2008
Recreation Fees Rising in Wake of Fires' Costs
By Jim Robbins
    HAMILTON, Mont.--Reeling from the high cost of fighting wildfires, 
federal land agencies have been imposing new fees and increasing 
existing ones at recreation sites across the West in an effort to raise 
tens of millions of dollars.
    Additionally, hundreds of marginally profitable campsites and other 
public facilities on federal lands have been closed, and thousands more 
like overlooks and picnic tables are being considered for removal.
    ``As fire costs increase, I've got less and less money for other 
programs,'' said Dave Bull, superintendent of the Bitterroot National 
Forest here in Hamilton. The charge for access to Lake Como, a popular 
boating destination in the national forest, will be increased this 
year, to $5 from $2.
    Last year, the Forest Service collected $60 million in fees 
nationwide, nearly double the $32 million in 2000. The Bureau of Land 
Management, the country's biggest landlord, also doubled its revenues 
over the same period, to more than $14 million from $7 million. The 
agency projects revenues from the fees will grow an additional $1 
million this year.
    Though the new and increased fees still account for a small part of 
the agencies' overall budgets, they have riled elected officials and 
environmental and recreation groups across the West. The critics 
complain that there has been insufficient public involvement in the 
changes--imposed at hundreds of locations over the past three years or 
so--and suggest that they reflect a significant shift in federal policy 
to a market-based approach from one of managing sites for public 
benefit.
    Unlike the National Park Service, which has routinely charged 
admission and other fees at its parks, the Forest Service, Bureau of 
Land Management and other federal agencies have historically been less 
aggressive in imposing such assessments.
    ``Our government wants to charge us $5 or $10 to go for a walk in 
the woods--our woods,'' said Kitty Benzar of the Western Slope No-Fee 
Coalition, in Durango, Colo. ``We don't think it's right.''
    Senator Max Baucus, Democrat of Montana, has introduced a bill that 
would repeal the authority of the Forest Service and other agencies to 
raise or institute many of the fees.
    ``The authority given land managers is being abused,'' Mr. Baucus 
said. ``They are using it to pad their budgets at the expense of the 
public. I think it's just wrong.''
    Federal officials say the fees are unavoidable because Congress has 
not increased financing for the Forest Service and the Bureau of Land 
Management even as the cost of fighting fires on public lands has 
consumed more of their budgets. The United States has more than 630 
million acres of public land, most of it in the West.
    ``Firefighting costs went from 20 percent of the overall agency 
budget to 47 percent,'' said Mr. Bull, comparing the current Forest 
Service budget with those in the mid-1990s. Last year, the agency spent 
$1.4 billion on fighting fires.
    The nearly $47,000 raised in fees last year at Lake Como went to 
pay for an employee to direct traffic, to add a lane for boaters 
entering the lake and more frequent pumping of outhouses, activities 
that could not have been done because of money diverted to 
firefighting. Forest Service officials here say the fees are warranted 
because of the improvements.
    ``These fees are really important,'' said Joni Packard, who is in 
charge of recreational fees for the Forest Service in the region that 
includes Montana, Idaho, Washington, North Dakota and South Dakota. 
``They keep our program whole.''
    But Mr. Baucus called the fees ``double taxation'' because federal 
income taxes support public lands. He said he was not opposed to 
charging for access to developed areas like campgrounds, but not for 
trails and other undeveloped areas. His bill, introduced in December, 
is in the Senate Energy and Natural Resources Committee and has the 
backing of several Western senators, including Michael D. Crapo, 
Republican of Idaho.
    The Umatilla National Forest in Oregon is typical of the new 
approach at undeveloped or minimally developed locations. Umatilla 
officials recently proposed 39 new fees, including a $5-a-day charge to 
use 17 trailheads, most into wilderness areas that are now free. 
Violators would be subject to tickets and up to $75 fines for the first 
offense.
    Most controversial have been the Forest Service fees for access to 
large wilderness areas or forests near newly improved areas like 
parking lots. One of those is along a 14-mile stretch of state highway 
near Denver that borders the Arapaho and Roosevelt National Forests and 
tops out on Mount Evans at a scenic overlook. ``If people stop their 
car to take a picture of a mountain goat, rangers can force them to pay 
a $10 fee,'' Ms. Benzar said.
    Minimal user fees were allowed in developed areas of public lands 
under the Land and Water Conservation Act, passed in the 1960s. In 
1996, the Recreation Fee Demonstration Act expanded the types of fees 
that could be charged, and the 2004 Federal Lands Recreational 
Enhancement Act allowed even more.
    The 1996 and 2004 acts were passed as riders to larger spending 
bills, leading critics to complain that they were given insufficient 
public scrutiny. Most of the objectionable fees have been imposed since 
2005, when the 2004 law went into effect. ``The public has never had a 
chance to make themselves heard on this issue, which is a fundamental 
change to their system of public lands,'' Ms. Benzar said. The Baucus 
bill would eliminate all fees being charged under the authority of the 
1996 and 2004 laws.
    Mr. Baucus proposes to address firefighting problems with separate 
legislation that would provide $600 million for the Forest Service and 
$200 million for the Bureau of Land Management. That money would cover 
about 80 percent of the two agencies' firefighting costs that exceed 
their appropriated budgets.
    Because the Forest Service and Bureau of Land Management keep 
within their budgets money generated by the new fees, critics suggest 
that they have an incentive to raise as much as they can. ``In some 
cases, they put out a trash can and picnic table and other things just 
to meet the minimum so they can charge $5,'' said Scott Silver, the 
head of Wild Wilderness, a group in Bend, Ore., that opposes the fees.
    That is contrary to the Western way of life, Mr. Baucus said, 
adding: ``We're an outdoor people. The land defines us. It's part of a 
certain sense of freedom in the West.''
    Holly Fretwell, a research associate at the Property and 
Environment Research Center, a free-market research organization in 
Bozeman, said the fees were the best way to pay for recreation because 
they made the federal agencies more responsive to the people who use 
the sites. With fees, Ms. Fretwell said, the agencies ``need to provide 
the service people want or they won't use


                                 ______
                                 
                             ATTACHMENT #2
Miracles do happen!
Bonner County (Idaho) Daily Bee, Sunday Dec. 30, 2007
    Miracles do happen! In an age of bitter political recrimination, a 
truly bipartisan bill has just been introduced in the U.S. Congress by 
Senators Crapo (R-ID) and Baucus (D-MT).
    The Fee Repeal and Expanded Access Act (S. 2438) would roll back 
thousands of fees that Americans are being charged for mere access to 
their public lands. In 1996, a rider was slipped into an appropriations 
bill giving federal lands agencies the right to temporarily charge fees 
for many activities that hitherto had been free to the public and 
supported by general tax funds. Activities such as backcountry camping, 
hiking, and merely passing through public lands were now being charged 
fees. In one California forest they even charged a fee to park near a 
cliff to see the sunset! Over the years, these fees multiplied like a 
cancer, all over the US, even reaching into Idaho. Agencies such as the 
Forest Service, U.S. Fish & Wildlife, and the Bureau of Land 
Management, starved for funds, created more and more fee areas.
    Then in 2004 another rider, making the fees permanent, was slipped 
into another must-pass appropriations bill. We nicknamed it the R.A.T. 
(Recreation Access Tax). Agencies now became emboldened in finding 
questionably legal ways of charging evermore fees. No fees for 
wilderness camping allowed? No problem. They charged for parking at the 
trailhead.
    In Sandpoint, we collected 400 names on a petition to repeal these 
fees. My wife, Lanie Johnson, presented the petition to Senator Craig. 
We asked State Representative George Eskridge to sponsor an Idaho 
Resolution against the R.A.T. Rep. Eric Anderson co-sponsored it. The 
resolution passed both houses, unanimously.
    We are at the threshold of success, but the way ahead is still 
challenging. There will be hearings and votes at several levels. We 
face powerful opposition. There is an entrenched bureaucracy to 
overcome, as well as the ARC (American Recreation Coalition). It is 
composed of such organizations as Marriott Hotels, International 
Association for Amusement Parks & Attractions, and the Walt Disney 
Company. They lobbied for these fees. They want to ``manage'' our 
public lands (i.e. develop them, either in ``partnership'' with the 
government or to buy them outright if they can get laws passed allowing 
them to do so).
    American public lands are unique. No other country has anything 
like them. They belong to Americans. We do not need the king's 
permission to walk on them. We must keep them this way. Contact 
Senators Crapo and Baucus and tell them that you support S. 2438. Tell 
your friends in other states to ask their Senators to co-sponsor the 
bill.
    Let's remain the Land of the Free, not the Land of the Fee.

Ken Fischman, Sandpoint, Idaho


                                 ______
                                 
                             ATTACHMENT #3
Casper Star-Tribune
January 30, 2007
Closing campgrounds
By BRODIE FARQUHAR
Star-Tribune correspondent
    Stung by negative press about campground closures, as well as 
criticism from conservation activists about a lack of public 
involvement in the process, the U.S. Forest Service says it wants to do 
better.
    ``Our aim is to raise the standard for participation and strengthen 
our work with the public so we can collectively determine the needs for 
forest recreation facilities and meet future demands,'' said Forest 
Service Chief Dale Bosworth this week in a letter to regional 
foresters. ``The ultimate goal is to improve recreation opportunities 
and experiences on national forests.''
    The agency's recreation site facility master plan looks not only at 
campgrounds, but also assesses the viability of picnic areas, boat 
ramps, vehicle pullouts with interpretative signs and trailhead kiosks.
    In one of his last acts as chief of the Forest Service, Bosworth 
has tapped a national review team to gauge the effectiveness of citizen 
participation in the recreation facility planning process. He charged 
the national team to conduct a thorough review and make recommendations 
by April 2.
    For the next 60 days, said Joel Holtrop, deputy chief of the Forest 
Service, no national forest will make any decisions about what 
recreational facilities will be closed, kept open or changed to meet 
public needs. Asked what was the genesis of the recreation facility 
planning program, Holtrop said it was an internal initiative, not 
prompted by Congress or the Bush administration. He acknowledged that 
in the face of mounting criticism and press attention, it was time to 
figure out how public participation in the process might be best 
improved.
Scope of closures
    The Forest Service manages about 15,000 camping areas and other 
recreational sites on 155 national forests and 193 million acres of 
public lands. The agency is imposing a for-profit model on those sites.
    In Oregon's Deschutes National Forest, for example, only 14 out of 
212 existing developed recreation sites will remain open and free to 
public use, according to research by Robert Funkhouser, president of 
the Western Slope No-Fee Coalition in Colorado. All the rest will be 
shut down, turned over to concessionaires or kept open as fee sites, he 
said.
    In Colorado, half of the 140 campgrounds and other facilities in 
the Grand Mesa, Uncompahgre and Gunnison national forests face closure. 
Last month, the Denver Post reported that 44 national forests have gone 
through the recreation facility planning process, and 10 percent of 
their facilities are marked for decommissioning or closure, with 
another 175 forests and national grasslands to complete their reviews 
by the end of 2007. The Post also reported that seven Rocky Mountain 
region forests in Colorado and Wyoming have submitted plans which call 
for either closing or reducing services to about 150 sites. The 
Shoshone National Forest proposes decommissioning 42 sites.
    According to Scott Silver, director of the Wild Wilderness 
conservation group, ``The U.S. Forest Service is generating dozens of 
`proposed five-year programs of work' which collectively call for the 
closing, decommissioning and privatizing (of) hundreds upon hundreds of 
recreation sites and facilities. The process had been on track to 
shutter, demolish and/or reduce the season of operation for thousands 
of recreation facilities from coast to coast.
    ``The process is geared to concentrating access into relatively 
few, crowded and expensive to visit, facilities,'' Silver said. ``The 
process calls for doing away with those special places in the forest 
were one could enjoy uncrowded, minimally developed, camping. The 
process is one of transforming the great outdoors into a place where 
recreation is sold to paying customers and where the quest for making a 
buck off recreation dominates.''
Team leader
    Beth Pendleton, deputy regional forester for the Pacific Southwest 
in California, heads the new review team. She said the team members 
will study what has happened to date regarding public participation, 
and will also look at all communication methods and avenues, such as 
public meetings, public notices, postings on the Internet and working 
with journalists to get the word out.
    Holtrop emphasized that recreation facility planning is not a 
decision process. Rather, it is an analysis tool, and therefore is not 
subject to the National Environmental Policy Act's environmental impact 
statement requirement.
    Holtrop was asked if individual national forests that have 
announced facility changes and closures would ``have to start over.'' 
He said different circumstances would apply to different forests, based 
on the degree that the public was or was not involved. Holtrop did keep 
the door open to reversing national forest decisions to close 
individual recreation facilities.


                                 ______
                                 
                             ATTACHMENT #4
IDAHO STATESMAN
APRIL 13, 2008
Zimo: The commercialization of public lands has to stop
Pete Zimowsky
    Campers, hikers, hunters, anglers, bird watchers and others are 
being priced out of the woods.
    Recent proposals to increase campground fees in the Boise and 
Sawtooth national forests have only fueled the fire. A grass-roots 
effort has been mounting against federal recreation fees, and Sens. 
Mike Crapo, R-Idaho, and Max Baucus, D-Mont., have introduced the Fee 
Repeal and Expanded Access Act of 2007. The bill would revoke the 
authority of federal agencies to add or raise fees established under 
the Recreational Fee Demonstration Program.
    ``Recreating on federal public lands has been a cherished 
birthright of Americans for generations and, with a few narrow 
exceptions, a right enjoyed without charge,'' said Kitty Benzar, 
president of the Western Slope No-Fee Coalition, based in Durango, 
Colo. (www.westernslopenofee.org). ``The 1996 Recreational Fee 
Demonstration Program radically altered that tradition by requiring 
payment simply to access public lands for hiking, camping and many 
other activities,'' she said. Benzar is backing the Senate bill to 
repeal fees and halt what she calls the commercialization of public 
lands.
    The term commercialization of public lands is the key. Many thought 
the rec fee program was going to be good because it took recreation 
fees and kept them locally for recreational improvements. It did 
improve boat-launch areas and restrooms along the Payette River near 
Banks. But the program went bonkers. Because it kept fees local and out 
of the Treasury, federal agencies scrambled to come up with ways to 
charge for everything they could get away with, including picnics in 
the woods.
    Federal agencies have got it all wrong now--they're milking the 
public in any way possible. The Baucus bill will reverse that and 
hopefully turn the tide on out-of-control rec fees.
    Let's get something straight: A rec fee is a tax. Politicians like 
to say they are cutting your taxes, but then they nail you with higher 
user fees. It's a tax in disguise. Raising campground fees and charging 
other rec fees isn't the answer to funding recreation sites.
    Congress has to make sure recreation budgets for the U.S. Forest 
Service, U.S. Bureau of Land Management, U.S. Fish and Wildlife Service 
or whatever other agency that handles public lands are fully funded. 
Congress has to make sure the money gets down to the district level 
where it is needed for campground and recreation-site maintenance and 
operation. Recreation funding doesn't need to go to the Washington 
bureaucracy. It doesn't need to go to the regional bureaucracy. It 
needs to go to the district.
    Federal agencies at the ground level have a legitimate gripe about 
funding. In announcing a proposal to raise campground fees last fall, 
the Boise National Forest listed some figures. Revenue from recreation 
fees and appropriations from Congress amount to roughly $650,000. Boise 
National Forest has an operation and maintenance budget of $760,000 
annually. It also is dealing with $1.6 million in maintenance and 
improvements that are not getting done.
    But that's no excuse to price the average camper out of the woods 
with higher camping fees, fees to take a walk in the woods, or fees to 
park at a trailhead or picnic area. The concept of public ownership of 
public lands has been lost. Federal agencies now refer to the public as 
customers. The more federal agencies operate the outdoors like a 
commodity, the more the public loses.
    It's the same with the privatization of the operation of federal 
campgrounds. Private companies close campgrounds as soon as the first 
cool breeze hits after Labor Day weekend. They don't want to be 
maintaining campgrounds if only a few campers show up. It's not 
profitable. Profitable? It's not Disneyland.
    There should be some fees. Areas that require significant upkeep, 
such as developed campgrounds, should have a modest fee. But let's not 
price the public out of the outdoors.


                                 ______
                                 
                             ATTACHMENT #5
HOUSE JOINT MEMORIAL NO. 14
LEGISLATURE OF THE STATE OF IDAHO
Fifty-eighth Legislature
Second Regular Session
2006

                    IN THE HOUSE OF REPRESENTATIVES

                      HOUSE JOINT MEMORIAL NO. 14

                BY RESOURCES AND CONSERVATION COMMITTEE

                            A JOINT MEMORIAL

TO THE PRESIDENT AND VICE PRESIDENT OF THE UNITED STATES, TO THE 
SECRETARY OF THE UNITED STATES DEPARTMENT OF INTERIOR, TO THE MAJORITY 
AND MINORITY LEADERSHIP OF THE SENATE AND THE HOUSE OF REPRESENTATIVES 
OF THE UNITED STATES IN CONGRESS ASSEMBLED, AND TO THE CONGRESSIONAL 
DELEGATION REPRESENTING THE STATE OF IDAHO IN THE CONGRESS OF THE 
UNITED STATES.

    We, your Memorialists, the House of Representatives and the Senate 
of the State of Idaho assembled in the Second Regular Session of the 
Fifty-eighth Idaho Legislature, do hereby respectfully represent that:
    WHEREAS, the Federal Lands Recreation Enhancement Act, H.R. 3283, 
108th United States Congress, was introduced in the United States House 
of Representatives and would have authorized the United States Forest 
Service, the United States Bureau of Land Management, the United States 
Fish and Wildlife Service, the National Park Service, and the United 
States Bureau of Reclamation to charge visitor fees for recreation on 
publicly owned lands; and
    WHEREAS, H.R. 3283 was not voted on separately in the United States 
House Representatives and was not introduced in, did not have hearings 
in, and was not approved by the United States Senate, but instead was 
attached to the omnibus spending bill, H.R. 4818, by the 108th United 
States Congress, as an appropriation rider; and
    WHEREAS, the 108th United States Congress enacted H.R. 4818, and 
the Federal Lands Recreation Enhancement Act is now codified as 16 
U.S.C. sections 6801 through 6814; and
    WHEREAS, the Federal Lands Recreation Enhancement Act includes 
criminal penalties and is substantive legislation that fundamentally 
changes the way public land in the state is funded and managed; and
    WHEREAS, the concept of paying fees to use public land is contrary 
to the idea that public land belongs to the people of the state and is 
land where every person is granted access and is welcome, a concept 
that has been and should remain in place; and
    WHEREAS, recreational fees constitute double taxation and bear no 
relationship to the actual costs associated with recreational use such 
as hiking, picnicking, observing wildlife, or scenic driving on state 
roads and public rights-of-way; and
    WHEREAS, the fees imposed by the Federal Lands Recreation 
Enhancement Act are a regressive tax that places an undue burden on the 
people living in rural areas adjacent to or surrounded by large areas 
of federal land and discriminates against lower-income and working 
Idahoans by placing financial obstacles in the way of their enjoyment 
of public land; and
    WHEREAS, the public land access fees in the Federal Lands 
Recreation Enhancement Act are controversial and are opposed by 
hundreds of organizations, several state legislatures and millions of 
rural Americans; and
    WHEREAS, the Federal Lands Recreation Enhancement Act establishes 
an interagency pass that may be used to cover entrance fees and 
recreational amenity fees for federal public land and water, 
disregarding the substantially different ways in which national parks 
and other federal public land are managed and funded; and
    WHEREAS, the limited means of expressing opposition to and the lack 
of public debate in the implementation of the fee program raises the 
concern that some citizens may be deterred from visiting and enjoying 
public land in the state and throughout the United States; and
    WHEREAS, tourism is an important industry to the state, and the 
imposition of recreational use fees will have a negative effect on 
state and local economies.
    NOW, THEREFORE, BE IT RESOLVED by the members of the Second Regular 
Session of the Fifty-eighth Idaho Legislature, the House of 
Representatives and the Senate concurring therein, that the Legislature 
of the State of Idaho demands that the Federal Lands Recreation 
Enhancement Act, which was enacted on December 8, 2004, be repealed and 
that no recreational fees authorized under the Federal Lands Recreation 
Enhancement Act be imposed to use federal public land in the state.
    BE IT FURTHER RESOLVED that the Chief Clerk of the House of 
Representatives be, and she is hereby authorized and directed to 
forward a copy of this Memorial to be sent to The Honorable George W. 
Bush, President of the United States; The Honorable Richard B. Cheney, 
Vice-President of the United States and President of the U.S. Senate; 
The Honorable Gale Norton, United States Secretary of the Interior; The 
Honorable J. Dennis Hastert, Speaker of the U.S. House of 
Representatives; The Honorable Ted Stevens, President Pro Tempore of 
the U.S. Senate, The Honorable William H. Frist, Majority Leader of the 
U.S. Senate; The Honorable Harry Reid, Minority Leader of the U.S. 
Senate; The Honorable John Boehner, Majority Leader of the U.S. House 
of Representatives; The Honorable Nancy Pelosi, Minority Leader of the 
U.S. House of Representatives; and the congressional delegation 
representing the State of Idaho in the Congress of the United States.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Representative. You made a 
point, toward the end, about the cost being a deterrent for 
some families and some individuals. If there is no objection, 
the National Park Service Comprehensive Survey of the American 
Public Ethnic and Racial Diversity of National Park System 
Visitors and Nonvisitors Technical Report, December 2003, deals 
specifically with the issue of cost and the issue of access by 
some families and nonaccess by other families, based primarily 
on the fee interest and other costs associated with visiting 
our public lands. So thank you for that reminder, and, if there 
is no objection, that will be made part of the record.
    Let me now call Ms. Kitty Benzar, President, Western Slope 
No-Fee Coalition. Your comments, please.

             STATEMENT OF KITTY BENZAR, PRESIDENT, 
                 WESTERN SLOPE NO-FEE COALITION

    Ms. Benzar. Thank you, Mr. Chairman, and, with your 
indulgence, I would like to dedicate my appearance here today 
to the memory of my late friend and colleague, Robert 
Funkhouser, who should have been in this seat but is, instead, 
watching the proceedings from a better place where I do not 
think he paid an entrance fee.
    Mr. Chairman and Members of the Subcommittee, I am here to 
call on Congress to repeal the provisions of the FLREA that 
apply to the Forest Service and to the BLM, to restore the laws 
there were in effect successfully for 30 years under the Land 
and Water Conservation Fund Act. That would be the impact of 
the bill that is pending in the Senate, and we strongly support 
that bill.
    I would like to use the remainder of my time to address 
some of the things that were said earlier by the agency 
witnesses, starting with Mr. Regula's correct statement that 
this whole program was started as a way to address backlogged 
maintenance on our National Forests.
    My first observation of that would be that the GAO, in two 
different studies, has found that the Forest Service and the 
BLM do not do an accurate job of tracking their backlogged 
maintenance and cannot account for how much of that maintenance 
has been impacted by fees.
    My second comment on that would be that their answer to 
what would happen if these fees went away was, ``We will be 
able to build fewer capital improvements.'' I thought the money 
was for backlogged maintenance, not for capital improvements.
    They quote a couple of satisfaction surveys, 80 percent 
satisfaction. I would just point out that they were doing 
surveys of people who had already paid a fee. There is no way 
to survey the number of people that are deterred by these fees. 
However, academic studies have shown that about half of lower-
income Americans are deterred by these fees, and about a third 
of all Americans, at all income levels, are deterred by these 
fees.
    Visitation to our public lands is down across the board. It 
is down on the National Forests; it is down on the National 
Parks. Visitation is going to continue to go down, with the 
cost of gas what it is. This decline in visitation is not good 
for our country. We have kids who need to spend more time 
outdoors. We need not to be deterring them from visiting their 
public lands.
    I would like to specifically address a statement that was 
made in response to a question from Congresswoman Capps, that 
there are not more fee sites now than there were. I believe 
that there are more fee sites. The list of 435 sites that the 
Forest Service claims to have dropped initially from the 
program; when we analyzed it, more than half of those had never 
been fee sites, or were rolled into a HIRA and are still fee 
sites to this day, or, at that time, did not qualify, but they 
are planning to put in the improvements to help them qualify.
    In the meantime, the Recreation Resource Advisory 
Committees have approved, at least, that we can find out about, 
545 new and increased fee sites; of those, 172 brand-new fee 
sites.
    There are more fee sites today than there were when this 
act was passed.
    I also heard the statement that you will not pay an 
interest fee on a Forest Service or BLM piece of public land. I 
would direct the Committee's attention to Yaquina Head, an 
outstanding natural area in the State of Oregon, where a press 
release recently came out that said: ``Entrance Fee at Yaquina 
Head To Be Increased.'' It was a proposal that has been 
approved by the Pacific Northwest Recreation Resource Advisory 
Committee.
    We have been told that people are only charged a HIRA fee 
for facilities that they use. I am sorry, but that is just not 
the case. People are charged a fee in a HIRA for any presence 
in that area, specifically, for parking their car in that area. 
The law specifically says, ``Fees cannot be charged for 
roadside parking.'' I would direct you to the sign that stands, 
to this day, on the Coronado National Forest at Mount Lemon.
    One week ago today, Wednesday, a citizen of Tucson was 
tried in Federal Magistrate Court for parking his car along a 
roadside, playing in the snow with his wife and daughter, a 
mile and a half from the nearest bathroom, which is not a 
Forest Service bathroom. It is part of a communications site, 
and it is not clear it is even open to the public. He used no 
facilities. He was in a completely undeveloped area. His crime 
was parking by the roadside without paying $5. A Federal 
magistrate has that case under advisement as we speak.
    It is easy not to charge for backcountry access if you just 
charge for the trailheads. There are trailhead fees all over 
this country. There are more than 500 in the Pacific Northwest 
alone. There are hundreds more in Southern California. You do 
not have to charge for the backcountry; you just charge for the 
trailhead.
    Commissions to vendors for selling fees are not being 
counted as a cost of the fee program. The cost of the 
Recreation Resource Advisory Committees is not being counted as 
a cost to the fee program. Congress has absolutely no way of 
knowing what this fee program is costing because the numbers 
are not there. The agencies' accounting systems simply do not 
allow them.
    I believe I am out of time. I would like to offer to answer 
any questions that you have, and I thank you for your 
attention.
    [The prepared statement of Ms. Benzar follows:]

  Statement of Kitty Benzar, President, Western Slope No-Fee Coalition

    Mr. Chairman and Distinguished Members of the Subcommittee;
    Thank you for the privilege of testifying before you today 
concerning implementation of the Federal Lands Recreation Enhancement 
Act by the USDA-Forest Service and the Bureau of Land Management.
    I am Kitty Benzar, President of the Western Slope No-Fee Coalition, 
an organization that works to restore the tradition of public lands 
that belong to the American people and are places where everyone has 
access and is welcome. I am speaking to you today on behalf of our 
supporters, on behalf of the organizations with whom we closely work, 
and on behalf of millions of our fellow citizens who believe as we do 
that FLREA is not working and, quite frankly, cannot be made to work no 
matter how much it is tinkered with.
    The Federal Lands Recreation Enhancement Act, like the Fee Demo law 
that preceded it, was enacted as a rider on an omnibus appropriations 
bill. Despite being a profound change in public policy, it never 
received a vote on the floor of the House and was never introduced in 
the Senate. The fees being charged under its authority constitute a 
double tax on the American people, levied directly by the land 
management agencies. They are a regressive tax that, according to 
published academic reports, is both exclusionary and discriminatory.
    These fees have harmed communities located near or surrounded by 
federal lands, unfairly limited public access, and subjected citizens 
to severe criminal penalties. They have made it more difficult for 
Americans to experience the joys and benefits of outdoor recreation and 
access to nature.
    Many of these fees go far beyond the scope of the law and, I 
believe, far beyond what Congress intends. By allowing the agencies to 
directly retain fee revenue, this law has created incentives for ever-
more and ever-higher fees and has undermined Congressional oversight 
authority.
    In a press release issued at the time the FLREA was passed, its 
original sponsor, U.S. Representative Ralph Regula, expressed his 
intent:
        ``As passed by Congress, H.R. 3283 would limit the recreation 
        fee authorization on the land management agencies. No fees may 
        be charged for the following: solely for parking, picnicking, 
        horseback riding through, general access, dispersed areas with 
        low or no investments, for persons passing through an area, 
        camping at undeveloped sites, overlooks, public roads or 
        highways, private roads, hunting or fishing, and official 
        business. Additionally, no entrance fees will be charged for 
        any recreational activities on BLM, USFS, or BOR lands. This is 
        a significant change from the original language. The language 
        included by the Resources Committee is much more restrictive 
        and specific on where fees can and cannot be charged.'' 
        [emphasis in original]
    At the time of its passage we predicted, accurately as it turns 
out, that the Forest Service and BLM would use the ambiguities and 
weaknesses in the language of the FLREA to perpetuate and expand the 
broad and unlimited fee programs that they had implemented under the 
Fee Demo authority. Today the agencies are pushing past the limitations 
specified in the law because of the perverse incentives it creates to 
maximize revenues at the public expense.
    The FLREA, as Representative Regula correctly stated, contains a 
number of provisions designed to protect free access. There are 
prohibitions on charging Standard Amenity or Expanded Amenity fees 
``(A) Solely for parking, undesignated parking, or picnicking along 
roads or trailsides. (B) For general access...(C) For dispersed areas 
with low or no investment...(D) For persons who are driving through, 
walking through, boating through, horseback riding through, or hiking 
through Federal recreational lands and waters without using the 
facilities and services. (E) For camping at undeveloped sites that do 
not provide a minimum number of facilities and services...(F) For use 
of overlooks or scenic pullouts. (G) For travel by private, 
noncommercial vehicle over any national parkway or any road or highway 
established as a part of the Federal-aid system...'' [Section 803 
(d)(1)].
    It also states in Section 803 (e) (2) ``The Secretary shall not 
charge an entrance fee for Federal recreational lands and waters 
managed by the Bureau of Land Management, the Bureau of Reclamation, or 
the Forest Service.
    Section 803 (f) (4) says that Standard Amenity fee areas must 
contain all of six minimum amenities: Designated developed parking, a 
permanent toilet facility, a permanent trash receptacle, an 
interpretive sign or kiosk, picnic tables, and security services.
USDA-Forest Service and BLM Are Disregarding The Restrictions In The 
        FLREA
    In 2005, shortly after passage of the Federal Lands Recreation 
Enhancement Act with its new restrictions, we launched a nationwide 
grassroots survey of Forest Service and BLM fee sites. We asked our 
members and supporters to visit fee areas near their homes, observe 
whether they comply with the provisions in the new law, and report to 
us those that did not. The resulting report documented over 300 non-
compliant sites, and was submitted to the Senate Energy and Natural 
Resources Committee in late 2005. Since then, Forest Service officials 
have provided further information to the Senate showing that there are 
at least 738 non-compliant sites on the National Forest system, plus an 
unknown number on the BLM.
    There are clear patterns to the excesses in implementation by the 
BLM and Forest Service. They have created a category of fees that was 
not authorized by Congress called ``High Impact Recreation Areas.'' 
They are charging fees at thousands of trailheads that provide access 
to dispersed undeveloped backcountry, and they are stretching the 
Special Recreation Permit authority to cover virtually any type of 
recreational activity. As a result, de facto entrance fees are 
controlling access to huge tracts of public land.
    Non-compliant fee programs fall into three broad categories:
    1)  ``High Impact Recreation Areas'' (HIRAs)
    The agencies are using a category called a HIRA that does not 
appear anywhere in the law. A HIRA is an area--often a large area--
where a fee is required for all access, whether or not any facilities 
or services are used and regardless of how spread out the facilities 
might be. Under the guise of HIRAs, Standard Amenity fees are being 
charged for driving scenic roads and stopping at scenic overlooks, for 
entrance to huge tracts of land and access to dispersed backcountry, 
and for groups of sites with low or no federal investment. Information 
submitted to the Senate by the Forest Service in 2005 showed that a 
full 75% of Standard Amenity fee sites within HIRAs don't have all six 
of the amenities the law requires.
    The language in the FLREA stating that a fee can be charged for an 
area with certain amenities, but failing to define how large the 
``area'' can be, opened the door to HIRAs. Examples:
        <bullet>  In Southern California, 31 HIRAs comprising almost 
        400,000 acres have been established on four National Forests.
        <bullet>  At Mt. Lemmon, on the Coronado National Forest in 
        Arizona, virtually the entire 256,000-acre Santa Catalina 
        Ranger District has been declared a HIRA and fees are being 
        charged for picnicking, dispersed undeveloped camping, roadside 
        parking, snowplay in undeveloped areas, trailheads, and 
        restrooms.
        <bullet>  In Colorado, the Arapaho-Roosevelt National Forest 
        has declared two HIRAs. The first is at Mt Evans, where 
        Colorado State Highway 5 has become a de facto toll road and 
        entrance fees must be paid to the Forest Service in order to 
        enjoy a scenic overlook, hike into the adjacent designated 
        Wilderness, or simply use a portajohn. The other is the 36,000-
        acre Arapaho National Recreation Area where entrance fees are 
        charged for access to six trailheads, five picnic areas, and 
        five boat launches.
    2)  Special Recreation Permits
     The section of the Federal Lands Recreation Enhancement Act that 
authorizes Special Recreation Permit fees says, in its entirety:
        ``The Secretary may issue a special recreation permit, and 
        charge a special recreation permit fee in connection with the 
        issuance of the permit, for specialized recreation uses of 
        Federal recreational lands and waters, such as group 
        activities, recreation events, motorized recreational vehicle 
        use.''
    That language was carried forward essentially unchanged from what 
was in the Land and Water Conservation Fund Act, the law that governed 
federal recreation fees from 1965 through 1996.
    Under LWCFA, the agencies used their Special Recreation Permit 
authority mainly for large gatherings such as weddings and competitive 
events. But under FLREA the same language is being interpreted in an 
entirely new way. It's being stretched to cover ordinary uses such as a 
family hiking trip, an individual ride on an OHV or mountain bike 
trail, and general access to backcountry by foot, horseback, or hand-
carried boat.
    SRPs are being used to generate revenue at places and for uses that 
can't be shoehorned into the requirements for Standard Amenity and 
Expanded Amenity fees. Where it isn't practical, or sometimes isn't 
even legal, to provide any amenities, requiring a permit is the method 
being used to elicit fee revenue from people who visit areas that have 
little or no federal investment. The restrictions under the other fee 
categories, such as not charging for children under 16, do not apply to 
SRPs. Examples of excesses under the permit authority include:
    <bullet>  Wayne National Forest, Ohio: Fees are charged for 406 
miles of OHV, mountain bike, and horse trails. The trail fee was raised 
from $5 to $12 in April, 2007.
    <bullet>  Cedar Mesa, Utah: BLM requires a fee for all hiking in 
400,000 acres that includes 7 remote canyons and 11 trailheads. This is 
a completely undeveloped area that received at last report only 8,283 
visitors a year and has no maintenance backlog. The fee for backcountry 
day-hiking there was increased this year from $3 to $5 and applies to 
both adults and children.
    <bullet>  Both the Forest Service and BLM are requiring SRPs and 
charging fees, to both adults and children, for entry to designated 
Wilderness Areas that are completely primitive by definition. Examples 
include Boundary Waters Wilderness, MN (USFS), Aravaipa Canyon, AZ 
(BLM), Paria Canyon-Vermillion Cliffs Wilderness, UT/AZ (BLM), and 
above 10,000 feet elevation at Mt Shasta Wilderness, CA (USFS). All of 
these fees have either been increased or are proposed for an increase 
since the FLREA was enacted.
    <bullet>  Hidden fees: In some places, like the Alpine Lakes, 
Glacier Peak, and Pasayten Wildernesses in the Pacific Northwest, there 
is no charge for the wilderness permit itself, but vehicles parked at 
wilderness trailheads must display a Northwest Forest Pass, which 
amounts to the same thing.
    The WSNFC is not opposed to permit systems where access must be 
limited to protect fragile resources or to distribute use. But charging 
a fee for such permits creates a barrier that discourages people from 
visiting some of the most beautiful places in America--places they own 
and have an equal right to visit regardless of their financial 
resources. Permit fees are being used to sidestep the provisions in the 
FLREA against charging for backcountry use, dispersed and undeveloped 
camping, use of roads and trails, and passing through without use of 
facilities.
    3)  Trailhead Fees
    At thousands of sites nationwide, citizens are being charged a fee 
to park their vehicle at a trailhead or simple staging area and go for 
a hike, horseback ride, or to use an OHV trail. The law prohibits 
charging a fee solely for parking, or for passing through a fee area 
without using the facilities, yet that is exactly what trailhead fees 
are for.
    Examples of trailhead fees:
    <bullet>  White Mountain National Forest, New Hampshire: A Parking 
Pass is required at 44 trailheads and river access sites. These fees 
control access to most of the Forest's backcountry.
    <bullet>  Forest Service Region 6: In the Pacific Northwest, a pass 
is required at over 500 day-use sites, mostly trailheads, on twelve 
National Forests. On the Mt Baker-Snoqualmie National Forest alone, 
there are more than 100 fee trailheads.
    <bullet>  Southern California: An Adventure Pass is required at 22 
trailheads on the Angeles National Forest, 12 trailheads on the 
Cleveland National Forest, 13 trailheads on the Los Padres National 
Forest, and 49 trailheads on the San Bernardino National Forest.
    <bullet>  Colorado: Winter recreationists at Vail Pass must 
purchase a pass before accessing 55,000 acres of backcountry by 
snowmobile, snowshoe, or cross-country ski, even though the parking 
area and toilet facilities are provided by the Colorado Department of 
Transportation as a rest area for travelers on Interstate 70.
    Fee trailheads, whether developed or not, are being used to prevent 
free access to dispersed backcountry and undeveloped camping, and to 
charge for general access, in violation of the FLREA.
The Public Is Being Excluded From Fee Decisions
    We have grave concerns about the establishment and effectiveness of 
the Recreation Resource Advisory Committees that are mandated in the 
FLREA. These RRACs are composed of 11 members, mainly from various 
public land user groups and the outfitter/guide community. Their 
purpose is to advise the Secretaries of Interior and Agriculture on the 
implementation, expansion, increase, or elimination of fees.
    While the groups represented on the RRACs come from diverse 
interests, almost all are beholden to the Forest Service and BLM for 
continued access for their particular activity on public land. They 
must go along with agency fee proposals or face potential consequences 
that would be detrimental to the groups they represent. That gives the 
RRAC members little leeway in weighing various proposals concerning 
fees, and gives the agencies undue influence over the committees' 
recommendations.
    The Forest Service and BLM have shown no inclination to use the 
RRACs to bring the general public into decisions about fees. Both 
agencies instigated new fees and permits at many sites before any RRACs 
were established. Since choosing their committee members in 2007, the 
meetings have been publicized poorly or not at all. Meetings have been 
held by teleconference and have had their dates and locations changed 
on short notice. All meetings to date have been on weekdays during the 
day, and many have lasted two days, making it unlikely that members of 
the public can attend. Agendas are not always provided in advance, and 
minutes aren't posted until months after the meetings, if at all. Over 
500 new and increased fees have received RRAC approval in the past 
year, and hundreds more are on upcoming agendas. The RRACs are 
operating as rubber stamps for virtually all agency fee proposals.
    Whether or not the agencies can implement a particular fee should 
be determined by a clear, concise law that spells out exactly what is 
allowed and what is not. Before Fee Demo we had such a law--the Land 
and Water Conservation Fund Act--and advisory committees were 
unnecessary.
    These Recreation Resource Advisory Committees are appointed by the 
agencies, controlled by the agencies, and are obediently doing the 
agencies' bidding. As a vehicle for public participation, they are a 
sham.
Fee Excesses Make Criminals Out Of Citizens
    These documented excesses by the Forest Service and BLM cause 
special concern when viewed in the context of the severe criminal 
penalties for failure to pay FLREA fees. The law allows the agencies to 
charge either a Class A or Class B misdemeanor and specifies prima 
facie guilt for the driver, owner, and all occupants of a vehicle 
failing to display a required pass. Although first offenses are capped 
at a $100 fine, they still create a criminal record, and subsequent 
offenses are subject to penalties up to $100,000 and/or 1 year in jail. 
Despite the fact that many fees do not meet the requirements of the 
FLREA, a citizen who fails to pay a $5 fee to hike into a Wilderness 
Area or ride on an OHV trail, or who does pay but fails to display the 
pass correctly, or who loans their vehicle to a friend or family member 
who fails to pay, risks a permanent criminal record, heavy fine, and 
potential jail time.
    This policy of ``guilty until proven innocent,'' combined with the 
questionable legality of HIRA fees, deserves to be scrutinized by the 
judicial system, but that has so far been prevented from occurring. In 
the first HIRA criminal case to go to court, on the Coronado National 
Forest in Arizona, the defendant made public her intent to appeal her 
anticipated conviction for not paying the HIRA fee because she had only 
used an undeveloped area. The Forest Service dropped that charge just 
days before her trial, preventing the legal issues surrounding HIRAs 
from being explored by the courts. Since then, the Coronado and other 
Forests have been aggressively citing and prosecuting citizens for not 
paying fees that are specifically prohibited in the law, such as 
roadside parking fees, because the offense charged occurred within a 
HIRA.
Fee Programs Continue The Same As Under Fee Demo, Despite Increased 
        Restrictions In The FLREA
    The framers of the FLREA said that it would provide stronger 
protections for public access to public land than the Fee Demo program 
did, and compliance with the provisions of the FLREA was mandatory as 
of December 8, 2004. By now, the Forest Service and BLM should have 
dropped fees at thousands of Fee Demo sites. Instead, they continue to 
charge non-compliant fees nationwide. The BLM has not dropped a single 
one of their fee programs, and in fact shortly after the FLREA was 
enacted they added 38 new fee sites in six states, without following 
the requirements for public participation specified in the FLREA.
    In a June 2005 press release the Forest Service said,
        ``All Forest Service units that charged recreation fees under 
        the old fee demo program reviewed their current fee sites and 
        determined whether or not their sites meet requirements as 
        outlined under [the new law]. As a result approximately 500 
        day-use sites will be removed this year...''
    At that time we obtained the list of 480 sites referred to, and 
compared it to the list of over 4,500 Fee Demo sites the Forest Service 
had reported as in effect on December 8, 2004. Their claim that 480 
sites were being dropped because of the new law turned out to be 
unsupportable because more than half of those sites either were never 
listed as Fee Demo sites, were already closed, are within HIRAs that 
continue to charge fees to enter the larger area, will have fees 
reinstated as soon as planned improvements are completed, or for some 
other reason. Examples:
    <bullet>  Six ``dropped'' sites along the Paint Creek Corridor on 
the Cherokee National Forest in Tennessee had already been closed due 
to flood damage.
    <bullet>  Four ``dropped'' sites on the Humboldt-Toiyabe National 
Forest in Nevada eliminated their shoulder-season fees but retained 
fees during prime season when concessionaires operate them.
    <bullet>  The ``dropped'' Squire Creek trailhead on the Mt Baker-
Snoqualmie Forest in Washington had already been closed because its 
access road is washed out.
    <bullet>  For the Justrite Campground on Idaho's Payette National 
Forest, the Forest Service comments state, ``Fees were authorized for 
this site under [Fee Demo], with the intention of charging fees when 
improvements were made. They were not made, so fees were never charged. 
Site is being dropped from fee program for now.'' So it never did 
charge fees, but there are plans for it to become a fee site in the 
future.
    <bullet>  On the Bridger-Teton Forest in Wyoming, the Bridge and 
Lynx Creek Campgrounds were listed as dropped sites with the comment, 
``We stopped charging a fee here several years ago.''
    All of these were included in the 480 sites that the Forest Service 
claimed were Fee Demo sites that did not meet the new criteria. It is 
hard not to conclude that the Forest Service was deliberately 
misleading the public and the Congress with this list. Since 2007, the 
Forest Service and BLM have implemented at least 545 new and increased 
fees. There are now even more fee sites than existed under Fee Demo, 
despite the increased restrictions in the law.
The True Cost Of Fee Programs Is Impossible To Know
    The Federal Lands Recreation Enhancement Act says,
        ``The Secretary may use not more than an average of 15 percent 
        of total revenues collected under this Act for administration, 
        overhead, and indirect costs related to the recreation fee 
        program by that Secretary.''
    The first FLREA Triennial Report to Congress, issued for FY2005, 
openly admitted that the average cost of collection across all agencies 
was 18.7%, and the ``cost of collection'' category does not even 
attempt to capture administrative and indirect costs.
    The Forest Service and BLM are spending well over the law's 15% 
limit on fee program costs. Significant expenses, such commissions paid 
to private vendors for pass sales, and the expenses of the Recreation 
Resource Advisory Committees, are not accounted for as program 
overhead.
    Since FLREA replaced Fee Demo there has been no detailed financial 
information about fee programs reported to Congress. Under Fee Demo, 
reports were required annually and there was a line item in every 
annual report for every individual project, with year-by-year 
comparison data. Now reports are required only every three years and 
since project-level data is not required, it is no longer either 
reported or tracked.
    Examples of financial problems:
    <bullet>  In Colorado the Forest Service reports they had $1.5 
million in FLREA revenue in 2006 and are budgeting about $50,000 per 
RRAC meeting. They have had two meetings so far with a third scheduled 
for June. So the RRAC alone is costing at least 10% of fee revenue. The 
Forest Service is paying those costs out of appropriated funding and 
they are not counting them toward the 15% cap, even though the sole 
purpose of the RRAC is to make recommendations about fee programs.
    <bullet>  The Forest Service sells a great many passes through 
private vendors without accounting for the vendor commission as a cost 
of collection. The southern California National Forests sell 60% of 
Adventure Passes through vendors, who take a 10-20% commission. That 
commission is not included in their cost of collection.
    <bullet>  At Indian Peaks Wilderness on the Arapaho National 
Forest, 20% of overnight camping permits are sold through a private 
vendor who keeps 100% of the revenue, putting that program over the 15% 
limit before they account for a penny of in-house costs.
    <bullet>  In the Triennial Report, BLM reported gross fee revenue 
of $13.3 million with a 9.6% cost of collection. That was a dramatic 
drop in cost of collection from 15.8% in the previous report, but it 
was merely the result of re-categorizing some costs, not a true 
reduction, and did not reflect administrative overhead.
    <bullet>  The Government Accountability Office reported in GAO-06-
1016 that the federal land management agencies were carrying 
unobligated fee revenue of almost $300 million. In the Forest Service, 
107 units had an unobligated balance, and 63 of those, or 58%, had more 
than a year's worth of fee revenue in their unobligated fund. At BLM 56 
units had unobligated funds, and 26 of those, or 46%, had more than a 
year's revenue on hand.
    These problems--the lack of detailed and accurate financial 
information, shifting of costs arbitrarily from one category to 
another, paying fee program overhead from appropriated funding, and 
collection of fees far in excess of actual needs--make it impossible 
for either the public or Congress to know the true cost of federal 
recreation fee programs.
Despite Fees, Recreation Facilities Are Being Closed
    Under a Forest Service program originally called Recreation Site-
Facility Master Planning but since renamed Recreation Facility 
Analysis, developed recreation sites such as campgrounds and picnic 
areas are being rated as to their sustainability and marketability. 
Those that are not profitable (including unprofitable fee sites) will 
be either closed to public use or have their amenities removed and be 
downgraded to dispersed use sites. BLM's Cost Recovery policy calls for 
much the same thing.
    One Colorado Forest Service official was quoted in the press saying
        ``In our development sites we've been told they need to pay for 
        themselves, or we need to get rid of them.''
    The article goes on to say that the official,
        ``attributed the cuts to decisions made in Washington. ``Last 
        December, Congress passed fee legislation in the Federal Land 
        Recreation Enhancement Act,'' he said, adding that the local 
        district rangers were simply following federal orders. 
        ``They're being forced to do a lot of what they're doing 
        here,'' he said. ``As for doing nothing, we can't legally do 
        that. So there's no easy answer....''
    In fact, the FLREA has no provisions mandating that recreation 
facilities pay their own way in fees or be closed. That is an agency 
policy that is very unpopular with Americans and the agencies are 
trying to lay the blame for it at Congress's feet. These doctrines are 
currently being incorporated into Forest Travel Plans and Forest 
Management Plans and into the Resource Management Planning process in 
the BLM. While Congress has not vetted these policies, they are being 
applied nationally with enormous implications for how the FLREA will be 
implemented and for the overall availability of diverse recreational 
opportunities on our public lands.
    RS-FMP/RFA and Cost Recovery will certainly have a negative impact 
on local tourist economies as recreational opportunities disappear. 
They will restrict public access to public land despite the fact that 
the agencies still receive a vast majority of their funding from the 
taxpayer through Congressional appropriations. The implication is that 
most, if not all, recreational sites, areas, and uses must be 
profitable, through fees and permits, or they will be closed.
    These policies conflict with the language in the FLREA protecting 
the public's right to access dispersed areas of public land and to use 
minimally developed sites without the burden of fees. The doctrine of 
``fee or close'' represented by the RS-FMP/RFA and Cost Recovery leaves 
the agencies' ability to comply with the FLREA in question.
Fee Demo and the Federal Lands Recreation Enhancement Act Have Failed
    Americans are being double taxed because too much appropriated 
funding is diverted into administrative overhead, leaving local 
managers to raise their own budgets with fees. Visitation to public 
lands has declined, local economies are being harmed, low-income and 
working families are being excluded, and law-abiding citizens are being 
turned into criminals. Nature Deficit Disorder in children has become a 
national concern, and childhood obesity is an increasingly serious 
problem. Financial accountability has been lost and Congressional 
oversight has been weakened.
    I think we should be making it easier, not more difficult, for 
Americans to visit and enjoy their public lands. Low-income and working 
families shouldn't be faced with financial barriers if they want to 
take their kids for a hike in a National Forest. The health and 
spiritual benefits of outdoor activities and access to nature shouldn't 
be reserved only for those with cash. Studies have shown over and over 
that even a modest fee deters many Americans from using their public 
lands. That's not good for America and it's eroding public support for 
the land management agencies.
    Resolutions of opposition to Fee Demo and/or FLREA have been sent 
to Congress by the state legislatures of Colorado, Oregon, California, 
New Hampshire, Idaho, Montana, and the Alaska House of Representatives. 
Dozens of county and municipal elected bodies across the nation, as 
well as hundreds of organized groups, oppose fees for general access to 
National Forests and BLM lands or for recreation in undeveloped areas. 
Congressional action to remove these excessive fees and restore public 
access to public land will be applauded from coast to coast.
    Federal recreation fees began as an experiment, and the experiment 
has failed. Speaking on behalf of Western Slope No Fee Coalition and so 
many others who cannot be here today, I urge the distinguished Members 
of this Subcommittee to take decisive action to remedy the excesses and 
abuses that are occurring on our public lands. The only way to 
accomplish that, I believe, is to repeal the Federal Lands Recreation 
Enhancement Act and return to the policies that served America well for 
thirty years under the Land and Water Conservation Fund Act. A bill 
that would achieve that goal is pending now in the Senate and I hope a 
companion bill will be introduced soon in the House.
    Thank you for the opportunity to present these facts and 
observations. I am available for any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Thank you for your testimony.
    Let me now ask Mr. Richard Dolesh, Senior Director of 
Public Policy, National Recreation and Park Association to 
speak. Welcome and thank you for your appearance.

   STATEMENT OF RICHARD J. DOLESH, SENIOR DIRECTOR OF PUBLIC 
        POLICY, NATIONAL RECREATION AND PARK ASSOCIATION

    Mr. Dolesh. Thank you, Mr. Chairman and Members of the 
Subcommittee. The National Recreation and Park Association has 
had a long interest in the charging of fees on public lands and 
for the use and access of parks.
    NRPA and its members generally support the concept of fee 
charges for public lands and public parks for special uses and 
for specialized users. We believe that the public generally 
supports fee charges if they are reasonable, understood as 
providing special access for special users, and they believe it 
is reasonable if a portion of those fees goes back to support 
the public lands unit that generates the fees.
    As Fee Demo, and now the Federal Lands Recreation and 
Enhancement Act, have shown, in many instances, however, there 
are major inconsistencies in the management of these fee 
charges and the application of how the fees are charged. There 
has been public confusion and misunderstanding as to why 
certain fees are charged and what is done with the revenue.
    Speaking from the point of view of our members of our 
national organization, who broadly represent parks and 
recreation at all levels, and through the entire system of 
parks and recreation in America, there are a few key points I 
would like to make.
    First, we are constantly reminded by our members that the 
public generally does not know or care which agency owns the 
land and manages the land. Often, they do not know whether the 
lands are part of the Federal government or the state or local 
government. They merely want to have quality recreational 
experiences on our nation's public lands with their families 
and friends in the least-restrictive and most enjoyable manner 
that they can.
    The implication for the Federal Lands Recreation and 
Enhancement Act and the application of fees is that all of the 
Federal agency land managers need to give top priority to 
creating and maintaining a seamless system that does not 
confuse or alienate the public, which makes it affordable, and 
even welcoming, for the public to use and enjoy the lands.
    As I said, we believe that most people support the 
principle of paying a fee charge for specialized facilities 
within the public lands, such as campgrounds, boat ramps, and 
other special-purpose amenities that are truly extra or 
special, with the understanding that much of their fee will go 
to the operation and maintenance and upgrading of such 
facilities.
    However, many people find it difficult to understand and 
support paying for an entrance or access to public lands for 
which there is no special use or no special amenities, and they 
also have a hard time understanding and accepting they are 
being charged an extra fee of the site provides a bench for 
them to sit on, a bathroom or restrooms to use, or a parking 
space. It is also difficult for the public to accept the 
layering of additional fees or multiple charges by different 
agencies as Federal land unit boundaries are crossed.
    These are issues we encourage you to look at, frankly, as 
you conduct your oversight. We note the budgetary pressures on 
the Federal land managing agencies are crushing. As you know, 
we have been before you many times, earnestly advocating for 
appropriations and sufficient funds for operations, 
maintenance, and programming for public parks and recreation at 
all levels.
    We ask you to recognize that some of the agencies and units 
are so underfunded that they cannot complete their basic 
mission of providing free, quality recreational experiences to 
the American public, and, thus, despite the intentions of the 
act, to the contrary, they begin to see and use fees as a 
substitute in their budgets for replacing basic and necessary 
appropriations. We ask you to ensure that this does not become 
an unintended outcome of the act.
    In light of the original purposes of our Federal public 
lands, as expressed in the Land and Water Conservation Act, 
that they are intended to ensure and improve the health and 
vitality of America's public, we, therefore, ask you to 
question whether some of these policies justifying fee charges 
and fee increases are inhibiting, or even preventing, some of 
the very public who are most in need of healthful, outdoor 
recreation opportunities.
    We ask that you give special consideration to urban 
populations and minority communities, which are often most 
greatly at risk, and making them accessible and available, and, 
yes, there are waiver processes, but they are often cumbersome 
and difficult for people to get around, especially related to 
urban areas. We can truly make a difference. You can truly make 
a difference in improving individual and community health, as 
well as attracting people of color and of limited economic 
means, who might otherwise never choose to visit our nation's 
Federal public lands.
    I have some other comments that I will submit as further 
testimony for the record, but we really believe you need to 
address increasingly the decision that people make not to visit 
Federal public lands because of the impact and the cost of the 
fee charges.
    I would like to close with a couple of comments about the 
U.S. Army Corps of Engineers, who are not considered under the 
provisions of the Federal Lands Recreation and Enhancement Act.
    They operate 4,000 recreation areas that generate 370 
million public visits per year. I serve on an advisory 
committee with some other volunteers from national 
organizations from the Corps, and the Corps does not gain any 
benefit from recreation fees. They cannot distribute the new 
annual pass, the senior pass, the disabled access pass, and 
they should be covered under the Federal Lands Recreation and 
Enhancement Act.
    Because of this exclusion, the Corps cannot even sell a 
veteran's pass or allow its use by a veteran who presents it at 
an Army facility recreation area. So it would be a terrible 
disservice to America's military veterans.
    The situation can be averted by inclusion of the Corps 
under the broader authorizing legislation. The Corps should be 
added in order to implement the military pass, if that bill is 
to be enacted.
    Thanks for the opportunity to present these comments.
    [The prepared statement of Mr. Dolesh follows:]

   Statement of Richard J. Dolesh, Senior Director of Public Policy, 
                National Recreation and Park Association

    Good morning Mr. Chairman and members of the subcommittees. My name 
is Richard Dolesh. I am the Senior Director of Public Policy for the 
National Recreation and Park Association. I thank you for the 
invitation to present testimony on the Federal Lands Recreation 
Enhancement Act and issues related to charging of fees for access and 
use of federal public lands.
    By way of background, I have worked for 35 years in parks, 
recreation, and natural resources management, beginning with the 
Maryland-National Capital Park and Planning Commission, then with the 
State of Maryland Department of Natural Resources and most recently 
with the National Recreation and Park Association where I have been the 
Director of Public Policy since 2005.
    NRPA is a national non-profit 501(c)3 organization dedicated to 
advancing parks, recreation, and conservation efforts that enhance the 
quality of life for all people. NPRA's network of more than 21,000 
citizen and professional members represents public parks and recreation 
agencies at all levels of government. Most of NRPA's members come from 
local, urban, county, regional, and state park systems. NRPA's mission 
is to encourage the promotion of healthy lifestyles, to seek quality 
recreation opportunities for all Americans, and to promote the 
conservation of our nation's natural and cultural resources.
    The National Recreation and Park Association has had a long 
interest in the establishment and collection of fee charges for access 
to and the use of parks and public lands. NRPA and its predecessor 
organizations have been in existence for over 100 years, beginning with 
the establishment of the New England Association of Park Superintendent 
in 1898. NRPA was preceded by the American Institute of Park Executives 
established in 1921. In the 1960's, the National Recreation Association 
joined with the National Conference on State Parks and other 
organizations to form the modern NRPA.
    NRPA has had a long association with the tradition of fee charges 
for specialized recreational uses within parks and a solid 
understanding of the purpose and principles guiding fee charges for 
public use. In fact, many of the guiding principles for fee charges 
first in the LWCF authorizing legislation and then in Fee Demo and 
FLREA came from applications in local, urban, county, regional, and 
state parks.
    I would like to make several comments generally about the 
application of fees for the use and access to public lands, and then a 
few comments about application under FLREA.
    NRPA and its members generally support the concept of fee charges 
for public land and parks for special uses and specialized users. We 
believe the public generally supports such fee charges if they are 
reasonable, understood as providing special access for special users, 
and that a portion of the fees goes back to the public lands units that 
generate the fees.
    I would like to note that although virtually all the state park 
systems now charge ``entrance fees'' there is less general public 
understanding and acceptance of such ``entrance fees.'' This is a key 
consideration in the oversight of the Federal Lands Recreation 
Enhancement Act, namely the public understanding and acceptance of why 
the fees are being charged, where they are applied, to whom, and what 
is done with the revenue.
    As Fee Demo and now FLREA has shown in many instances, there are 
major inconsistencies of management of these fee charges and 
application of how the fees are charged.
    Speaking from the point of view of the members of our national 
organization which broadly represents a cross section of the American 
public and the entire system of parks and recreation in America, there 
are a few key points I would like to make about the public's perception 
and understanding of the fees charged for federal public land.
    First, we are constantly reminded that the public generally does 
not know--or care--which agency owns and manages the land. Often they 
don't know whether the public lands units are part of the federal 
government or the state or the local government. They merely want to 
have quality recreational experiences on our nation's public lands 
themselves and with their families in the least restrictive and most 
enjoyable way they can. The implication for FLREA and the application 
of fees for federal lands is that all federal agency land managers need 
to give top priority to creating and maintaining a seamless system that 
does not confuse or alienate the public, and which makes it affordable 
and even welcoming for the public to enjoy their public lands.
    As I said, we believe that most people support the principle of 
paying a fee charge for specialized facilities within public lands that 
they are using such as campgrounds, boat ramps and other amenities that 
truly are extra or special with the understanding that much of their 
fee charges support the operation and maintenance and upgrading of such 
facilities.
    Many people find it very difficult to understand and support paying 
for entrance or access to public lands in which they intend no special 
use. Also, they have a hard time understanding and accepting that they 
are being charged an extra fee if the site provides a place to sit, a 
bathroom, or a parking space. It is also difficult for the public to 
accept the ``layering'' of additional fees or the multiple charges by 
different agencies as federal unit land boundaries are crossed. These 
are issues that we encourage you to look at frankly as you conduct your 
oversight into the provisions and application of this Act.
    We note that the budgetary pressures on the federal land managing 
agencies are crushing. As you know, we have been before you many times 
earnestly advocating for adequate appropriations and sufficient funds 
for operations, maintenance, and programming. We ask you to recognize 
that some of the agencies and units are so under funded that they 
cannot complete their basic mission of providing free, quality 
recreational experiences on our nation's public lands to the American 
public.
    We ask you to also consider the that some of the reasons for 
justifying fee charges to federal public lands must be balanced with 
other important national priorities to improve the ``health and 
vitality'' of our citizens as called for in the original Land and Water 
Conservation Fund Act. We ask you to question whether some of the 
policies justifying fee charges and fee increases are inhibiting or 
even preventing some of the very public who are in most need of 
healthful, outdoor recreational opportunities.
    We note and ask that you give special consideration to urban 
populations and minority communities who are often at the greatest risk 
of chronic disease and obesity. Are federal lands fee policies truly 
making our public lands more available and accessible to these people 
most at risk, or are they preventing them from visiting and using our 
lands? Yes, there are waiver procedures, but we ask you to look 
fundamentally at the rationale for charging for access and use in urban 
areas and other lands that could truly make a difference in improving 
individual and community health and attracting people of color and 
limited economic means who might otherwise never choose to visit our 
nation's federal public lands and parks.
    We ask that you consider how we can better serve our members of our 
nation's armed forces, and give special attention to serving the needs 
of returning service members, especially those that have been wounded 
or who have become disabled. Your oversight of FLREA should include 
these important considerations.
    In addition, careful thought should be given the examining all the 
reasons for charging fees in relation to other efforts in marketing and 
promotion of our national public lands to the public who is 
increasingly making the decision NOT to visit national parks, wildlife 
refuges, and other federal public lands. We can tell you from anecdotal 
and some survey evidence that the public does appear to support 
reasonable increases in fees if services and quality are also 
increased, but clearly, high fee charges are a barrier to many people, 
especially young people and families, when making the choice to visit a 
national park versus a state, regional, or county park.
    Finally, I would like to close with a few comments about the need 
to include the U.S. Army Corps of Engineers in the provisions of FLREA. 
I have been serving on a volunteer recreation strategy advisory group 
to the Corps with a number of representatives from other national 
organizations looking at what needs to done to assist the Corps in 
bringing better recreational opportunities to the American public in 
its 4000 recreation areas that generate 370 million public visits per 
year.
    The Corps is not included in FLREA. The Corps cannot participate in 
the America the Beautiful Federal Interagency Pass program. Because of 
this, the Corps cannot sell or distribute the new Annual Pass ($80), 
Senior Pass ($10), Disabled Access Pass (free) and Volunteer Pass 
(based on hours volunteered).
    The Corps cannot retain recreation fee receipts to pay for 
operations and maintenance of its parks. The fee receipts go to the 
Federal Treasury. The Corps collects about $43 million a year in 
recreation fees. If the Corps was included in FLREA, about 80% of those 
fees would go back to the parks at which they were collected to help 
pay for operations and maintenance.
    The Corps should be part of the Federal agencies covered under 
FLREA so it can administer recreation passes and recreation fees 
consistent with the other land management agencies. Excluding the Corps 
from FLREA has resulted in public confusion, and angry visitors who 
cannot obtain the new passes.
    Because of this exclusion, the Army Corps of Engineers would not be 
able to sell or accept a Veterans pass when presented by a veteran at 
an Army recreation area. This would be a terrible disservice to 
America's military veterans. This situation can be averted by inclusion 
of the Corps of Engineers under the broader authorizing legislation--
the Federal Lands Recreation Enhancement Act. The Corps should be added 
to FLREA in order to implement the Military Pass, if the bill was 
enacted.
                                 ______
                                 
    Mr. Grijalva. Thank you very much, and let me now ask Mr. 
Bill Wade, Executive Council Chair, Coalition of National Park 
Service Retirees. Welcome, sir. Thank you.

 STATEMENT OF BILL WADE, EXECUTIVE COUNCIL CHAIR, COALITION OF 
                NATIONAL PARKS SERVICE RETIREES

    Mr. Wade. Thank you, Mr. Chairman. We appreciate the 
opportunity to be here. I represent over 650 members now of the 
Coalition. We have an accumulated 19,500 years of managing 
National Park Service programs and areas. I retired after 32 
years of permanent service, the last nine years of which I was 
the superintendent of Shenandoah.
    My comments are going to be focused almost exclusively on 
the National Park Service, of course. I think you framed the 
basic philosophy debate pretty well in your opening statement, 
but that debate has been going on in the National Park Service 
since, really, 1908, which is the time, as somebody pointed 
out, that the first fee was charged in the National Park 
Service.
    The debate has gone on, both internally and externally, as 
to whether or not people ought to have the opportunity to 
access or enter the nation's Premiere Heritage Areas without 
any charge, or whether they should have to pay extra for that 
price.
    Should it come out of their taxes, or should it be paid for 
separately?
    I think it is unfortunate that the agency representatives 
continue to tout this idea that the public overwhelmingly 
supports fees. My question is, what choice do they have? They 
go into National Parks, they go into forests, and they 
recognize that if they do not pay those fees, the deterioration 
of facilities, and so forth, is going to be even worse than it 
is.
    I would venture to say that if the public were polled on 
whether or not they believe that their basic taxes and that 
system ought to cover the cost of providing for essential core 
services on public lands versus whether they should pay fees, I 
think that the outcome would be significantly different. I 
think they would be willing even to pay a little bit more tax, 
in some way, rather than being saddled with these nitpicky 
fees.
    I am reminded about what the airlines are doing right now, 
and I think sometimes it resembles that.
    There is no question about the fact that the reason that we 
charge fees is because there are not enough appropriations. 
There is a budget deficit. In the National Park Service, the 
annual operating deficit is estimated to be over $800 million 
per year. There is an $8 billion-plus maintenance backlog.
    So there is no question about the fact that the fee revenue 
that comes back to the park is helping offset some of those. 
The question is, is that the right thing to do?
    Superintendents, unfortunately, are put into the position 
of having to raise money to offset these deficits, and I think 
that that is an unfortunate situation. It has led to a 
proliferation of fees and fee increases in National Parks, and 
some of the specific consequences that I want to point to--I 
have outlined a number of things in my written testimony, which 
has been submitted.
    Specific to the National Park Service, several of the 
consequences that I want to point out that I think need to have 
some resolution are there, in fact, now has been some public 
reaction to high entrance fees in some National Parks, and that 
has led to the fact that the Director of the National Park 
Service has recently frozen increases in entrance fees. People 
are now seeing that those are causing perhaps unintended 
consequences.
    We are particularly worried about the expansion of fees for 
interpretation and for permits. If you go to Mesa Verde 
National Park right now, you have to pay to get into the 
largest cliff dwelling in the world, largely one of the reasons 
that people go there, and the reason that they have instituted 
the interpretative fees is because that is the only way they 
can afford to hire more staff in order to give the interpretive 
tours.
    It seems to me that that is a public entitlement, a core 
responsibility, of the National Park Service to provide those 
kinds of things.
    Similarly, if you go to Mammoth Cave National Park, you 
cannot go in the cave, period, without paying a fee of some 
sort, ranging from $3 a person on up.
    One of the other outcomes of the budget deficit is that now 
more and more concessionaires are providing interpretive 
programs in parks, and, of course, they are charging for them. 
So, again, there is this problem of the fact that 
interpretation and education, seen by most of us as one of the 
primary purposes, one of the primary things we ought to be 
providing the public, is now a fee situation, and I think it is 
causing some people just simply not to take advantage of those 
situations.
    The idea of discriminating against low-income and perhaps 
some minority populations has been mentioned.
    In addition to that, I think there is a host of confusing 
and conflicting situations out in many National Parks that have 
to do with things like parking, transportation systems, 
backcountry permits, and so forth. When you go into a park, are 
you going to have to pay for parking or not? It is 
inconsistently applied across the Service.
    As I say, I have submitted some other things in my written 
testimony, and I would be happy to answer any questions at the 
end of the panel's presentations.
    [The prepared statement of Mr. Wade follows:]

      Statement of J. W. ``Bill'' Wade, Chair, Executive Council, 
              Coalition of National Park Service Retirees

    Mr. Chairman and other distinguished Members of the Subcommittee, 
thank you for holding this hearing and thank you for inviting me to 
express my views, and the views of our Coalition of National Park 
Service Retirees on the important topic of fees in the National Park 
System. I retired eleven years ago from the National Park Service after 
a 32-year career, including serving the last nine years of that career 
as the Superintendent of Shenandoah National Park. I am now the Chair 
of the Executive Council of the Coalition of National Park Service 
Retirees.
    The Coalition now consists of more than 650 individuals, all former 
employees of the National Park Service, with more joining us almost 
daily. Together we bring to this hearing over 19,500 years of 
accumulated experience. Many of us were senior leaders and many 
received awards for stewardship of our country's natural and cultural 
resources. As rangers, executives, park managers, biologists, 
historians, interpreters, planners and specialists in other 
disciplines, we devoted our professional lives to maintaining and 
protecting the national parks for the benefit of all Americans--those 
now living and those yet to be born. In our personal lives we come from 
a broad spectrum of political affiliations and we count among our 
members six former Directors or Deputy Directors of the National Park 
Service, twenty-three former Regional Directors or Deputy Regional 
Directors, twenty-eight former Associate or Assistant Directors and 
over one hundred and fifty former Park Superintendents or Assistant 
Superintendents.
BACKGROUND:
    In the last two decades, debate on fees in the National Park System 
has gradually moved away from whether there should be fees and towards 
a discussion of what those fees should be. There have been many 
recurring themes in this debate. Those who speak against fees call them 
a double tax on the public, with visitors to the parks paying fees on 
top of the taxes paid by the population at-large. The opposing argument 
is that park visitors derive an additional benefit from actually going 
to the park and should therefore pay some portion of the costs.
    Fees in national parks have been in existence for a long time--
since 1908, in fact (see Timeline in Appendix A). Because of that, it 
would be easy to continue to ``take them for granted'' and assume that 
they should be maintained, or even be expanded.
    We don't necessarily believe that to be in the best interests for 
the American people, nor for the National Park System. In fact, we 
believe that the current fee system and structure is out of control, 
complicated and inequitable.
    We hope to raise some new thoughts about fees that this 
Subcommittee and other entities can consider as part of an entire 
process of preparing our National Park System to be managed in the best 
possible way as the National Park Service enters its second century 
eight years from now.
CURRENT CONCERNS ABOUT FEES
The Dilemma of Entrance Fees
    Many arguments have been made against charging entrance (access) 
fees at public lands. One argument is that fees could have implications 
for public political support for conservation because fees introduce an 
exclusionary element to park visitation and those who cannot afford to 
pay could adopt a negative view of public lands. A similar view has 
also been presented by those who believe that public lands should be 
treated as pure public goods and therefore should be both non-exclusive 
and non-rival. They argue that charging fees goes against the very 
principles on which public lands were founded. They believe that parks, 
wildlife refuges, and the other public lands are an amenity that a 
civilized nation should provide to its citizens freely for all to 
enjoy.
    Some suggest that a visit to a site with a low or no entrance fee 
might induce great respect. People may assign a significantly high 
value on the resource or experience if they reason that society has 
elected to subsidize it entirely because of its importance. Some of our 
most valued icons: the Liberty Bell and the Lincoln Memorial, for 
instance, are free to visitors. But providing something for free can 
open the door to a moral hazard. Some visitors won't have a stake in 
the well being of the site. And lacking a barrier to participation 
(e.g. a fee), there is a chance that some visitors' attitudes will lead 
to negative externalities. Conversely, there is a belief that if a fee 
is charged, visitors will perceive they have more freedom, ownership, 
privileges, or rights; leading some to believe they can do whatever 
they wish at the site, including the abuses such as graffiti, 
littering, and vandalism. Some believe that these abuses may 
increasingly occur because visitors aren't paying for their use of a 
public facility; that is, ``deadbeat'' visitors will not be filtered 
out.
    What we do know is that entrance fees in many NPS areas have 
escalated significantly in the past few years, and in a number of areas 
are now as high as $25 per car, for those who don't posses the 
interagency annual pass. We also know that there has been recent public 
opposition to this continuing escalation (e.g., in Yosemite National 
Park last year) and that earlier this year, the NPS Director issued a 
memorandum freezing entrance fees at the 2007 levels and not 
implementing any new entrance or expanded amenity fees in 2008 (with a 
few exceptions). The public is making its concerns about fees in 
national parks known.
    The issue of whether or not there should be entrance fees to 
national parks is a philosophical one, but one which deserves public 
dialogue to resolve as we approach the Centennial of the National Park 
Service in 2016.
    To the extent that entrance fees do exist, they are subject to many 
other considerations, some of which are expanded on below.
Fees Discriminate
    Without a doubt, price discriminates. Offer something at no cost, 
and participation will rise (generally). Offer something at a high 
cost, and participation usually declines. So in principle, if you want 
to encourage participation, offer a low cost--or none at all. While an 
NPS study in 2001 showed that 80 percent of visitors believe that fees 
are priced correctly, other research argues that fees can moderate park 
use, usually in a negative way.
    We believe it is possible that the current fee structure accounts, 
to some extent, for why visitation to national parks has declined 
slightly over the past decade. More worrisome is the high probability 
that low income citizens (especially minority populations and young 
families) are choosing not to visit parks or participate in certain 
activities (such as fee interpretation) in parks. Often these are the 
very citizens that would benefit most from increased education about 
America's heritage areas and the importance of protecting them and 
using them wisely.
    Another example of fee discrimination is permits for ``river 
running'' in places like Grand Canyon National Park and Dinosaur 
National Monument. Permit fees for these places are burgeoning and in 
some cases are quite complex and complicated. Superintendents have 
resorted to these fees to ``manage the river program'' in these parks, 
in the absence of sufficient appropriations to do that job. There is no 
question that only the ``well-heeled'' can afford these experiences.
The Federal Lands Recreation Enhancement Act (FLREA) and the America 
        the Beautiful Pass
    FLREA created an interagency national pass called ``America the 
Beautiful--the National Parks and Federal Recreational Lands Pass'' 
(also known as the ``America the Beautiful Pass'' or simply ``ATB'') 
which covers Entrance and Standard Amenity Fees for all Federal 
recreational lands. Currently, the Annual Pass sells for $80, but 
variations are available at a discounted rate. The ATB significantly 
increased the cost of the annual fee to visit national park units, with 
little or no more revenue coming to the national parks.
    FLREA also contributes to recent political efforts to making the 
National Park Service more ``homogeneous'' with other federal land 
management agencies. It not only did away with the National Parks Pass, 
but it did away with the distinctive ``free day'' for visiting national 
parks--traditionally on August 25, the date the NPS was established--in 
favor of a free day on ``public lands day.'' This has been yet another 
in the many political efforts evidently aimed at minimizing or 
diminishing the ``specialness'' of the National Park Service and 
System.
Fees Are Being Used More and More to Offset Reduced Appropriations
    Despite the fact that there has been strong sentiment in the 
Congress that fees would augment, rather than replace appropriations, 
that sentiment has not been realized. Since 2002, the inflation-
adjusted appropriations for the NPS have gone down by over 20%.
    As public service as a category of civil society has been degraded, 
diluted, outsourced, and corporatized the National Park Service, 
starved of public funding, like most agencies and institutions of 
government these days, must either compromise its service to the public 
and its management and protection of its national treasures, natural 
and cultural, or it must offset these deficiencies with other sources 
of funding.
    To try to ``make ends meet,'' Superintendents have little choice 
but to rely more and more heavily on fees to meet operational 
obligations in parks.
    More and more, Park Superintendents are being put in the 
uncomfortable and unacceptable position of having to ``raise'' money, 
through fees and private donations to keep even minimal park operations 
funded. The result is a steady (sometimes drastic) increase in fees and 
an increase in the types of fees collected in parks. As a consequence, 
fees are proliferating and visitors are being charged for activities, 
including interpretive programs that are mission-related programs. One 
of our members describes this problem:
        Straightforward, accurate, and unbiased explanation of a park's 
        resources, especially those constituting its reason for being, 
        is fundamental to the NPS mission and one of the things that 
        sets the NPS apart from other agencies. But why do we do it? 
        It's not for entertainment, although it is no sin to make an 
        interpretive presentation entertaining. We do it I think 
        because we see a payback whereby visitors, once they understand 
        the value and importance of park resources will treat them with 
        greater respect and even pass on the information to friends and 
        family after they've left the park. It is really the public 
        face of resource protection. Placing a fee on such programs 
        creates a disincentive to attend them and thus a hindrance to 
        the National Park Service to carry out its mission while 
        dividing visitors into ``haves'' and ``have-nots,'' (or 
        ``informed'' and ``not informed ''). It would seem similar to 
        sending kids to primary school, then charging them for places 
        to sit in class. Placing fees on programs seems to me also to 
        be a step towards entertainment and away from education. Once 
        we begin charging fees for interpretive activities we have set 
        the table for the private-sector entertainment gang to sit. 
        When that happens, the market mentality can take over with 
        ``interpretive'' programs that don't fill the seats being moved 
        aside for programs that do and we drift away from talks on the 
        geology of Grand Canyon to who knows? Maybe a musical comedy 
        about Brighty of Bright Angel.
    Another member raises a different problem:
        The increasingly elaborate visitor centers and other 
        developments--now almost always being funded at least in part 
        by money from a ``private partner''--in the name of 
        interpretation (the latest extravaganza at Gettysburg being one 
        of a string) not only keep the visitor out of the park in favor 
        of NPS-provided entertainment in a building; but chasing every 
        latest display and electronic fad is expensive, and so invites 
        charging a fee.
    The National Park Service Guideline (Director's Order #22) on 
Recreation Fees states (in Section 5.2): ``Section 3(g) of PL 91-383 
(16 USC 1a-2(g) allows parks to charge fees (known as 1a-2(g) fees) for 
products and services that are directly related to the park's living 
exhibits and interpretive demonstrations.'' [Emphasis added.] 
Subsection ``a'' of that Section further states: ``The 1a-2(g) 
authority may not be used to charge fees for core interpretive tours, 
including cave tours, historic home tours, and other programs that are 
not related to living history exhibits and interpretive 
demonstrations.''
    Yet some parks seem to be in violation of these guidelines. 
Examples:
    <bullet>  In Mesa Verde National Park (where there is a $10 per car 
entrance fee), self-guided tours are offered free of charge in two of 
its cliff dwellings. Yet to tour three others, including the most 
famous and largest cliff dwelling in the world--Cliff Palace--you must 
go with a ranger-guided tour and pay $3 per person.
    <bullet>  In Mammoth Cave National Park (where there is no entrance 
fee), fees ranging from $5 to $48 per person are charged for all cave 
tours.
    <bullet>  In Apostle Islands National Lakeshore, a minimum fee of 
$3 to $5 per person is charged for any interpretive program the park 
offers.
    Certainly no one can dispute the fact that the archeological cliff 
dwellings in Mesa Verde and the cave in Mammoth Cave are the very 
purposes for which these parks were established; and therefore are 
central to the mission of those parks. Why should visitors have to pay 
fees to experience these core resources?
    Aside from the fact that these fees evidently violate the NPS's own 
guidelines, in the cases of Mesa Verde and Apostle Islands (and others 
in the System) at least, the fees were initiated for one reason--to 
generate revenue to supplement the parks' diminishing operational 
budgets so they could hire additional rangers to protect the parks 
resources and provide for these tours.
    Another concern arises over the fact that in some parks, 
concessioners are now providing interpretive programs. For example, in 
Yosemite National Park, a substantial number of the total interpretive 
programs given each day are those given by the park concessioner. 
Visitors must pay for these programs. There seems to be a corresponding 
reduction in the numbers of interpretive programs provided by the NPS 
in these areas.
Fee Revenue Inequity
    Recalling that parks are allowed to keep 80 percent of the revenue 
they collect from Entrance Fees and Expanded Amenity Fees. The 
remaining 20 percent is deposited into a ``Servicewide Pot.'' All units 
of the NPS compete for this ``20 percent money.'' We believe this 
policy to be unjust to the public and the agency itself.
    Equity should be a critical consideration in making fee and pricing 
decisions. A purely equitable system would empower all parks to 
establish, operate, and maintain (i.e. supply) public services and 
facilities at levels that match public consumption (i.e. demand). All 
else being equal, the opportunity available to Park ``A'' to meet 
demand should be equitable to the opportunity available to Park ``B'' 
to meet the same demand.
    We are not arguing that every park should receive the same amount 
of money. Nor do we suggest that fee revenues should be prorated and 
distributed across the System. However, we do argue that an inequity 
occurs when a park's eligibility to compete for funding is restricted 
because of reasonably unavoidable physical or political barriers. 
Examples can help illustrate this concept:
    <bullet>  At Delaware Water Gap National Recreation Area, too many 
visitor access points make it infeasible to collect entrance fees.
    <bullet>  A deed restriction at Great Smoky Mountains National Park 
prohibits the collection of an entrance fee. This represents a 
reasonably unavoidable political barrier.
    <bullet>  The decision to forgo collecting fees at Palo Alto 
Battlefield National Historic Site has been made by NPS administrators 
because of managers' perception of limited amenities and desire to 
induce visitation.
    Case-by-case, it is extremely challenging to determine if park 
managers have reasonable control over physical or political 
circumstances that would allow/prevent fee collection. Palo Alto 
provides an example where politics and geography are certainly factors 
that have contributed to this decision, but only in part. The National 
Park Service could institute a fee if it wanted to. This, however, is 
not necessarily true for all non-fee parks. Due to circumstances beyond 
the control of park management (circumstances which, one might argue, 
actually contribute to its national significance), such parks are 
hampered in their ability provide as secure and as robust funding that 
other fee-collecting parks can provide.
    We cannot always judge if the political and physical barriers are 
reasonably unavoidable or not. We believe it is inequitable to 
implement a fixed ``80/20 rule'' based solely on the question of 
whether a park collects fees or not. Ideally, parks would lose the 
ability to compete for fee revenue as they increasingly (and 
voluntarily) opt out of fee collection.
Confusion and Conflicts
    Parking fees--If you drive a car to Apostle Islands National 
Lakeshore, Gateway National Recreation Area, Christiansted National 
Historic Site, or certain other parks, you will have to be prepared to 
pay for parking--or will you? Some parks have designated parking fees 
as a type of entrance fee, meaning that owners of the America the 
Beautiful Pass (or other entrance pass) do not have to pay anything 
extra. But, other parks define them as Expanded Amenity Fees, so you 
would have to pay regardless of having a pass. Moreover, it's up to the 
park to decide if they will observe the 50 percent discount on Expanded 
Amenity Fees entitled to holders of the Senior Pass or Access Pass. To 
further complicate matters, many concession-operated facilities charge 
for parking. Should concessioners be expected to waive their parking 
fees for those having annual park entrance passes? Should they be 
required to offer the 50 percent discount for the Senior Pass or Access 
Pass? If so, why aren't concessioners required to accept these passes 
and discounts for their other services? Then again, is it fair for 
visitors to experience different parking fee rules at different parks?
        An Example: Mount Rushmore National Memorial is prohibited by 
        legislation from charging an entrance fee. But it's almost 
        impossible to visit there without paying the $10 ``special 
        use'' parking fee. Because it is not an entrance fee, the 
        America the Beautiful Pass, National Park Passes, Golden Eagle 
        and Golden Age Passports are not accepted.
    Transportation fees--currently there are ten parks charging 
transportation fees. These fees are customarily included in entrance 
fee prices. This approach of conjoining entrance and transportation 
fees has caused some conflict among decision-makers in the National 
Park Service. Technically, holders of the America the Beautiful or 
other annual passes are only exempt from paying entrance fees, not 
other fees. Should they pay the difference to cover the Transportation 
Fee amount? But if such passes are honored for both fees (as current 
NPS policy states), doesn't this provide a disincentive for parks to 
sell annual passes?
        An example: visitors to Zion National Park purchasing a $25 
        seven-day entrance pass are actually paying two fees: a 
        Recreation Fee (park keeps 80 percent) and a Transportation Fee 
        (park keeps 100 percent). Park managers decide year-by-year 
        what percentage of the $25 will be considered a Transportation 
        Fee, earmarked exclusively to offset visitor transportation 
        costs.
When Should the NPS Charge Fees?
    We believe that, protecting and providing for public enjoyment 
national parklands--at the basic level--is a public service in its 
purest form. To that end, it is neither fair nor desirable to charge a 
user fee to any individual or group for that basic service. Just as 
Americans deserve security of the homeland, citizens have a right to 
the preservation of their cultural and natural heritage. Likewise, to 
offer opportunities for resource protection and visitor enjoyment at 
minimally reasonable levels, it is necessary to provide basic 
infrastructures at no cost that support critical activity such as:
    <bullet>  essential access (e.g. roads, trails),
    <bullet>  essential human comfort (e.g. restrooms, shelter, water),
    <bullet>  essential visitor information and education (e.g. basic 
orientation, interpretive programs), and
    <bullet>  essential public safety services (e.g. safety education, 
law enforcement, emergency response).
    Another absolute exists, as well. When visitors have weddings, 
parties, and other appropriate private events in parks; or provide 
authorized public services for profit, the participants receive 
exclusive benefit--a reflection of the classic definition of a private 
service. Therefore, we see the need for private beneficiaries to pay 
for the provision of such services in full.
    Of course, the NPS often provides a variety of merit services that 
benefit both private individuals and society at the same time (and 
reasonably so). Therefore, park amenities not essential to basic 
resource protection and basic visitor enjoyment may warrant subsidy 
from individual users and the community alike. For example, non-
essential amenities such as campgrounds, launch ramps and public 
showers are not critical to park management in absolute terms. Any unit 
of the National Park System lacking one or all of these features would, 
in fact, still be found to be in compliance with the Organic Act. It is 
logical to expect the National Park Service to provide these services 
and facilities in some parks; but logic also suggests that the burden 
of providing them should be shared between society and individual 
users.
SUMMARY
    The issue of entrance (access) fees to units of the National Park 
System should receive national dialogue between now and the National 
Park Service Centennial in 2016.
    Provisions of the Federal Lands Recreation Enhancement Act that 
lump the National Park System in with other ``public land management 
agencies'' should be rescinded.
    Fees should never be allowed to discriminate against the 
involvement of low-income visitors to national parks.
    Fees should not be charged for core mission-based interpretive 
programs in national parks.
    Confusion and inconsistencies in the NPS fee program should be 
eliminated.
    Above all else:
        The Organic Act established a binding legal framework that 
        mandates fundamental standards for the protection of the 
        National Park System. Therefore, the use of base 
        appropriations--as opposed to visitor-dependent revenue--should 
        be the primary means of maintaining these units. Fees collected 
        should not have to be collected to offset or reduce funding for 
        national parks that should be made available through 
        appropriation.

        The chronic under-funding of the National Park Service is not 
        now and has not been for past 50 years a matter of money--it is 
        a matter of priorities! Let's put the $2.4 billion current 
        budget into perspective. It amounts to less than 0.002% of the 
        president's 2009 proposed budget.
    Let's compare it to Department of Defense budget of $550 billion.
    <bullet>  One B-2 bomber costs $2 billion. Do you really think the 
American people would notice if this country's military industrial 
complex held one less bomber than it does today and that those funds 
were transferred to the National Park Service?
    <bullet>  The President and Congress took less than ten minutes to 
determine that the economy needed an economic stimulus package totaling 
$150 billion. Do you think many would have complained if it had been 
$148 billion? And the resulting $2 billion saving had been given to the 
National Park Service?
    <bullet>  The NPS relies on the fee program--a program that 
generates $150 million annually--as though it were a lifeline. No small 
figure, we grant you, but a figure that should be simply added annually 
by Congress to the Service's operating budget. Perspective: The Osprey 
aircraft developed by the United States Marine Corps cost $110 million 
each! They are current being sent to Iraq even though military analysts 
believe they don't work as designed. Here's the punch line: several 
branches of the military are planning to purchase 400 of these flawed 
aircraft--at a total cost of $44 billion!
    It's not a matter of money; it's a matter of priorities.
                                 ______
                                 

                               Appendix A

              History of Fees in the National Park System

    <bullet>  1908 Mount Rainier begins issuing auto permits. Other 
sites, including Yellowstone and Yosemite, soon follow.
    <bullet>  1917 Most fees for auto permits are abolished or greatly 
reduced.
    <bullet>  1918 Congress mandates that all fee revenues will be 
deposited into the Treasury account.
    <bullet>  1927 An amendment added to the 1928 Interior 
Appropriations bill would require the NPS to use a yearlong, all park 
auto permit costing two dollars. The amendment was ultimately removed.
    <bullet>  1938 A fee prohibition is enacted at Mount Rushmore.
    <bullet>  1939 Fee structures expand to include not only additional 
auto permit fees but some motorcycle permit fees, parking fees, and 
guide service fees.
    <bullet>  1953 Pressure for parks to raise more revenue leads to 
higher fees and the sale of 15-day and annual passes to individual 
parks.
    <bullet>  1965 Land and Water Conservation Act is enacted. The 
Golden Eagle pass is established.
    <bullet>  Prohibition on campground fees is abolished.
    <bullet>  1968 Legislation is enacted to repeal uniform fee 
structure. This eliminates the Golden Eagle pass and allows each agency 
to establish individual fee structures. Repeal is extended to 1971.
    <bullet>  1972 New congressionally mandated fee structure 
established. Entrance fees are allowed only at those NPS sites 
designated by DOI and at National Recreation Areas administered by 
USDA. The Golden Eagle pass is reinstated. The Golden Age Pass is 
established.
    <bullet>  1974 The Forest Service stops charging entrance fees, 
leaving the National Park Service as the only agency charging them.
    <bullet>  1977 NPS Director Whalen proposes changes in the system's 
fee structure for FY 1980 with the goal of establishing a more uniform 
fees.
    <bullet>  1978 NPS begins charging fees on some visitor 
transportation systems.
    <bullet>  1979 A freeze on all NPS entrance fees is enacted.
    <bullet>  1981 Golden Access Pass is established. Fee revenues are 
deposited into the Land and Water Conservation Fund instead of the 
Treasury. Funds can only be expended for land acquisition and state 
planning and development grants.
    <bullet>  1986 Higher entrance fees are enacted.
    <bullet>  1996 Fee Demonstration Program begins.
    <bullet>  2004 Federal Lands Recreation Enhancement Act is passed.
                                 ______
                                 

                               APPENDIX B

                    Fees in the National Park System

    Generally, fees charged in units of the National Park System can be 
organized into four types:
Recreation Fees
    The most common type of fees that visitors experience are 
Recreation Fees--those that are collected for things like entering a 
national park or going on a guided tour. The vast majority of 
Recreation Fees fall under the Federal Lands Recreation Enhancement Act 
(FLREA), which authorizes four kinds (only three applicable to the 
NPS):
    <bullet>  Entrance Fees
    <bullet>  Expanded Amenity Recreation Fees--for the NPS, charged in 
addition to an Entrance Fee or by itself for specific or specialized 
visitor facilities, equipment, or services.
    <bullet>  Special Recreation Permit Fees--charged in connection 
with the issuance of permits for certain specialized recreation 
activities and events (not currently used by NPS).
    Recreation Fees also include special Interpretive Fees, which are 
charged for services and products related to interpretive 
demonstrations and living history programs. Because the authority is 
found in 16 USC 1a-2(g), they are nicknamed ``1a-2(g) Fees.'' Canoe 
trips, night hikes, and cave tours sometimes constitute a 1a-2(g) fee.
Transportation Fees
Special Use Fees
Commercial FeesA
                                 ______
                                 

                               PPENDIX C

                      Where Does the Fee Money Go?

    The reason for--or perhaps the result of--having so many fee types 
allows revenues to be used in various ways, under various rules. 
Proceeds can remain in the park where they were collected, be deposited 
into a ``Servicewide Pot'' which any NPS unit can apply to use, or be 
allocated to the management and administration of NPS Fee Program 
Offices.
    <bullet>  Entrance and Expanded Amenity Fee Revenue--Park receives 
80 percent; Servicewide Pot receives 20 percent (Unless the park 
collects less that $500,000 in gross revenue, in which case the park 
keeps 100 percent).
    <bullet>  America the Beautiful Pass Revenue--Fee Program 
administration receives 10 percent; remaining balance shared between 
park (70 percent) and Servicewide Pot (30 percent).
    <bullet>  Interpretive Fee Revenue--Park receives 100 percent.
    <bullet>  Transportation Fee Revenue--Park receives 100 percent, 
but can only be used to recover the price of providing a transportation 
system.
    <bullet>  Special Use Fee Revenue--Park receives 100 percent, but 
can only be used to recover the cost of overseeing the special use.
    <bullet>  Commercial Fee Revenue--Park receives 100 percent, but 
can only be used to recover the cost of overseeing the commercial use.
                                 ______
                                 
    Mr. Grijalva. Thank you, sir.
    Let me now invite Mr. Peter Wiechers for your comments and 
your testimony, sir. Welcome.

       STATEMENT OF PETER WIECHERS, KERNVILLE, CALIFORNIA

    Mr. Wiechers. Thank you. Mr. Chairman and distinguished 
Members of the Subcommittee, good morning. My name is Peter 
Wiechers. I have been kayaking the Kern River since the time I 
was a younger man, more than 27 years ago.
    In the 1980s, I managed one of the local rafting companies, 
Kern River Tours.
    For the past 13 years, I have been employed as a history 
and science teacher at Camp Erwin Owen, a residential boys' 
juvenile probation camp, located across the river from where I 
live in Kernville, California.
    The accompanying written testimony is a chronology of my 
attempts, over the last 10 months, to participate, as a 
kayaker, in the program previously known as ``Kern River Rec. 
Fee Demo.'' Disappointingly, my efforts have been thwarted by 
officials of the Sequoia National Forest at every turn. I have 
been stonewalled, ignored, misled, vilified, and lied to on the 
following four accounts.
    Number One: For a period extending back many years beyond 
the past 10 months, Sequoia National Forest officials have 
carried out planned, coordinated actions to deny public 
participation and oversight in their Kern River Recreation Fee 
program.
    Number Two: Financial accounting and reporting done by 
Sequoia National Forest officials, with regard to their Kern 
River Recreation Fee program, can best be described as 
fragmented and confused. In the words of Ms. Mary Cole, Sequoia 
National Forest landscape architect, ``Our financial accounting 
system is a nightmare.''
    Number Three: The Sequoia National Forest, in collusion 
with the California RRAC, a Federal agency set up by the United 
States Forest Service, not a state agency, has denied 
meaningful possibilities for public participation in the 
California RRAC program. This includes incorrect and confusion 
public notification, the withholding of information, including 
important evidentiary information, and the withholding of 
meeting minutes.
    Number Four: The planned and coordinated attempts by 
officials of the Sequoia National Forest to mislead the 
residents of the Kern River Valley in an effort to impose 
massive public lands access fees in the form of something that 
they call a ``HIRA,'' the linchpin of this scheme being the 
withholding, as long as possible, by Sequoia National Forest 
officials of the proposed fee area maps.
    Well over 100 Kern Valley residents arrived at the HIRA 
meeting in Kernville on June 5, 2008. Sequoia Forest officials 
were visibly surprised. They had planned for a much, much 
smaller gathering. The room had been prepared with a total of 
two chairs, just two chairs.
    At first, Sequoia officials tried to run the meeting like a 
high school science fair or a shopping excursion to Ikea. The 
annoyed residents were supposed to file through, a few at a 
time, in small groups, then quickly file out. It did not work 
this way.
    The crowd demanded a meeting. The district ranger took the 
initiative, stood on one of the two chairs, and began to speak. 
The questions came out in rapid fire.
    What have you done with the campground fees you have been 
collecting at the lake for the last three years?
    Why are the campgrounds just as filthy today as they were 
when you started collecting fees three years ago?
    What have you done with the money?
    Where are your business plans?
    Why are you doing this?
    The answer to all of these questions, and many more, was, 
they did not have an answer.
    Leaders of the local chambers of commerce denounced the 
huge HIRA map that was prominently displayed. ``That was never 
shown to any of us,'' one of them told the crowd.
    This continued unabated for more than one hour. Near the 
meeting's end, I stated aloud, ``I have been attending these 
meetings since August of last year, and never was there any 
indication at any of them that there would be these HIRAs, 
these fee areas, of such magnitude.''
    I then posed a question to Sequoia officials: ``How did you 
come up with this?''
    The district ranger, Mr. Rick Larsen, pointed an accusing 
finger and proclaimed, it was because of you, Peter. You did 
it.
    At Erwin Owen Boys Camp, where I teach history and science, 
a boy who fails his program is returned to Kern County Juvenile 
Court for another appearance before the judge. Usually, this 
results in additional time served at a more restrictive 
detention facility. The expression the boys had given to this 
process is ``going down backwards.''
    Mr. Chairman and distinguished Members of the Subcommittee, 
officials of the Sequoia National Forest have now failed their 
program. Thank you.
    [The prepared statement of Mr. Wiechers follows:]

    Statement of Peter Wiechers, P.O. Box 131, Kernville, California

    Dear Mr. Chairman and Distinguished Members of the Subcommittee:
    My name is Peter Wiechers. I've been kayaking and rafting on the 
Kern River for more than 27 seasons. In the late 1980s into the early 
1990s I managed one of the local rafting companies, Kern River Tours. 
In 1990, I completed my Master's thesis--an economic study of the 
commercial rafting business on the Kern River--at California 
Polytechnic State University, San Luis Obispo. For the past thirteen 
years I have been employed as a History and Science teacher at Camp 
Erwin Owen, a residential boys' juvenile probation camp near Kernville, 
California.
    The following testimony is basically a chronology of my attempts 
over the last ten months to participate, as an interested member of the 
general public, in the program previously known as Kern River Rec Fee 
Demo. Prior to this--since about the year 2001, and to no avail--I did 
make periodic (yearly or twice yearly) requests of the Sequoia National 
Forest for public participation in this program.
    My efforts to be informed about, and provide input into, Forest 
Service decisions that directly affect my recreational use of the 
Sequoia National Forest have been thwarted at every turn. I have been 
lied to, misled, vilified in public, marginalized, and ignored.
    In communication with users of other National Forests, I have 
learned that my experience, far from being unique, is actually typical. 
Since the Forest Service was given the authority to charge and retain 
recreation fees, their attitude toward the public has changed 
profoundly. I first experienced this, under Rec Fee Demo more than ten 
years ago. Instead of being stewards of our public lands, they now act 
as if they are the owners. The public is treated as mere paying 
customers, instead of the owners that they are.
    My testimony will demonstrate the following:
    1.  The ongoing, coordinated and planned actions by officials of 
the Sequoia National Forest to deny public participation/oversight in 
their recreation fee program.
    2.  Fragmented, incomplete, and confused financial accounting/
reporting of the Sequoia National Forest with regard to their 
recreation fee program.
    3.  Denial of meaningful possibilities for public participation in 
the California Recreational Resources Advisory Committee program: 
inadequate public notification by the Regional R-RAC office, incorrect 
public notification by the Sequoia National Forest as well as the 
withholding of information and withholding of meeting minutes.
    4.  Attempts by Sequoia National Forest officials to mislead the 
residents of the Kern River Valley, California about intended 
management changes.
Public Participation/Oversight Denied
    For about ten years the Sequoia National Forest has been collecting 
a 3% tax on the Kern River commercial outfitters (Rec Fee Demo program 
at its inception, FLREA since 2005.) During the late 1990s, the Sequoia 
held periodic public meetings addressing the use of these funds. 
Sometime during or just after the year 2000 the Sequoia National Forest 
ceased soliciting public involvement in this program. From the years 
2001 through 2006 I made periodic general requests about usage of this 
money. These requests included letters to Ms. Cheryl Bauer of the 
Sequoia's Kernville office, requests to Forest Service employees in the 
Kernville office, and requests of the Kern River Rangers who were being 
paid via this program. The only help I ever received was from the River 
Rangers who would tell me things like ``Some of this money is being 
used to pay our salaries,'' and ``We've told Cheryl that people are 
asking about this.'' In August of 2006 I sent a certified letter to Ms. 
Bauer, again requesting public participation in this program. This 
request remained unanswered.
    Eleven months later in July of 2007 I witnessed an encounter along 
side the lower river at Democrat Beach between one of the Kern River 
Rangers and a friend of mine. Samantha was being chastised--not for the 
fact that her paperwork for being on the river was out of order, but--
for the fact that she had not secured the proper paperwork for her 
friends whom she was guiding down the river. The ensuing argument 
involved the merits of bureaucracy and paperwork and the specific 
public annoyance with the Sequoia National Forest--under threat of 
penalty--requiring everybody to submit a filled out piece of paper 
every time they paddle the Kern River. At one point the discussion 
became a bit heated and the Ranger told me ``soon you are going to be 
paying a fee for kayaking this river, there's a new law that was just 
passed by Congress and you are going to have to start paying for your 
permit.'' It was on this day that I first learned of the existence of 
``The Federal Lands Recreation Enhancement Act'' or FLREA. It was also 
brought to my attention at that time that the Forest Service was going 
to raise the Forks of the Kern reservation fee from $2 to $10.
    A few days later, I once again sent another request ``via certified 
mail--to Ms. Bauer's office requesting information regarding the Rec 
Fee Demo program. Also at this time I began to inquire more strongly 
about the usage of Rec Fee Demo funds over the prior six years and I 
began asking Sequoia officials questions about Kern River access 
projects that seemed a bit askew, such as the Granite Put-In on the 
Lower Kern, completed in early 2006, but so poorly designed that 
CalTrans refused to allow it to open. The parking lot there is posted 
with ``No Parking'' signs installed at the time of its completion and 
access is restricted. I also began making inquiries into other recent 
projects with outward irregularities: the Royal Flush Portage, and the 
Johnsondale Bridge River Access.
    As of today the Sequoia National Forest continues to deny all 
public participation/oversight in the fee program that collects a 3% 
fee from all Kern River outfitters. This is a continuing and 
reoccurring theme in the next three sections.
Questionable Financial Accounting/Reporting
 ``Our financial accounting system is a nightmare.''--Ms. Mary Cole, 
Sequoia National Forest Landscape Architect, Lake Isabella Senior 
Center, March 21st, 2008.
    In September of 2007 I received a packet of information in the mail 
from Sequoia Forest Supervisor Ms. Tina Terrell (signed for her by Ms. 
Nancy Ruthenbeck.) In this letter it was stated ``The information 
requested (yearly accounting of from 2001 to the present Kern River Rec 
Fee Demo expenditures/revenues) is enclosed and addresses all of your 
concerns in all three of your letters regarding the 3% Kern River Rec 
Fee Demo expenditures/revenue.'' The information provided fell far 
short of addressing all of my concerns. Rather, it heightened my 
existing concerns and raised new ones.
    I will concentrate here on Fiscal Years 2004, 2005, and 2006 
(Sequoia officials have told me that under FLREA reports for 2007, 2008 
and 2009 are not required to be disclosed until sometime in 2010.)
Fiscal Year 2004
    Within the packet of information provided to me by the Forest 
Supervisor are two pages of computer printouts (Attachments, pages 1-2) 
which include: whiteout, cross-outs, and hand written entries. This 
seems to have been done for the purpose of matching the dollar amounts 
(receipts and expenses) of the Kern River Rec Fee Demo 2004 report to 
Congress (Attachments, page 3). The altered computer screen printouts 
were not the only strange things that arrived in this packet: it also 
included a hand written list with entries such as ``Batteries $9.42, 
Contact Cement $1.89.''
    On the 2004 report to Congress stated expenditures are $29,814. 
This amount is listed as having accomplished the following: completed 
90% of the Johnsondale Bridge Access Improvement Project (excavation of 
a hillside, installation of two permanent pit toilets, bus and trailer 
roadway, parking including handicapped parking, and a 150 yard walkway 
down to the river). Also stated is that this same $29,814 paid for two 
seasonal river rangers, paid for signage, purchased supplies and 
continued to care and police BLM restrooms for river access sites and 
maintained (a little used and now defunct) Forest Service Kern River 
Website. It is clearly impossible for all of these things to have been 
accomplished for only $29,814.
    Overall, during Fiscal Year 2004, the Sequoia National Forest 
reported receiving $73,204.48 from the Kern River outfitters and $46.00 
from the Forks of the Kern Reservation fee. This combined with 
$108,388.00 carry over from 2003 (Forest Service Kern River Rec Fee 
Demo reported receipts minus expenses for 2003) yields a total of 
$181,638.48. However, in the Sequoia Forest's report to Congress total 
receipts are listed as only $133,143.00. This leaves unaccounted 
receipts of almost $50,000.
    The Johnsondale Bridge River Access was actually paid for by the 
California Department of Boating and Waterways. This is not mentioned 
in any of these reports to Congress. As a side note, in the Sequoia's 
March 2008 Recreational Facility Analysis this river access point (and 
the Delonegha river access on the Lower Kern) were both proposed to 
become ``High Impact Recreation Areas.'' With one of the main criteria 
qualifying these as fee areas is that they ``are areas of substantial 
federal investment.'' However, they were built with state, not federal 
funds.
Fiscal Year 2005
    In this year, the Sequoia's financial accounting leaves the realm 
of questionable and enters the realm of fanciful. According to the 
Sequoia's record of outfitter collections, outfitter receipts totaled 
$114,916.39. However, the total amount deposited into Recreational 
Special Uses (of which the outfitters fee is far and away the major 
component) was only $73,430.10. (Attachments, page 4) Under this 
accounting, $40,000 of the outfitters fees never made it to the 
Recreation Special Uses Account. Equally unexplainable is the fact that 
total expenses listed under Recreation Special Uses is only $1,241.59. 
(Attachments, page 5) According to this report, among other things, two 
full time seasonal River Rangers were salaried out of this $1,242.59, 
which is clearly not possible.
Fiscal Year 2006
    According to this year's program summary (Attachments, page 5) 
Special Use Revenues (mainly outfitter's fees) were $148,244, with 
expenses being listed as only $14, 278. This again is highly 
questionable (accomplishments, under Special Uses includes the hiring 
of two River Rangers.) Moreover, under the category of Rec Fees (mainly 
campgrounds) there is a deficit of more than $50,000. According to 
these figures almost the entirety of the campground deficit must have 
been taken from the outfitter's fees. That's more than one-third of the 
account, and a clear case of fees from one user group being used to 
benefit another. According to FLREA, up to 40% of collected funds from 
an area can be transferred to another area if the Secretary of 
Agriculture deems this amount to be a surplus. Apparently, this also 
can be done without public disclosure. I have not once heard Sequoia 
officials volunteer this information. Instead, it's usually stated 
something more like this, ``FLREA allows us to keep 95% of the funds 
here in the local area for local projects.''
The California Recreation Resource Advisory Program--Participation 
        Denied
    In July of 2007 I first learned of the proposal to increase the 
Forks of the Kern reservation fee (Recreation Special Use). Because of 
my concerns about the complete lack of accountability on the part of 
the Sequoia National Forest regarding their fee program, I attended two 
public meetings regarding this: one in Lake Isabella, California, the 
other in Ridgecrest, California. I voiced these objections in person 
and sent a letter on August 31st to the Sequoia National Forest 
requesting that no fees related to the Kern River program be increased 
or initiated until the existing fee money had been accounted for. 
Nonetheless, the Sequoia Forest went ahead with this fee increase 
proposal and sent it along to the California R-RAC.
    Around Christmastime, I still had not heard from the Sequoia Forest 
regarding the R-RAC meeting. I sent a letter to Ms. Mary Cole 
requesting the time, date and location of the meeting. On Friday, 
January 4th, 2008 I received a response from Forest Supervisor Ms. Tina 
Terrell. In this letter, Ms. Terrell stated:
    <bullet>  a tentative meeting date in less than two weeks
    <bullet>  the tentative location of the meeting to be in Arcadia, 
California
    <bullet>  uncertainty whether or not the Forks of the Kern fee 
increase would even make it to the agenda ``...the RRAC will have the 
final decision on what proposals they will review.''
    I then went to the Federal Register and discovered that the R-RAC 
would indeed be meeting on January 14, and 15 but in Monrovia, 
California, not Arcadia. I also found contact information there for Ms. 
Marlene Finley, Designated Federal Official. Included were Ms. Finley's 
address, phone number, and email contact. I tried to send my concerns 
about the Rec Fee Demo/Forks of the Kern reservation fee increase to 
Ms. Finley via the email address given in the Federal Register. This 
address, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="88e5eee1e6e4edf1c8eefba6eeedeca6fdfb">[email&#160;protected]</a> was continually returned to me with the 
message ``No such user Action: failed.'' I then called the phone number 
in the federal register leaving a message with Ms. Finley requesting 
whether or not the Forks of the Kern fee increase would be on the 
agenda.
    On the following Monday, January 7th, 2008 I sent a letter to Ms. 
Finley notifying her of the nonfunctioning email address. Also within 
this letter I sent a packet of information and a letter requesting that 
the R-RAC reject this fee increase. This packet included a copy of my 
previously mentioned August 31, 2007 fee-objection letter and a copy of 
a letter sent to Ms. Cheryl Bauer of the Sequoia Forest on August 12, 
2007 requesting among other things accountability of the Rec Fee Demo 
money. On this same Monday, I also once again called Ms. Finley. Being 
sent to voice mail, I again requested to know if the Forks of the Kern 
Fee increase was going to be on the meeting's agenda.
    On the next day--still not having heard from Ms. Finley--Tuesday, 
January 8th I mailed a duplicate packet of the previous day's mailing 
to Ms. Finley. Being that the meeting date was now less than one week 
away, I sent this second packet via certified mail. That afternoon I 
did receive a voice mail message from Ms. Finley: ``What will be 
covered at next week's meeting will be posted on our website shortly''I 
will be looking for your comments in the mail.'' I then began checking 
the R-RAC website for the meeting's agenda. This agenda appeared on 
Wednesday January 9, 2008. This agenda listed nothing at all about the 
Forks of the Kern reservation fee increase. The only thing mentioned at 
all about the Sequoia Forest was under Monday January 14, 2008, 9:00am, 
Introductions, Overview of S. California and Sequoia NF Standard 
Amenity Area Fees (High Impact Recreation Areas).
    The next day, Thursday January 10, 2008, I received a call at work 
from Ms. Mary Cole of the Sequoia Forest confirming that the R-RAC 
meeting would be held the following Monday and Tuesday in Monrovia. I 
asked her if the Forks of the Kern issue would be discussed. She 
replied that she did not know, that the committee would be making that 
decision and went on to state, ``It's out of our hands.''
    On Friday January 11th I again checked the Federal Register and the 
California R-RAC site. Neither had any mention of the Forks of the Kern 
Fee increase proposal. At 12:30pm I left a voice mail message with Ms. 
Finley again asking if the Forks of the Kern issue would be on the 
meeting's agenda. At 1:42pm I received a voice mail message from Ms. 
Finley confirming that in fact the Forks of the Kern fee increase would 
be on the agenda, that it would be discussed at 10am on Tuesday January 
15th. This amounted to not quite three business days notice of the 
agenda item. This was not sufficient time for me to find a substitute 
teacher for my classes, so I was unable to attend.
    After a bit more than three weeks passing I checked the R-RAC 
website to find out what had happened at the January meeting. Being 
that there was nothing noted about it, I sent another letter to Ms. 
Finley (February 8, 2008) requesting:
    <bullet>  how each R-RAC member voted on the proposed fee increase
    <bullet>  how my concerns had been addressed by the Committee
    About one month later, March 3, 2008 having still not received a 
response, I sent a duplicate letter to Ms. Finley via certified mail. 
Two days after my duplicate letter had been signed for by Ms. Finley's 
office, a response from Ms. Finley was mailed to me that indicated the 
following:
    1.  The R-RAC requested Ms. Terrell to address the concerns raised 
in my letter (the first of which was Kern River Fee accountability)
    2.  The R-RAC asked Ms. Terrell why a permit drawing was needed 
when the quota on the Forks of the Kern had never been filled.
    3.  Ms. Terrell told them that the permit system was needed to 
protect the environment, and to ensure that those people traveling from 
across the country would have a permit when they arrived to do their 
private rafting trip.
    4.  All R-RAC meeting minutes would be posted on the R-RAC website.
    5.  The R-RAC had voted 9-1 for the fee increase that I had 
opposed.
    Being experienced with the Forks of the Kern run, and having never 
met any rafters who had traveled across the United States to conduct a 
private trip there. I went to the Kernville Ranger station to see if I 
could find out how many people were in fact using this reservation 
system and their state of origin (and whether they were rafting or 
kayaking, doing day trips or overnight trips.) A helpful person working 
in the office told me that they did not have that data in Kernville, to 
get that type of information I would need to contact the Porterville 
office. However, she said that she was fairly certain that less than 
ten--possibly some number quite a bit less than ten--total permits were 
issued for the Forks of the Kern for the previous year.
    I then wrote a letter on March 14, 2008 to Ms. Terrell in the 
Sequoia's Porterville office requesting river usage data, such as 
exactly how many users of the Forks of the Kern reservation system 
traveled across country and conducted a private rafting trip on the 
Forks of the Kern. I did not receive a response, so the following week, 
March 21st, I attended a Sequoia Forest workshop (dealing with the 
raising of campground fees) at the Senior Center in Lake Isabella. At 
this workshop I again asked Ms. Terrell for the city and state of 
origin data of those people having used the Forks of the Kern 
reservation system during the previous year. Ms. Terrell responded by 
informing me that there were privacy laws in existence and that she was 
not at liberty to give out personal information about people traveling 
from within California or from other states to the Kern River. I then 
restated that I only wanted the city and state of origin of these 
reservation permit holders, no personal information. She told me that 
she would not give the information to me. I then asked only for the 
state of origin. She responded by telling me something about how I 
always dominate her time at these workshops and she could not give me 
all of the time and attention that I demand then turned and walked 
away.
    Ten days later on March 24, I read an article in the Sacramento Bee 
about the California R-RAC. The article identified Nate Rangel as a 
member of the R-RAC. I recognized Nate's name from about fifteen years 
ago when I was managing Kern River Tours. Nate was the head of the 
California division of America Outdoors, an outfitters trade group. I 
then tracked down Nate, spoke to him on the phone and told him that I 
was trying to get information about the origins of the holders of the 
Forks of the Kern reservation permits (as he had been told by Ms. 
Terrell at the R-RAC meeting that many of them come from across the 
country.) Nate assured me that this information would be sent to me.
    On April 4, I received a letter from the Forest Supervisor, Ms. 
Terrell stating the following: ``Persons that use this system [Forks of 
the Kern Reservation] come from a considerable travel distance. In the 
last two years they have come from the Southern California area, with 
at least two hours traveling time...'' and ``The permits from previous 
years have been placed in storage and it will take more time to locate 
them and retrieve the information you have requested.'' She went on to 
state ``Enclosed are the documents that were given to the California 
Recreation Resource Advisory Committee in January for their meeting. 
They were used to reach their decision to support the increase in the 
fee for private boaters participating in the drawing.''
    The main document was a seven page Business Plan that I had never 
seen before:
Business Plan for Forks of the Kern River Private Boater Permit Drawing 
        Kern River/Tule River Ranger Districts Sequoia National Forest, 
        December 20, 2007
    During the end of December and the first two weeks of January while 
I was sending emails, certified letters, checking websites, and making 
phone calls trying to determine the location of the R-RAC meeting and 
if in fact the Forks of the Kern reservation fee increase was going to 
be on the R-RAC's agenda, this Business Plan had long since been 
completed and was waiting for presentation.
    On page five of the December, 2007 Forks of the Kern Business Plan 
is the incorrect statement (Attachments, page 6):
    ``Collections fluctuate each year depending on the length of the 
whitewater season which is determined by the amount of snow pack. For 
example, in 2007 the snow pack was 5% of normal and the season was very 
short.''
    Above this statement in the middle of the page is a chart showing 
the amount of money that was paid by users of this system from 1998 
through 2007. (On this chart, I have written in the yearly snow pack 
data as reported by the California Department of Water Resources.) 
Whoever compiled this chart and stated a correlation between 
reservation fee money collected and length of season got it very wrong. 
For example, the three heaviest years of snow pack for this decade were 
1998, 2005, and 2006. These were by far and away also the three longest 
paddling seasons of the decade. However, the average amount of 
reservation fees collected for these three years was just a bit over 
$57. This approximates to less than an average of 29 persons using the 
reservation system during these three long seasons. On the other hand, 
the three lightest years of snow pack (among the shortest seasons of 
the decade), 1999, 2004, and 2007 had an average collection amount of 
about $51. This approximates to an average of just over 25 persons 
using this reservation system during these three very short paddling 
seasons. Contrary to the statement given in the Business Plan, on the 
Forks of the Kern, there is no correlation between snow pack (length of 
season) and usage of the reservation system. One trend that can be 
noted is that the use of the reservation system peaked in 2001 with 67 
users, then showed a general decline thereafter. It is interesting to 
note, that during this peak season, the snow pack was only 66% of 
normal. Of further note, the more accurate figure in ascertaining a 
season's length is ``unimpaired runoff'' not snow pack. This is the 
actual amount of water that makes it to the river from the snow pack. A 
wet year following a dry year will have a lesser amount of runoff than 
a wet year following a wet year.
    For the record the Sequoia's Business Plan statement that the snow 
pack percentage for the Kern River basin was 5% of normal in 2007 is a 
false statement. The correct figure is 19% of normal. Furthermore, the 
2007 unimpaired runoff for the Kern River drainage was 33% of normal. 
Even though 2007 was a very dry year, runoff was much more than might 
have been expected because 2006 had been a very wet year. All of these 
figures came from the California Department of Water Resources (DWR.)
    As of this writing, in spite of several requests, the California 
Recreation Resource Advisory Committee has neither sent to me, nor 
posted on their website the minutes from their January 2008 meeting. 
What transpired at that meeting--how the Sequoia Forest Supervisor 
addressed my concerns regarding the continual denial of all public 
participation/oversight in the program that collects a 3% fee from all 
Kern River outfitters--remains as much of a secret as the fee program 
itself.
Attempts by Sequoia National Forest Officials to Mislead the Residents 
        of the Kern River Valley, California
    All references to the email conversation in this section can be 
found on pages 7-8 in the attachments.
    On Sunday May 18th, 2008 I received notice from a Kern Valley 
economic development group that the Sequoia National Forest was 
proposing fees for access to the Forks of the Kern. I went to the 
Sequoia's website but could not find this announcement. I then sent an 
email to Ms. Mary Cole asking for information about the proposed fee 
area (5/18/08, 3:46pm).
    The following morning, Monday May 19, I attended a previously 
scheduled appointment with Mr. Amean Khan, assistant to Senator Barbra 
Boxer in the Senator's Fresno field office. I presented to Mr. Khan a 
chronology--a binder of letters and responses--of my last ten months of 
being stonewalled, misled, and lied to by Sequoia National Forest 
officials. I left the binder with Mr. Khan for Senator Boxer's review. 
Mr. Khan assured me that he would be contacting Sequoia officials.
    That afternoon I received a response from Ms. Cole regarding my 
difficulties in locating the Sequoia's announcement of their new fee 
areas. She directed me to the link on the Sequoia's website that would 
provide me with this information. On the Sequoia's website, I was able 
to locate the official announcement which was dated May 9th, 2008. This 
announcement confirmed that in fact one new fee area was being proposed 
somewhere along the Lloyd Meadow Road and another was being proposed 
somewhere along the road that parallels the Upper Kern River. The 
announcement included ``To view the maps of the proposed HIRAs please 
visit our website at www.fs.fed.us/r5/sequoia/maps. This link led to a 
page of map links; ten in all. None of these links had anything to do 
with any proposed HIRAs.
    Wanting to find out if the Forks of the Kern River access road and 
parking lot was in going to be the proposed Lloyd Meadow Road HIRA and 
wanting to find out where along the Upper Kern River the other HIRA was 
to be, I again contacted Ms. Cole (5/19/08, 4:55pm.) In this email, I 
stated to her that there was no map of these proposed HIRAs on the 
Sequoia's website. I additionally stated that the Lloyd Meadow Road and 
the road along the Upper Kern River each were at least 15 miles long, 
and I again requested the locations of these proposed new HIRAs. Ms. 
Cole denied my request by referencing a website technical problem: ``I 
will forward this to the webmaster. Thanks. (5/20/08, 7:16am.)
    Three days later--I assume after having been contacted by Senator 
Boxer's assistant, Mr. Amean Khan--on Friday May 23, 2008, I received a 
message from Ms. Cole stating that my name had been put on the RFA and 
Rec Fee mailing lists. Ms. Cole also asked if I had been able to find 
the information I was seeking (the maps of the proposed HIRAs.) I wrote 
back to her (5/23/08, 11:41am) stating that I had not been able to 
locate the maps and again asked if the fee was in fact going to be a 
Forks of the Kern Special Recreation Fee. She responded stating that it 
would not be a Special Recreation Fee, that there would be a fee for 
the Lloyd Meadow and Upper Kern areas. I then again asked her (5/23/08, 
3:17pm) where along these two roads were the two proposed fee areas. I 
firmly stated to her that the press release regarding the establishment 
of these proposed fee areas had been issued more than two weeks earlier 
that the meetings were now scheduled to begin in less than two weeks, 
and the exact locations of these fee areas remained a mystery.
    Eight minutes later I received from Ms. Cole the link to the map 
showing that the Upper Kern HIRA encompassed the entire length of the 
Upper Kern Road, the Lloyd Meadow HIRA encompassed the entire length of 
the Lloyd Meadow Road (including the adjacent two mile dirt road and 
dirt parking lot that provides access to the Forks of the Kern), and 
that the Lake Isabella HIRA encompassed the entire shoreline of Lake 
Isabella.
    Over the Memorial Day weekend, the HIRA map quickly began to 
circulate around the Kern River Valley.
    One week later, I received a letter from Sequoia Forest Supervisor 
Ms. Tina Terrell, dated May 28, 2008 (Attachments, pages 9-10.) Found 
within the last paragraph of the letter's first page is Ms. Terrell's 
statement: ``There are no new fee proposals for the Forks of the 
Kern.'' This is parenthetically followed by ``Special Recreation 
Permit.'' If the District Ranger felt more of an affinity for the 
truth, the statement would read: ``There is a new fee proposal for the 
Forks of the Kern.'' This would then be followed parenthetically by 
``High Impact Recreation Area.''
    Moreover, in the first paragraph of the Forest Supervisor's letter, 
it is stated, ``The new document, dated March 19th, 2008 has been 
revised significantly [into new massive HIRA proposals], to incorporate 
the expressed desires of the public during the review period and 
subsequent public outreach efforts in 2007-2008.'' The expressed 
desires of the public were anything but incorporated into these plans 
(massive new HIRAs). Rather, the Sequoia National Forest withheld the 
proposed HIRA maps from public view in an attempt--which if it had 
succeeded, would have only have had the affect--to bypass public 
opportunities for expression. The consequent outrage directed towards 
United States Forest Service officials at the June 5, 2008 Kernville 
HIRA meeting is documented in the next section.
    At Erwin Owen Boys Camp near Kernville, California, juveniles are 
incarcerated--and justifiably so--for crimes they have committed, 
crimes that often involve cheating, manipulating, and lying. Is it fair 
or reasonable, to hold sixteen year old boys to a higher level of 
accountability than that of United States Forest Service officials?
The Kernville, California HIRA Meeting--June 5, 2008
    I arrived at the Kernville Ranger Station just after 5:30pm 
Thursday June 5. To locate parking I had to drive around the block--
past the crowd that was still trying to file inside--to the post office 
where I found an empty space. Once inside, I edged myself into a small 
room where I was literally shoulder to shoulder with more than 100 
angry Kern Valley residents. For the first few minutes, Sequoia 
officials tried to run the meeting like a high school science fair, or 
a shopping excursion to IKEA: the annoyed residents were supposed to 
file through a few at a time, in small groups, then quickly file out. 
It did not work this way, the crowd demanded a meeting. Mr. Rick 
Larsen, the District Ranger, took the initiative, stood on a chair (one 
of the two chairs in the room) and began to speak. The questions came 
out in rapid fire: ``What have you done with the campground fees you've 
been collecting at the lake for the last three years?'' ``How much of 
the money collected from the campgrounds, stays in the campgrounds?'' 
``Why are the campgrounds just as trashed out today as they were when 
you started collecting fees three years ago?'' ``What have the 3% funds 
collected from the rafting companies been used for?'' What is the total 
amount you have collected from them to date?'' ``Do you have separate 
accounts for each of these areas?'' ``Where are your Business Plans?'' 
``Why did you try to sneak these fees [HIRAs] in?'' ``Can we get 
answers to these questions in the near future?''
    The answer to all of these questions was--they did not have an 
answer.
    On three occasions Sequoia officials tried to break the crowd up 
into small ``brainstorming'' groups. That was a no-go. Leaders of the 
local Chambers of Commerce denounced the huge HIRA (fee) map that was 
prominently displayed. ``That was never shown to any of us!'' one of 
them told the crowd. Kate DeVries representing herself and her husband 
Kawaiisu Tribal Elder David Laughing Horse Robinson quietly demanded 
``Can you account for the last three years of Lake Isabella campground 
fees, yes or no?'' Mr. Larsen began to answer with an explanation. Ms. 
DeVries forcefully reiterated ``Yes or No?'' Mr. Larsen responded ``The 
short answer is no.''
    For a period of time the discussion focused on the new word, HIRA: 
Question: ``Does this mean we will have to pay just to park our car up-
river?'' Mr. Larsen's answer: ``No, you will not have to pay to park 
your car.'' Question: ``Well, what will we have to pay for?'' Answer: 
``You will only have to pay if you recreate.'' Question: ``So, what if 
I just get out of my car and walk down to the river?'' Answer: ``You 
will have to pay.'' Question: ``I will have to pay even if I just get 
out of the car to look at the flowers?'' Answer: ``Yes.'' A woman 
standing behind me wondered aloud if this now meant that she and her 
friends who pick up trash along the river as both community service and 
a social activity would now have to purchase a $50 pass to do so. 
Somebody answered her with the observation that HIRA is a four letter 
word.
    This continued unabated for more than one and one-half hours. Near 
the meeting's end, I stated aloud ``I've been attending these meetings 
since August of last year and never was there any indication at any of 
them that there would be HIRAs [fee areas] of such magnitude.'' I then 
posed the question to Sequoia officials, ``How did you come up with 
this?'' Stiffening, three Sequoia officials quickly turned towards me, 
Mr. Rick Larsen, District Ranger, pointed an accusing finger and 
proclaimed ``It was because of you Peter! You did it!''
    George Orwell warned about this stuff when he wrote Animal Farm. 
Now, there's a certain species of four-legged barnyard animal making 
themselves comfortable on our front porch. Mr. Chairman and 
Distinguished Members of the Subcommittee please don't open the door. 
Please don't let them in.
        At Erwin Owen Boys Camp, a boy who fails his program is 
        returned to Kern County Juvenile Court for another appearance 
        before the judge. Usually this results in additional time 
        served at a more restrictive detention facility. The expression 
        the boys have given to this process is ``going-down-
        backwards.''
    Officials of the United States Forest Service have failed their 
program.
                                 ______
                                 
    Mr. Grijalva. Thank you. Let me yield to my colleague, Mrs. 
Capps, for her questions. She has a pending conflict of time.
    Mrs. Capps. Thank you very much, Mr. Chairman. Thank you, 
each of you, who have testified in this panel. I just only wish 
that the previous two panelists were still present in the room 
for this discussion in the very important hearing that we are 
having today.
    Ms. Benzar, the FLREA says that there can be no fee solely 
for undesignated parking or picnicking along roads or trail 
sides. Are the agencies charging a fee for roadside parking in 
some places? You bet. You gave quite a compelling example of 
that, with the Federal magistrate being involved in a case. 
Would you care to elaborate? Would you like to give another 
example because you were only allowed five minutes in your 
testimony?
    Ms. Benzar. Sure. I can give you the example of Mount Evans 
in my home State of Colorado, somewhat west of Denver. It is a 
paved state highway, built and maintained with Colorado 
Department of Transportation funding. It is the highest paved 
highway in North America. It goes nearly to the very top of a 
14,000-plus foot peak.
    Along that highway, I cannot call it an ``entrance 
station'' because entrance fees are illegal, but there is a 
station at the bottom where they collect a fee. All cars have 
to go past it. It looks just like the entrance to a National 
Park.
    As you go through, you pay your fee, if you want to stop 
your car anywhere along that road. If you choose not to stop, 
you do not have to pay, but they do not make that very clear, 
and most people feel, oh, this is just an entrance----
    Mrs. Capps. Like a toll road.
    Ms. Benzar.--I am going to pay it. Yes.
    Now, the law also states that there can be no charge for 
scenic overlooks. The only attractions along the Mount Evans 
Highway are scenic overlooks, with the ultimate overlook being 
at the very top. They are clearly charging anybody who pulls 
over to the side of the road to take a picture, to set foot on 
the ground, or to use the overlook at the top. There are 
telescopes at the top.
    If you have not paid your fee, you will be ticketed, and 
that is a Federal misdemeanor. They can charge Class A or Class 
B, their choice.
    Mrs. Capps. Thank you. That is excellent. Mr. Wiechers, my 
next question is for you.
    Your testimony, and I understand you went to Cal Poly----
    Mr. Wiechers. I did, yes.
    Mrs. Capps.--which is in my district--your testimony is 
filled with examples of abuse by the Forest Service. I 
appreciate your bringing this to the Committee's attention. All 
of your testimony is on the written record now.
    Recent reports by the GAO found many faults with the Forest 
Service accounting procedures over collected fees. You did give 
some striking examples, but share with us what you have learned 
during your investigations of accounting at the Sequoia 
National Forest. You have spent a great deal of time there.
    Mr. Wiechers. Yes. One of the things, just the stuff that I 
got from them when I would ask about, ``What have you done with 
this Rec. Fee Demo money?'' because there was really not a lot 
of obvious things on the ground. They did send me reports, and 
included in their reports were a couple of computer printouts 
that had white-outs and cross-outs in it. It looked like they 
had done that for the purpose of matching the report that they 
gave to Congress.
    There were other weird things in there like a list of 
things that said, We bought contact cement, and it was $1.89, 
or something like that.
    I also found, as much as I could tell from what they 
provided me with, that, in one year, this Rec. Fee Demo money 
that the outfitters are paying; it looked like about 40 percent 
of it just got siphoned off and sent off to campgrounds or 
someplace else. I mean, that is a question that apparently the 
outfitters have been asking them a little bit, anyway, for the 
last several years: Where is this money? What is going on with 
it? Nobody can get an answer.
    Mrs. Capps. Thank you. Mr. Chairman, I would like to ask 
that if any of these experts who are giving testimony today 
have materials that they wish to submit for the record, that 
they be allowed to do that. That would be very valuable for the 
Subcommittee to have.
    Mr. Grijalva. Thank you. As I indicated at the beginning, 
if there are extraneous materials that you want to be made part 
of the record, they will be.
    Mr. Wiechers. I did give out--I guess it was for the 
press--a picture and just some newspaper articles from the two 
weekly newspapers in the valley where I live, if I could----
    Mrs. Capps. I would ask that those be allowed to be----
    Mr. Grijalva. Without objection.
    Mr. Wiechers. OK.
    Mrs. Capps. Thank you very much. We could go back and forth 
between the two of you, but I want to turn to Mr. Eskridge.
    As you are well aware, all of the Federal land management 
agencies had authority, under the Land and Water Conservation 
Fund Act, to charge fees for certain developed recreation 
sites. The shift of such sites from the LWCFA, or the Land and 
Water Conservation Fund Act, authority over the Fee Demo, and 
then the FLREA can give a false impression of how much new 
money is being raised. There were fees collected before. It was 
a different agency.
    So I am asking you now, wouldn't many of the FLREA sites 
that you are familiar with, such as campgrounds and boat 
launches, still qualify to charge fees if the Land and Water 
Conservation Fund Act rules were restored. In other words, if 
something happened to these FLREA funds, you would still be 
able to collect funds from these sites under the previous 
designation of the Land and Water Conservation Fund Act.
    Mr. Eskridge. Madam Congressman and Mr. Chairman, that is 
my understanding. In fact, I believe that is true. In fact, if 
I could refer to that original Land and Water Conservation Fund 
Act, I think the process there was fairly reasonable, and it 
did produce the fees that were in conjunction with the intent 
of providing fees for a perceived benefit.
    Mrs. Capps. If I could just close this question because 
that red light is on, I am wondering if you would support 
legislation, then, to repeal FLREA and reinstate the Land and 
Water Conservation Fund Act. Would that be fine, in terms of 
the funding that would be able to be used for the maintenance 
in your local area?
    Mr. Eskridge. Mr. Chairman and Madam Congressman, that 
would be my opinion, at this point. That is what my 
constituents are telling me. That original legislation was 
serving its purpose.
    This new legislation has been nothing but a problem. It has 
been confusing. It is applying fees where fees should not be 
applied. It just seems like an opportunity for the agencies to 
take advantage of the public.
    Mrs. Capps. Thank you very much.
    Mr. Eskridge. If I may, Mr. Chairman, I forgot, in my 
original remarks, but could I take just a moment of your 
indulgence?
    Mr. Grijalva. A moment, sir, a moment of indulgence.
    Mr. Eskridge. I wish your staff assistant, Laurel Angell, 
happy birthday. For a novice to this proceeding, as a state 
legislator, I appreciate her help and advice in helping me 
prepare here and to not embarrass my Congressman from Idaho. 
Thank you.
    Mr. Grijalva. Thank you for that, and we're commenting 
that, as a celebration for her birthday, she was required to be 
here at this meeting today.
    Mr. Sali, any questions sir?
    Mr. Sali. Well, Mr. Chairman, I am wondering if there was a 
fee for her to get into the facility today.
    I would like to, first of all, welcome Mr. Eskridge to the 
Committee, and I want to thank you for traveling from our great 
state to be here and give your testimony.
    As you know, many of the rural counties in Idaho have gone 
through paralyzing economic downturns, in large part, because 
of reduced timber harvests on Federal lands that has become 
nearly nonexistent in many of the communities. Historically, 
those counties have enjoyed a level of prosperity from those 
harvests--the related mills and the other related industries--
and those timber sales also provided substantial revenue to the 
Forest Service.
    The significant changes in the forest management policy 
have caused, really, I think, the death of much of the timber 
harvesting in all of the West, and this has had a substantial 
impact, including many families losing their jobs in these 
rural communities, the school districts losing money for 
educating children in the communities, counties losing money to 
maintain the road systems, and not to mention losing revenue 
that the Forest Service brought into the treasury through those 
timber sales.
    Given that perspective, I think it is no wonder that many 
in Idaho do not favor additional fees for recreational use on 
the same public lands that once supported their jobs, that used 
to put money into their schools, and used to sustain their 
local economies.
    I do not think Idahoans are unreasonable. I do not think 
there is really much concern with fees being imposed to rent a 
fire tower or an overnight cabin or for digging for star 
garnets at a developed dig site.
    There are, I think, concerns if they are going to be asked 
to pay a fee to hike or picnic in the woods or raft in the 
river.
    You mentioned in your testimony the forest-management 
practices that have changed dramatically, and particularly with 
regard to timber harvests, and the decline in timber harvests 
impacts those schools and counties because of secure rural 
school funding. I note that those same practices are also 
largely contributing to the growing wildland fires that we are 
seeing across the West.
    My question is this: For rural communities in Idaho, like 
the communities you represent, with the Forest Service budget 
such as it is, do you see part of the solution to these 
recreation issues being a more comprehensive approach to the 
Forest Service budget issues that would include replacement or 
renewing of that income that used to come, that revenue that 
used to come, into the Forest Service that could then be used 
to replace the fees that you would like to do away with?
    Mr. Eskridge. Mr. Chairman and Congressman Sali, I think 
you have said it very well. One of my primary concerns is the 
loss of the forest products industry in my state, in our state. 
That has had a significant impact.
    In the area where I live, we suffered several mill 
closures. We have lost that economic benefit to our region, to 
our state. We now look at the tourist industry as an 
alternative, part of an economic strategy in our state to 
recover from this loss of a major industry.
    Part of that tourist industry strategy involves the use of 
recreational facilities on public lands. Now, charging fees for 
the use of those facilities, fees that are questionable, in 
terms of their purpose and their benefit that they produce, is 
my primary concern with this legislation being enacted now.
    The impact of those fees is going to create a double-
negative impact on my state. First of all, the negative impact 
is a result of our reduced forest. That reduces not only the 
revenue to the United States Forest Service; it also reduces 
the revenue achieved in those local areas surrounding those 
Federal lands, in terms of employment benefits and tax revenues 
and other things.
    We have lost our revenue. Now we are going to add insult to 
injury by assessing a fee to the people in my area, and the 
people visiting my area, for visiting those recreational 
facilities. That, in my opinion, has already resulted, and will 
continue to result, in a decreased use, and that is going to 
impact our tourist strategy. It is going to impact our ability 
to recover from the economic loss of the forest products 
industry.
    That is my concern, yet alone just the impact on my 
citizens. The average income in Idaho is $25,000. That does not 
leave us a lot of room for recreational opportunities. It does 
not leave a lot of room for my people to spend a couple of 
hundred dollars a month on recreation. Their alternative is the 
Federal public lands, and, to the degree that we price them out 
of that opportunity, I am respond, and, for that reason, I hope 
we revisit this whole issue. Thank you.
    Mr. Sali. Thank you, Mr. Chairman.
    Mr. Grijalva. Thank you. Some quick questions. Mr. 
Eskridge, let me just follow up.
    You indicated that the legislature, the Idaho legislature, 
sent copies of its anti-fee resolution to the administration, 
House and Senate leadership. What kinds of responses have you 
received up to this point?
    Mr. Eskridge. Mr. Chairman, I am disappointed. It would 
seem to me, with the Idaho legislature 100 percent behind this 
resolution, it would have given a signal to the land management 
agencies that they had a problem.
    Other than some brief testimony in the hearing process when 
we adopted that memorial, I have heard nothing from the Forest 
Service, no indication of their attempt to recognize the issue 
that I have brought up. It is disappointing, Mr. Chairman.
    Mr. Grijalva. Thank you. Ms. Benzar, in your opinion, and 
based on, well, extensive research and the longtime advocacy 
that you have provided to this issue, which agency most abuses 
its fee authority, and which deserves the most praise?
    Ms. Benzar. Praise? OK. Mr. Chairman, that is a difficult 
question. You are almost asking me, which end of the stick do I 
want to be hit with?
    Certainly, the Forest Service is the biggest abuser. That 
is easy, not even close.
    As far as praise, I would almost have to say the Bureau of 
Reclamation because they have largely chosen not to implement 
their authority under this law, and I wish the other agencies 
would follow their lead.
    Mr. Grijalva. Thank you. Mr. Wade, on that same, not the 
praise question, but along the same line, which fees currently 
being charged at National Parks are most in need of repeal, and 
why do you say so?
    Mr. Wade. I would say probably the fees that are being 
charged for interpretive programs and probably the fees that 
are being charged for access to the backcountry through 
charging for permits; those seem to me to be core, essential 
services that the National Park Service ought to be providing 
and that we should not have to resort to charging people 
additional dollars in order to undertake those activities.
    Mr. Grijalva. Then one last question for Ms. Benzar and Mr. 
Wade.
    Secretary Rey, I think, talked about how helpful this fee 
has been, with backlogged issues and unfunded needs that our 
public lands have, that it has been so helpful that it 
outweighs any problem. To make his point, he said that, you 
know, there has been such a benefit that the public is 
generally tolerant of that fee scale.
    Assuming that his logic is correct--quite an assumption, I 
might add--why hasn't there been that volume of outcry about 
the fee scale, according to Secretary Rey's testimony?
    Ms. Benzar. I would be happy to go first. I would just 
suggest that Mr. Rey take a look at my e-mail in-box. I hear 
daily from people who have encountered a fee, many of them for 
the first time, and are outraged. If you Google this issue, you 
will end up talking to me, and I have talked to a lot of people 
about this.
    Their maintenance backlog; I think you put a number, $800 
billion, on it. I am sorry, but the GAO has said they do not 
track that, and so I do not see how they can put any number on 
it.
    Mr. Grijalva. OK.
    Ms. Benzar. The GAO has said they cannot say how the fees 
have addressed it, and what I did hear them say is that they 
are building new capital improvements, which are only going to 
add to that backlog.
    The money people pay is not going back to the area where 
they pay it. If they buy an annual national pass or a regional 
pass, it stays largely at the vendor where they buy it, and 
they do not know where it goes after that. It does not go to 
the sites they actually visit. That whole concept has not 
worked, on the ground, in practice.
    Mr. Grijalva. Thank you. Mr. Wade?
    Mr. Wade. I alluded to this a bit in my comments, but I 
think the problem is that it is almost like comparing apples 
and oranges, you know. Given a choice of paying an additional 
fee, whether it is an entrance fee or a special recreation fee 
or something, versus the continuing decline of the operational 
capability of the National Park Service, and the maintenance 
backlog continuing to increase, there is no doubt that most 
people feel like it is worth paying the extra fee. But the 
consequences that go along with that that I already mentioned 
are not usually taken into consideration.
    So it is easy to say 85 percent of the people support it, 
but if they were given a choice to do that versus have more of 
those services covered by basic appropriations so that they did 
not have to be nickeled and dimed, so to speak, I think there 
would be an overwhelming turn on that support issue.
    Mr. Grijalva. Thank you very much, and let me thank all of 
your for the hearing. Chairwoman Napolitano has indicated that 
she has no follow-up questions. Mr. Sali?
    Mrs. Napolitano. I do have some.
    Mr. Grijalva. You do? I am sorry.
    Mrs. Napolitano. Thank you, Mr. Chair. I just want to 
ensure that--I am going to be submitting some questions for the 
record, especially at the Department of the Interior, in regard 
to invasive species, which is greatly affecting some of our 
rivers and canals, and I am trying to find out how we can work 
cooperatively with other agencies in being able to address it 
ahead of its being critical for recreation. Thank you, Mr. 
Chair.
    Mr. Grijalva. Thank you, and excuse my jumping ahead and 
not knowing you had a question.
    Mr. Sali, any comments?
    Mr. Sali. Another question for Mr. Eskridge. George, I 
know, in Idaho, we have a number of state parks as well that I 
think we do a pretty good job of managing there, and I am 
wondering if there was a process to allow--it would probably 
have to be some kind of a pilot on the front end--some kind of 
process for the states to actually take over management of some 
of these park areas, and, given the experience we have had in 
Idaho, I think it is pretty positive. Do you think that that 
would help eliminate some of the problem with the fees needing 
to be charged?
    Mr. Eskridge. Mr. Chairman and Congressman Sali, I think 
that is a great idea. In fact, we have discussed that with 
certain members of our legislature, not only in the area of 
park lands but also in forest management. It has been proven--
we can prove it by statistics--that our management of our 
forest lands, our state-owned forest lands has resulted in 
significant amounts of revenue under the intent of the use of 
those lands for the benefit of our schools.
    We have produced more revenue per acre. Our firefighting 
costs are less per acre. Our whole management structure has 
proved to be of a more efficient nature than the counterpart in 
the U.S. forest lands. I think we can show the same thing in 
park lands as well. Thank you for that question.
    Mr. Grijalva. Thank you very much. Let me just close by 
thanking our witnesses. It has been 11 years since the process 
of charging fees began, and the agencies, I believe, have a 
long way to go in managing their fee programs and accounting 
for them professionally through standards, both to Congress and 
the public.
    Part of this mad dash for the fee money has been the 
consequence of this Congress and administration not providing 
sufficient funding for the upkeep, backlog, and services that 
the public demands that they pay for at the beginning for their 
public lands.
    After three years of implementation of the REA act, I think 
all of us know it is not a magic bullet this is going to deal 
with all of the problems associated with our public lands, and 
there are still significant problems.
    We need to deal with these problems honestly and openly, 
debate them, and how to either mend this program or repeal it 
altogether. As we go forward, I think your testimony has been 
essential.
    It is an area of oversight that we have overlooked in the 
past, and I am happy for you to join us today to begin what I 
believe is a beneficial process for all Americans. This is a 
shared responsibility that we have in our public lands. Looking 
at this fee schedule, what it promised, what it is not doing, 
and also the kind of loose interpretation of what the REA law 
is, in terms of the application of fees in our public lands; 
all of those have to be looked at, and I am looking forward to 
the debate and to the development of legislation to deal with 
this. Thank you so much, and the meeting is adjourned.
    [Whereupon, at 12:10 p.m., the Subcommittees were 
adjourned.]

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
